                                                                                                         sigar
SIGAR
Special Inspector General                                                                                                       Special Inspector General for   OCT 30




                                 SIGAR | Quarterly Report to the United States Congress | OCT 30, 2010
for Afghanistan Reconstruction
                                                                                                                                Afghanistan Reconstruction       2010
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 4                                                                       Quarterly Report to the United States Congress
Cover Captions (clockwise from left):
An Afghan examines the complex ballot for
the September 18 parliamentary elections.
The Afghan Independent Election Commis-
sion took full responsibility for elections
preparation, using funding provided by the
international community through the United
Nations Development Programme. Final
results will be announced in early Novem-
ber. (USAID photo)
A farmer feeds livestock at the fourth
International AgFair, held in Kabul on Octo-
ber 7, 2010. Afghanistan is home to one of
the fastest-growing agricultural markets in
Central Asia. The fair presented an opportu-
nity for Afghans to showcase their products
to potential exporters. (ISAF photo, SSgt
Joseph Swafford)
Afghan girls attend the Omid School in
Kabul in October. This quarter, more than
100 girls and teachers were poisoned with
an agricultural pesticide. Toxicologists
confirmed that the exposure was intentional
and could not have been caused by
casual or regular contact. Attacks on
Afghan schoolgirls have occurred regularly
since the fall of the Taliban. (U.S. Navy
photo, CPO Joshua R. Treadwell)
A cobbler assembles combat boots for
the ANA at the Afghan-owned Milli Trading
Company factory in Kabul in September.
Formerly, U.S. companies supplied boots to
the ANA. The Afghan First initiative encour-
ages the ANA, NATO, ISAF, and U.S. forces
to increase procurement from Afghan com-       The new Tojg Bridge is open for traffic after three years of construction. Funded by CERP, the
panies. This factory makes about 2,400         $1.7 million bridge stretches approximately 300 meters across the Farah River, providing a
boots per day. (U.S. Air Force photo, SSgt       shorter route between several districts and the capital of Farah. The bridge is expected to
Sarah Brown)                                    enhance economic activity and to reduce the ANA’s response time in the area. (ISAF photo)
sigar                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     Oct 30
                                                                                      2010




The National Defense Authorization Act (P.L. 110-181) established
the Special Inspector General for Afghanistan Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
•	 conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
•	 leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations; and prevent and detect waste, fraud, and abuse in such programs
   and operations.
•	 means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated, or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
SIGAR results to Date
AUDITS
•	 34 completed audit reports, addressing more than $4.4 billion in reconstruction spending
•	 18 audit reports related to contract management and oversight
•	 3 forensic audits currently analyzing more than $37 billion of reconstruction contract data

INVESTIGATIONS
•	 81 ongoing investigations of contracts totaling $6.1 billion
•	 4 convictions, 9 dismissed, and more than $6 million in repayments to the U.S. government
•	 333 Hotline complaints received and addressed

operations
•	 Work conducted in 22 of Afghanistan’s 34 provinces 	
   in 48 locations (districts, cities, and forward operating bases) 	




                                               JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                             BALKH                    TAKHAR


                                                               SAMANGAN
                                   FARYAB                                     BAGHLAN
                                               SAR-E PUL                          PANJSHIR
                         BADGHIS                                                       NURISTAN
                                                                       PARWAN   KAPISA      KUNAR
                                                             BAMYAN                 LAGHMAN
                                                                             KABUL
           HERAT                                                    WARDAK
                                                                                      NANGARHAR
                                   GHOR                                    LOGAR
                                                DAYKUNDI
                                                                                      PAKTIYA
                                                                   GHAZNI                 KHOWST

                                             URUZGAN
             FARAH
                                                                            PAKTIKA
                                                           ZABUL


                                                                                                       Provinces where SIGAR has conducted
                                                                                                       audits and investigations
            NIMROZ                                                                                     Current SIGAR offices
                        HELMAND
                                          KANDAHAR
                                           SPECIAL INSPECTOR GENERAL              for

                                           AFGHANISTAN RECONSTRUCTION



     October 30, 2010


     I am pleased to submit SIGAR’s ninth quarterly report to the Congress on the U.S. reconstruction effort
in Afghanistan. This report provides details about SIGAR’s oversight activities as well as an update on the
status of reconstruction programs in Afghanistan for the reporting period ending October 30, 2010.
     This quarter marked the beginning of the tenth year of the U.S. engagement in Afghanistan. Since 2001,
the Congress has appropriated approximately $56 billion to build Afghan security forces, develop governing
capacity, and foster economic development. In his FY 2011 budget, President Obama requested an additional
$16.2 billion, which would bring total funding for Afghanistan’s reconstruction to more than $72 billion.
     I just returned from my eighth trip to Afghanistan. I met with the senior U.S. civilian and military lead-
ership and with Afghan government officials, including President Hamid Karzai and the governors of Balkh
and Laghman provinces. My discussions focused on key issues that SIGAR has identified as putting the U.S.
investment at risk of loss due to waste, fraud, or abuse. These issues include contracting, corruption, the
U.S. plan to channel direct assistance through Afghan government institutions, and the development of the
Afghan National Security Forces:
•	   Although the U.S. reconstruction program has depended heavily on contractors, SIGAR’s audits have
     found that U.S. agencies continue to have difficulty providing oversight of project implementation,
     ensuring quality control, and maintaining contract files. During my visit, the Commander of the Inter-
     national Security Assistance Force (ISAF), General David Petraeus, told me that he is increasing
     the military’s contracting capacity and deploying contracting officers to forward operating bases to
     improve contract and program management. He has also issued new contracting guidance that focuses
     on better implementing the Afghan First policy, which seeks to make hiring Afghan companies a prior-
     ity, and also emphasizes the importance of sound contracting practices.
•	   Corruption continues to have a debilitating impact on reconstruction. U.S. Embassy Kabul has pro-
     duced a draft of a comprehensive anti-corruption strategy to guide U.S. efforts in Afghanistan, but the
     Department of State has not yet approved it. Nevertheless, the U.S. Embassy told SIGAR that it is pro-
     ceeding to implement the draft strategy. In our audit of U.S. anti-corruption efforts, we recommended
     that the Department of State approve the strategy and also provide key Afghan institutions with more
     assistance to strengthen their ability to deter corruption.
•	   The United States has committed itself to channeling as much as 50% of its development assistance
     through the Afghan government. I am concerned that the Afghan government does not yet have the
     capacity to manage and account for this increase in donor funds. In Nangarhar province, for example,




                                 2221 South Clark Street, Suite 800   Arlington, Virginia 22202
     the United States invested $100 million in 2009. Our audit of U.S. development assistance in Nangarhar
     found that the province does not have the capacity to independently manage development funds, lacks
     a functioning development planning process, and is unable to sustain completed projects.
•	   The U.S. strategy in Afghanistan depends on building Afghan security forces capable of conducting in-
     dependent operations. Because more than half of all U.S. reconstruction dollars are going to build the
     ANSF, the United States must have an effective way to measure the capabilities of the Afghan security
     forces. I am pleased that the ISAF Joint Command (IJC) is now using a new system to measure the
     capabilities of both the Afghan National Army (ANA) and the Afghan National Police (ANP). The new
     Commander’s Unit Assessment Tool (CUAT) incorporates most of the recommendations that SIGAR
     made in our audit of the old rating system.

     Even with the positive steps toward improving oversight of reconstruction funds, SIGAR’s work to
date indicates that the large U.S. investment in Afghanistan remains at significant risk of being wasted or
subject to fraud and abuse. In Section 1 of this report, we discuss six broad issues that the United States
must address to protect its investment.
     Over the last 18 months, SIGAR has issued 34 audit reports and made more than 100 recommendations
to improve projects valued at a total of more than $4.4 billion. SIGAR has also participated in joint investi-
gations, resulting in convictions and dismissals of individuals involved in bribery and procurement fraud,
as well as the repayment of several million dollars to the U.S. government. SIGAR has 81 ongoing investiga-
tions of contract fraud, procurement fraud, and corruption.
     As we review reconstruction efforts, we are strengthening our organization. SIGAR has implemented
all of the peer review’s recommendations for the Audits Directorate, and our Investigations Directorate is
now fully compliant with all Attorney General guidelines and CIGIE qualitative standards. At the time this
report went to press, SIGAR had 117 full-time employees. SIGAR is continuing to hire auditors and investi-
gators to provide the oversight necessary to detect and prevent waste, fraud, and abuse of taxpayer dollars
on the critical effort to rebuild Afghanistan.




Very respectfully,




Arnold Fields
Special Inspector General for Afghanistan Reconstruction




                           2221 South Clark Street, Suite 800   Arlington, Virginia 22202
Table of contents




     Section 1
     Afghanistan Overview
     	 3	     Risks to the U.S. Investment
     	 4	     Contracting and Program Management
     	 6	     Collaboration with Afghans
     	 8	     Metrics
     	 9	     Corruption
     	 10	    Afghan Capacity
     	 12	    Security
     	 13	    Looking Ahead




     Section 2
     SIGAR oversight
     	 17	    SIGAR Audits
     	 36	    SIGAR Investigations
     	 39	    Peer Review
     	 40	    SIGAR Budget
     	 40	    SIGAR Staff




     Section 3
     Reconstruction Update
     	 45	    Overview
     	 49	    Status of Funds
     	 61	    Security
     	 77	    Governance
     	 93	    Economic and Social Development
     	109	    Counter-Narcotics
      	113	   Anti-Corruption
Table of contents




   Section 4
   Other agency Oversight
   	 21 	 Completed Oversight Activities
   1
   	127 	 Ongoing Oversight Activities
    	137 	 Other Agency Investigations




   Appendices & Endnotes
   	 40 	 Appendix A: Cross-Reference of Report
   1
   	 	 	              to Statutory Requirements
   	146 	 Appendix B: U.S. Government Appropriated Funds
   	148 	 Appendix C: SIGAR Audits
   	150 	 Appendix D: SIGAR Investigations and Hotline
   	151 	 Appendix E: Abbreviations and Acronyms
   	154 	 Endnotes
              Linking Farmers and Customers
              AnCaption
                 Afghan Head
                          farmer finds a market for his crops at the
              fourth International
                Caption             AgFair,
                         here caption  herewhich  washere
                                             caption    heldcaption
                                                             in Kabul  in caption
                                                                     here
              October.  Revitalizing
                here caption         the agricultural
                              here caption            sector
                                            here caption      is the
                                                           here      number
                                                                  caption here
              one  domestic
                caption here priority of U.S.photo,
                              (U.S. Branch    policy SSgt
                                                     in Afghanistan.
                                                          John Doe)
              (ISAF photo, MCC Jason Carter)




222   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
1   AFGHANISTAN
    OVERVIEW




        1
        AFGHANISTAN OVERVIEW




 “While we all desire fast results,
haste in contracting invites fraud,
  waste, and abuse. Plan ahead,
  establish reasonable timelines,
   and ensure transparency and
   oversight so that contracting
    and procurement reinforce
     rather than detract from
          our objectives.”
                  —Gen. David Petraeus,
            Commander, ISAF and USFOR-A




        Source: COMISAF, “COMISAF’s Counterinsurgency (COIN) Contracting Guidance,” 9/8/2010.




             2                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
During this reporting period, the U.S. engagement in Afghanistan entered
its 10th year. U.S. funding for Afghanistan reconstruction now exceeds the
amount provided in Iraq. Since the United States and its coalition partners
began operations on October 7, 2001, the United States has invested approxi-
mately $56 billion to build the Afghan security forces, provide social services,
promote economic development, and improve governance in a country that had
been devastated by decades of war and a brutal government. More than 75% of
this funding—approximately $43 billion—has been appropriated since 2007.
President Barack Obama has asked the Congress to provide an additional
$16.2 billion in reconstruction funding for fiscal year (FY) 2011, which would
bring the total to more than $72 billion, far surpassing the $53.8 billion that the
United States has provided for reconstruction in Iraq.
    Through its audit and investigative work over the last 18 months, SIGAR
has identified six broad issues that expose the U.S. investment in Afghanistan
reconstruction to waste, fraud, and abuse. SIGAR has issued 34 audit reports and
made more than 100 recommendations to mitigate these risks, prevent waste,
and promote economy, efficiency, and effectiveness in reconstruction programs.
Implementing agencies have concurred or partially concurred with all of
SIGAR’s recommendations. SIGAR continues to track the implementation of
these recommendations.
    This quarter, SIGAR issued seven reports that touch on multiple risk
factors and specifically address three audit priority areas: contracting, anti-
corruption and capacity building, and the development of the Afghan National
Security Forces (ANSF).

RISKS TO THE U.S. INVESTMENT
The risks that U.S. funding will be subject to waste, fraud, and abuse fall into two
broad, overlapping categories: U.S. government management of the funds, and
the difficult environment in which reconstruction is taking place in Afghanistan.
The United States needs to improve its management of reconstruction dollars in
three areas:
• contracting and program management
• collaboration with Afghans
• metrics to appropriately measure progress




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            3
AFGHANISTAN OVERVIEW




   The U.S. reconstruction effort also continues to face a number of serious chal-
lenges as a result of the circumstances in Afghanistan. Three major challenges
put the U.S. reconstruction effort in jeopardy:
 • corruption
 • limited Afghan capacity to manage and sustain projects
 • security

CONTRACTING AND PROGRAM MANAGEMENT
The Congress has apportioned most reconstruction funding to the Department
of Defense (DoD), the Department of State (DoS), and the U.S. Agency for
International Development (USAID). These agencies have relied extensively on
contractors to provide a broad range of services in Afghanistan. Although the
Congress has required DoD, DoS, and USAID to create a common database to
track contractor personnel and contracts, these agencies have had difficulty
using this database. Moreover, none of these agencies has routinely provided
information on which contracts, cooperative agreements, and grants are used for
reconstruction as opposed to other activities in Afghanistan, such as support for
U.S. troops.
   In fact, both SIGAR and the Special Inspector General for Iraq Reconstruction
have repeatedly identified information management as a serious challenge to
reconstruction efforts. Yet the United States still does not have an integrated
management information system that can provide a common operating picture of
U.S. reconstruction projects and programs. The lack of such a system continues
to make it extremely difficult for the U.S. government to effectively monitor the
expanding reconstruction program in Afghanistan.
   This quarter, SIGAR completed the first review ever to identify the contrac-
tors and implementing partners involved in Afghanistan reconstruction and
the financial mechanisms used to award contracts, grants, and cooperative
agreements. SIGAR found that DoD, DoS, and USAID had obligated more than
$17.7 billion to as many as 6,900 contractors and other entities from FY 2007 to
FY 2009. SIGAR is using this information to guide its audits and investigations
work. The audit underscores how much oversight is required in Afghanistan and
will help SIGAR prioritize its future work. For details of the audit’s findings, see
Section 2 of this report.
   Approximately half of the reviews SIGAR has completed to date assessed
contract management and contractor performance on contracts with a combined
value of more than $2.6 billion. Even though the United States has been involved
in Afghanistan reconstruction for nearly a decade, SIGAR has found that U.S.
implementing agencies continue to have difficulty maintaining contract files, pro-
viding oversight of project implementation, and ensuring quality control. This is
true for both small and large contracts. For example, SIGAR’s audit this quarter
of a contract to build six Afghan National Police (ANP) headquarters in Helmand
and Kandahar provinces identified numerous problems, including project delays




   4                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




and shoddy construction. The U.S. Army Corps of Engineers, which was
responsible for managing the $5.9 million contract, failed to conduct sufficient
oversight and made payments to the Afghan contractor based on incomplete
quality assurance reports. The U.S. government probably will need to pay an
additional $1 million—nearly 17% of the value of the contract—to repair the
structural deficiencies. SIGAR’s earlier audits of infrastructure projects for the
Afghan National Army (ANA) identified similar contract management problems.

Afghan First Policy and New Contracting Guidelines
As part of its Afghan First policy, the United States has made it a top priority to
award more contracts to Afghan firms. At the same time, there has been growing
concern that some companies hired to provide security, supplies, and recon-
struction work have been siphoning off money to fund the Taliban and criminal
groups. During this reporting period, the Commander of the International
Security Assistance Force (ISAF), General David Petraeus, noted that contract-
ing represented both an opportunity and a danger. He issued new contracting
guidance requiring commanders to consider the effects of contracting spend-
ing and understand who benefits from it. The directive stated that “with proper
oversight, contracting can spur economic development and support the Afghan
government’s and ISAF’s campaign objectives.” It also warned that if “we spend
large quantities of international contracting funds quickly and with insufficient
oversight, it is likely that some of those funds will unintentionally fuel corrup-
tion, finance insurgent organizations, strengthen criminal patronage networks,
and undermine our efforts in Afghanistan.”1
   The new guidelines instruct commanders to “hire Afghans first, buy Afghan
products, and build Afghan capacity,” stressing the importance of these efforts:2
 • maximizing opportunities for local small and medium-sized businesses to
   compete for internationally funded contracts
 • incorporating maintenance and repair training in existing contracts
 • promoting industries that have immediate and long-term growth potential,
   such as agriculture, food processing, and construction
 • adopting a fair wage and price approach to minimize inflation
 • guarding against fraudulent claims of Afghan ownership of businesses
   The guidelines also direct commanders to “exercise responsible contracting
practices” by planning ahead, establishing reasonable timelines, and ensuring
transparency and oversight “so that contracting and procurement reinforce
rather than detract from our objectives.”3
   The new guidelines emphasize the need to vet vendors and contractors, hold
prime contractors responsible for subcontractors, and increase the visibility of
the subcontractor network “to ensure that contracting does not empower the
wrong people or allow the diversion of funds.”4 SIGAR audits will play a key role
in helping U.S. agencies successfully implement the new contracting guidance
for reconstruction projects.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           5
AFGHANISTAN OVERVIEW




Task Force 2010
This quarter, Task Force 2010 began operations in Afghanistan to investigate
charges that firms hired to provide security, supplies, and reconstruction work
were diverting money to fund insurgency or criminal organizations. Conceived of
by DoD, the task force has become a joint civilian-military organization, reaching
out to U.S. government agencies and the Government of the Islamic Republic of
Afghanistan (GIRoA). It is focusing primarily on building a database of con-
tractors and subcontractors in the critical southern provinces to (1) increase
visibility into the flow of U.S. funds through subcontracts and (2) prevent these
funds from going to contractors and individuals who are supporting the insur-
gency and criminal activities.5
   Task Force 2010 seeks to synchronize contracting activities, increase trans-
parency and accountability in the contracting process, reduce contracting
corruption, and promote economic development. Since July, Task Force 2010
has developed a Contract Action Plan that enables the director of the task force
and the battle-space commanders to work together to make recommendations to
suspend or debar, cancel for cause, or place on the UN 1267 freeze list any con-
tractor found to be diverting funds to support the insurgency or other criminal
activity. During this reporting period, Task Force 2010 identified and subse-
quently suspended and debarred Watan Risk Management, an Afghan private
security contractor that had been funneling large sums of money to insurgents.6
   The United States has no authority in Afghanistan to arrest and prosecute
Afghans involved in contract fraud. To address this law enforcement challenge,
Task Force 2010 is developing a joint U.S.-Afghan investigative team known as
the Afghan Shafafiyat Investigative Unit (ASIU). Shafafiyat means “transparency”
in the Dari language. The team includes representatives from SIGAR, the Federal
Bureau of Investigation, Homeland Security Investigations, the Defense Criminal
Investigative Service, and the Army Criminal Investigation Command. Through the
ASIU, the United States will work with the GIRoA to arrest and prosecute Afghan
citizens involved in contract fraud. SIGAR investigators are working closely with
both Task Force 2010 and the ASIU, extending SIGAR’s investigative outreach.

COLLABORATION WITH AFGHANS
SIGAR remains concerned about the lack of coordination between U.S. imple-
menting agencies and the GIRoA in the development and implementation of
reconstruction projects in Afghanistan. Although working in partnership with
Afghans has long been the stated U.S. policy, most U.S. development assistance
over the last nine years has been managed by U.S. agencies and contractors,
bypassing the GIRoA. This year, the United States and the international commu-
nity committed to deliver more assistance through the GIRoA and to strengthen
provincial governance. This commitment is contingent on the GIRoA reduc-
ing corruption, improving its financial management and budget execution, and
increasing the capacity of the central and provincial government agencies to
deliver public services.




   6               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                              AFGHANISTAN OVERVIEW




Inspector General Fields meets with the governor of Laghman province, Mohammed Azizi,
on September 30, to discuss the governor’s views of U.S. reconstruction in the province.
Governor Azizi urged the international community to work together to “spend less and get
more.” (SIGAR photo)


   SIGAR’s audit this quarter of development assistance in Nangarhar—the most
densely populated province and the primary gateway for trade with Pakistan—
highlights some of the challenges the United States and its international partners
face in fulfilling their commitment. SIGAR identified U.S. development activities
totaling more than $100 million during FY 2009; the Commander’s Emergency
Response Program (CERP), which funded 202 projects with a combined value of
$58.7 million, accounted for more than half of the development activity. However,
the United States may have funded additional activities in Nangarhar because
the centralized nature of the GIRoA, the lack of donor reporting, and the scope
of some of the development projects made it very difficult to determine the total
amount of development funds spent in this strategically important province.
   Despite this significant investment in a single province, SIGAR detected little
U.S. coordination of project selection and implementation with provincial authori-
ties. Nangarhar is the second-highest revenue-generating province in Afghanistan,
but it does not have an operational development plan or a functioning process to
identify, implement, and manage development projects. Although the province
adopted a development plan in 2008, the plan was never implemented. Similarly,
although the province has a Provincial Development Committee and a process
that is supposed to prepare, budget for, and monitor development plans, SIGAR
found that USAID-funded projects do not go through this process. In fact, USAID-
funded projects are often implemented without the knowledge or involvement of




         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2010                   7
AFGHANISTAN OVERVIEW




either the national or provincial governments. SIGAR’s analysis of CERP records
revealed that although 24 of the 26 project files indicated that they were coor-
dinated with the national government, only 4 contained evidence of what that
coordination was.
    The lack of development planning by the United States and GIRoA has resulted
in an incoherent and wasteful approach to reconstruction that is not achieving
the U.S. strategic goals of sustained economic development, increased provincial
capacity, and improved governance. Consequently, SIGAR concluded that the pro-
vincial government did not have the capacity to manage additional development
responsibilities. For details on this audit, see Section 2 of this report.
    The United States is deploying civilian experts to help implement programs
to improve Afghan governing capacity, advance the rule of law, and promote
sustainable economic development. One of the goals of the civilian uplift is to
improve coordination between the GIRoA and U.S. agencies in the development
and implementation of U.S.-funded reconstruction projects. SIGAR issued its
first audit of the civilian uplift this quarter and announced a second audit, which
it will conduct jointly with the DoS Office of Inspector General. SIGAR has also
begun a review of U.S. assistance to develop Afghanistan’s agriculture sector.
This audit will look at several issues, including the extent to which U.S. agricul-
tural assistance is being coordinated with other donors and the GIRoA.

METRICS
The reconstruction experience in Iraq and Afghanistan has shown that U.S.
taxpayer dollars are at risk of being wasted when the success of a program is not
measured or is measured only by outputs rather than by outcomes. Therefore,
SIGAR’s auditors are looking at both outputs and outcomes as measurements of
progress. For example, more than half of all reconstruction dollars expended in
Afghanistan have gone to train, equip, and house the ANSF. The “output goal” is
to have 171,600 ANA troops and 134,000 ANP personnel by October 2011. The
“outcome objective” is to build an ANA and ANP capable of providing secu-
rity in Afghanistan. Earlier this year, SIGAR issued an audit that analyzed the
Capabilities Milestone system, which had been used since 2005 to measure the
capabilities—the outcome objectives—of the ANSF. SIGAR found that the sys-
tem could not provide a reliable or consistent assessment of the capabilities of
the ANSF and made 13 recommendations to improve it.
   Over the last six months, the ISAF Joint Command (IJC) has developed a
new system—the Commander’s Unit Assessment Tool (CUAT)—for evaluat-
ing the capabilities of the ANSF. During the Inspector General’s recent trip to
Afghanistan, IJC briefed him on the steps it had taken to incorporate SIGAR’s
recommendations to improve the capabilities measurement system. IJC has
made assessment improvements in the critical areas of training, reporting, and
integration with higher and adjacent commands. The CUAT incorporates most
of the recommendations that SIGAR made in its assessment of the old rating




   8               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




system, including adding qualitative evaluations of elements, such as leadership
and operational performance, as well as quantitative assessments of staffing and
equipment.7 For more on the CUAT, see Section 3 of this report.

CORRUPTION
The U.S. government, the international community, the GIRoA, and most
important, the Afghan people are concerned about the pervasive corruption in
Afghanistan. Corruption undermines the legitimacy of the GIRoA, poses signifi-
cant obstacles to investment and economic growth, and fuels the insurgency.
Eighteen months ago, SIGAR recognized that the widespread corruption in
Afghanistan posed a significant risk to the U.S. reconstruction effort. To address
this risk, SIGAR developed an audit plan for determining what the United States
and other donor countries are doing to build (1) the capacity of Afghan institu-
tions to deter corruption and strengthen the rule of law, and (2) the capacity
of the Afghan institutions that receive significant funding to account for donor
funds. As part of this initiative, SIGAR has issued several audits, including one of
Afghanistan’s High Office of Oversight and one of the Control and Audit Office.
Despite the key role that these institutions should play in curbing corruption and
providing accountability for donor funds, the United States has done very little to
help them build the capability to successfully do their jobs.
   This quarter, SIGAR issued an audit that identified U.S. assistance to help
the GIRoA develop its anti-corruption capabilities and assessed the capacity of
Afghanistan’s key anti-corruption institutions. Although U.S. Embassy Kabul
produced a comprehensive anti-corruption strategy last April, DoS has not yet
approved it. Nevertheless, Embassy officials have told SIGAR that they are imple-
menting the strategy. The draft strategy calls for the United States to support
efforts in four areas:
 • Help the GIRoA improve the transparency and accountability of its institu-
    tions to reduce corrupt practices.
 • Help the GIRoA improve financial oversight.
 • Increase Afghan capacity to build the rule of law.
 • Help the GIRoA and civil society educate and empower the public.
To improve and direct U.S. anti-corruption efforts in Afghanistan, SIGAR
recommended that DoS approve and implement the draft comprehensive anti-
corruption strategy.
   SIGAR’s audit also found that several U.S. agencies are funding programs to help
build the capacity of the GIRoA to combat corruption. Although few U.S. reconstruc-
tion programs are designed specifically to deter corruption, six U.S. departments
and agencies are funding projects that directly or indirectly help strengthen the
anti-corruption capabilities of GIRoA institutions—DoD, DoS, the Department of
the Treasury, the Department of Justice, the Department of Homeland Security, and
USAID. These programs are discussed in Section 3 of this report.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           9
AFGHANISTAN OVERVIEW




   The anti-corruption effort must be inextricably linked with developing Afghan
capacity to establish rule of law and account for and manage public funds. This
quarter, SIGAR initiated two new audits that will address aspects of these issues.
In one audit, SIGAR is reviewing U.S. and international donor assistance for the
development of the Afghan banking sector and Afghan currency control systems.
This audit should shed light on problems associated with Kabul Bank, as well as
the export of large amounts of cash through the Kabul airport. A second SIGAR
audit is assessing U.S. efforts to strengthen the capabilities of the Afghan Major
Crimes Task Force. This task force is on the front lines of the effort to detect
high-level government corruption.
   Adopting a comprehensive anti-corruption strategy is particularly important
given the U.S. commitment to channel 50% of its development assistance through
GIRoA institutions. SIGAR has been concerned that the United States and other
donors do not have a process in place to assess whether Afghan institutions
have the capacity to manage and account for donor funds. U.S. Embassy Kabul
officials told SIGAR that they are working with the international community
to establish a common set of standards and a vetted and agreed-to methodol-
ogy. They are also working to correct misperceptions about what the United
States and the international community are doing to assess GIRoA ministries.
In addition, Embassy officials are seeking assurances from the USAID Office of
Inspector General that measures are in place to mitigate the risk that U.S. funds
could be subject to waste, fraud, or abuse.8 According to the U.S. Embassy, U.S.
development assistance will not be channeled through Afghan ministries until
there is an approved plan for safeguarding these funds.

AFGHAN CAPACITY
SIGAR’s work to date indicates that a lack of Afghan capacity to govern and to
operate, maintain, and sustain projects poses a significant risk to the U.S. invest-
ment in Afghanistan. Four of the reports SIGAR issued this quarter touch on
aspects of U.S. funding for programs to build Afghan capacity in governance. In
addition to the assessment of the U.S. anti-corruption strategy and the audit of
development assistance in Nangarhar province, SIGAR completed a review of the
salary support provided by the United States and other international donors to
GIRoA officials and a lessons learned report on the elections process.
   Since 2002, the United States and other international donors have paid the
salaries of thousands of civilian government employees and technical advi-
sors to help build the capacity of the GIRoA. Afghanistan’s Ministry of Finance
estimated that 17 donors were paying more than $45 million a year in salary
support for 6,600 civilian employees and advisors. This support is separate
from the money provided by the Afghan Reconstruction Trust Fund (ARTF).
The ARTF pays for much of Afghanistan’s regular civil service through its con-
tribution to Afghanistan’s operating budget. Since 2002, the United States has
provided nearly $922 million to the ARTF. The United States pledged
$590 million for 2010 and has contributed $215 million of this amount to date.




  10                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




   SIGAR’s audit found that although the GIRoA relies heavily on donor salary
support to fill critical positions with skilled Afghans, this support distorts the
local labor market and undermines the long-term goal of developing a capable
and sustainable government. Donors do not have a standardized pay scale and
often pay far more—sometimes 10 to 20 times the amount of base government
salaries—than the GIRoA would be able to sustain on its own. Moreover, donors
provide salary support outside the Afghan planning and budgeting process,
thereby hindering the GIRoA’s ability to assume responsibility for managing its
civil service. Many of the donor-supported positions are not even authorized in
the government’s staffing charts.
   SIGAR is concerned that the United States and other donors who are provid-
ing salary support to fill critical gaps in the GIRoA’s governing capacity may be
forfeiting long-term capacity and fiscal sustainability for the short-term impera-
tives of standing up a functioning government in Afghanistan. To improve
transparency and accountability over U.S. funding for salary support and to
better focus the effort on building a capable and sustainable Afghan govern-
ment, SIGAR made a number of recommendations. They included developing
and using a more standardized salary scale, as well as establishing principles that
help donors provide salary support in a way that facilitates a transition to Afghan
responsibility. For details on the audit, see Section 2 of this report.
   Building Afghanistan’s capacity to conduct independent elections has been an
important goal of the United States and its partners in the international com-
munity. On September 18, Afghanistan held elections for the 249 seats in the
Wolesi Jirga, the lower house of the Afghan parliament. This election, like last
year’s presidential election, suffered from widespread ballot fraud. Afghanistan’s
Independent Election Commission (IEC) discarded 1.3 million ballots, or about
26% of the 5 million ballots cast for parliamentary candidates. Nevertheless,
U.S. officials told SIGAR that the IEC had made progress over the past year in
improving its management of the electoral process. The IEC did a better job
of identifying and manning polling centers as well as responding to suspected
fraud. In addition, better coordination between the ANA and the ANP resulted in
much-improved security over last year’s presidential elections. The results of the
parliamentary election will not be finalized until early November.9 For more on
the elections, see Section 3 of this report.
   In a report published this quarter on lessons learned from the Afghan presi-
dential elections, SIGAR identified numerous operational challenges—including
the early identification of polling center sites and more control over the bal-
lots—that need to be addressed. SIGAR found that it will take several years to
address some important issues, including improving voter registration, vetting
candidates, and creating truly independent electoral organizations. For details on
this report, see Section 2.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          11
AFGHANISTAN OVERVIEW




SECURITY
Much of the U.S. reconstruction effort in Afghanistan is occurring in a war zone.
The dangerous environment increases the cost of every project and prevents
many projects—large and small—from being completed. For example, a SIGAR
audit of the electricity sector earlier this year found that the cost of providing
security on some U.S.-funded infrastructure projects was as much as 30% of
the value of the contract. It also found that security challenges have repeatedly
forced USAID to suspend work on repairing the Kajaki Dam in Helmand prov-
ince. As another example, SIGAR’s audit this quarter of a contract to build an
ANP headquarters in southern Afghanistan found that work on one of the facili-
ties was cancelled because of the lack of security. USACE said security problems
were also the root cause of the construction problems SIGAR identified at the
other facilities. In its comments on SIGAR’s report, USACE noted that these
projects were being built in the “consistently kinetic provinces of Kandahar and
Helmand” and that “the lack of security in these areas puts USACE civilians and
the hired contractors at significant risk.”10
   Everyone involved in the reconstruction of Afghanistan—U.S. implementing
agencies, contractors, international organizations, and non-governmental organi-
zations—depends on private security contractors (PSCs) to provide security for
project implementation. On August 17, 2010, President Karzai announced that all
national and international PSC firms would be dissolved by the end of this year.
At the time this report went to press, it was not clear how the GIRoA planned to
execute this decree.
   SIGAR is concerned that, depending on how it is executed, the decree has the
potential to seriously undermine the U.S. reconstruction effort in Afghanistan.
DoD alone employs nearly 18,000 PSC personnel to provide personal security,
convoy security, and static security at U.S. installations and reconstruction
sites. The vast majority of these contractors—16,687—are Afghan citizens. U.S.
Embassy Kabul estimates that reconstruction programs worth at least $2 billion
rely on PSCs to provide security. The decree could negatively affect 96 DoS and
USAID projects. It could also put thousands of Afghans out of work.
   Although the GIRoA has said it would like to transition the work that PSCs are
currently doing to the ANSF, SIGAR is not aware of any plan to redirect the ANSF
by the deadline specified in the decree. PSCs that employ third-country nationals
are preparing for the possibility that they will have to leave Afghanistan by the
end of the year. USAID told SIGAR that its implementing partners could cease
operations in Afghanistan if the decree is enacted as planned on January 1, 2011.
According to USAID, because implementing partners need at least 60 days notice to
make appropriate arrangements, many of the expatriate staff have started looking
for new work. Moreover, contracting officers are waiting to award contracts until
the PSC issues have been resolved.




  12               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




   The U.S. government, the Congress, and the GIRoA have questions about the
activities of some PSCs. To address these concerns, SIGAR is conducting an audit
of the PSC that is providing security for USACE personnel and will be initiating
three more audits related to this issue this year. One will identify all the PSCs in
Afghanistan and the costs of their services to the U.S. government since the begin-
ning of FY 2007; another will examine an individual PSC contract. The third will
determine the ability of commanders to track convoys guarded by PSCs.

LOOKING AHEAD
As the U.S. reconstruction effort enters its 10th year in Afghanistan, SIGAR is
focusing its work for FY 2011 in three audit priority areas: contracting, anti-cor-
ruption, and the development of the ANSF. SIGAR’s audits will target more than
$3 billion of DoD, DoS, and USAID contracts to assess contract performance,
cost, agency oversight, and sustainability. Because corruption is such a serious
threat to the success of the U.S. effort, SIGAR will continue to conduct audits of
U.S. efforts to build Afghan capacity to curb corruption. Finally, because more
than half of all reconstruction dollars are going to develop the ANA and the
ANP, SIGAR will be reviewing all aspects of the train-and-equip mission. SIGAR
auditors and investigators are committed to detecting fraud, waste, and abuse;
identifying issues that put the U.S. investment at risk; and offering recommenda-
tions to reduce that risk.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           13
            Building for the Future
            A mason works on the future headquarters of the Ministry
            of Interior at the Joint Regional Afghan National Police
            Center (JRAC), a 280-acre compound built to improve
            security in Kandahar province. Because more than half
            of all reconstruction dollars are going to develop the ANA
            and the ANP, SIGAR will continue to conduct oversight of all
            aspects of the train-and-equip mission. (U.S. Navy photo,
            CPO Brian Brannon)




14   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
2   SIGAR
    OVERSIGHT




        15
          SIGAR OVERSIGHT




 “[The] United States plans to direct
up to half of its future reconstruction
     assistance through Afghan
      government channels….
   The success of this new funding
   approach will depend, to a large
    degree, on the capacity of the
 Afghan government to manage U.S.
  reconstruction funds and protect
   them from waste, fraud, abuse,
   and other forms of corruption.”
                                                   —SIGAR Audit 10-15




          Source: SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S.
          Anti-Corruption Strategy,” 8/5/2010.




              16                         SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                               SIGAR OVERSIGHT




SIGAR OVERSIGHT
During this quarter, SIGAR issued 7 reports and announced 6 new audits,
bringing the total number of ongoing audits to 14. In addition, SIGAR is con-
ducting forensic reviews of $37.65 billion of transaction data related to three
Afghanistan reconstruction funds: the Afghanistan Security Forces Fund (ASFF),
the Economic Support Fund (ESF), and the International Control and Law
Enforcement Fund (INCLE). SIGAR investigators opened 32 new cases and
closed 6, bringing the number of ongoing cases to 81. In addition, the SIGAR
Hotline received 125 complaints—up 100% from last quarter.

SIGAR AUDITS
The seven audits completed during this reporting period included two focused
on reconstruction contracts, three related to U.S. efforts to build Afghan capacity
and deter corruption, and one on the civilian uplift, as well as a report of lessons
learned from Afghanistan’s elections process. Table 2.1 lists the audits. SIGAR
continues to concentrate most of its audit work in three high-priority areas:
 • contracting
 • anti-corruption/capacity building
 • the effort to build the Afghan National Security Forces (ANSF)
   SIGAR announced six new audits that will examine the U.S. effort to build the
ANSF, develop the agriculture and banking sectors, deter corruption, sustain the
civilian uplift, and administer insurance for contractor personnel.

TABLE 2.1


COMPLETED SIGAR AUDITS AS OF OCTOBER 30, 2010
Report Identifier     Report Title                                                                                                                                        Date Issued
SIGAR-Audit-11-5      Actions Needed To Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary Support to Afghan Government Employees                        10/29/2010
                      and Technical Advisors
SIGAR-Audit-11-4      DoD, DoS, and USAID Obligated Over $17.7 Billion to as Many as 6,900 Contractors and Other Entities for Afghanistan Reconstruction                  10/27/2010
                      during Fiscal Years 2007–2009
SIGAR-Audit-11-3      ANP District Headquarters Facilities in Helmand and Kandahar Provinces Contain Significant Construction Deficiencies Due to Lack of Oversight and   10/27/2010
                      Poor Contractor Performance
SIGAR-Audit-11-2      U.S. Civilian Uplift in Afghanistan Is Progressing, But Some Key Issues Merit Further Examination as Implementation Continues                       10/26/2010
SIGAR-Audit-11-1      Weaknesses in Reporting and Coordination of Development Assistance and Lack of Provincial Capacity Pose Risks to U.S. Strategy in Nangarhar Province 10/26/2010
SIGAR-Audit-10-16 Lessons Learned in Preparing and Conducting Elections in Afghanistan                                                                                      9/9/2010
SIGAR-Audit-10-15 U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy                                     8/5/2010




            REPORT TO THE UNITED STATES CONGRESS                   I   OCTOBER 30, 2010                           17
SIGAR OVERSIGHT




Completed Audit Reports
This quarter, SIGAR issued seven audit reports, which are summarized in the
following subsections.

Audit 11-3: ANP District Headquarters
ANP District Headquarters Facilities in Helmand and Kandahar Provinces Contain Significant
Construction Deficiencies Due to Lack of Oversight and Poor Contractor Performance
From a reported size of 95,000 personnel in December 2009, the Afghan National
Police (ANP) is expected to grow to almost 135,000 personnel by September
2011. To meet the infrastructure needs of this growing force and equivalent
increases for the Afghan National Army (ANA), the Combined Security Transition
Command-Afghanistan (CSTC-A) has funded a country-wide building program to
support the ANSF’s national, regional, and district-level operations. Through its
two district offices, the U.S. Army Corps of Engineers (USACE) is responsible for
awarding, monitoring, and ensuring successful delivery of most of these construc-
tion projects. USACE’s Afghanistan Engineering District (AED) awarded Basirat
Construction, an Afghan firm, a single contract for $5.9 million to construct seven
ANP district headquarters facilities in Helmand and Kandahar provinces. One
ANP facility was later deleted from the contract because of security concerns at
the site, and the contract value was reduced to about $5.4 million.

OBJECTIVES
This audit addressed three objectives:
• Identify whether the ANP project sites are being constructed within the
   schedule and cost terms of the contract.
• Assess whether the construction is in accordance with approved construc-
   tion plans and specifications.
• Evaluate the nature and adequacy of USACE contract administration and
   construction oversight.

FINDINGS
1. Originally scheduled for completion by January 9, 2009, the project was
   delayed by two key factors: (1) an extension of the project completion date
   by 500 days to May 24, 2010, because of a contract modification affecting
   one of the six project sites, and (2) confusion between USACE and Basirat
   regarding project design issues and two suspension letters issued by USACE.
   One of the suspension letters was the result of security concerns.
2. In August 2010, USACE identified one of the six sites as 90% complete and
   turned it over to the ANP. Of the other five sites, one has been cleared for
   turnover to the ANP, one shows nominal progress by the contractor, and
   three remain idle. Project construction at each site failed to meet the require-
   ments established in the contract documents and approved construction
   documents. The level of non-compliance at each site varied, but overall
   construction can be characterized as poor and unsatisfactory. Problem areas
   identified by SIGAR included low-quality concrete and inadequate roofing



  18                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                             SIGAR OVERSIGHT




     installations. SIGAR also identified several cases of product substitution in
     which lower-grade materials—such as lower-quality residential windows—
     were used rather than the quality specified in the contract.
3.   Although the scheduled payments that the U.S. government has made to the con-
     tractor do not exceed the current contract value of $5.5 million, it is uncertain
     that the contractor can complete the five sites with the remaining contract funds
     because of the numerous construction deficiencies that need to be addressed.
4.   Although the contractor is liable for correcting deficient work, it is not clear
     whether this will happen because almost all performance payments have
     been made. Minimal funds were withheld from contractor payments to cover
     deficient work; therefore, the contractor had limited incentive to comply with
     the contract’s terms. Basirat Construction is unlikely to receive future USACE
     contract awards given its performance on this and other USACE projects.
5.   USACE developed project-specific quality assurance plans, and Basirat devel-
     oped quality control plans, but these plans were not implemented effectively.
     Specifically, the required quality assurance testing, quality control testing,
     three-phase inspections of definable features of work, and daily site-visit
     reports were generally not done. USACE made payments based on incom-
     plete quality assurance reports and photographs taken by the contractor.
6.   USACE attributes the lack of adequate project oversight, in part, to secu-
     rity concerns. However, USACE staff did not appear to take full advantage
     of USACE’s security contractor and local resources, such as International
     Security Assistance Force (ISAF) resources at forward operating bases,
     which could have facilitated on-site project oversight. SIGAR found that both
     the contractor and local quality assurance representatives failed to provide
     an adequate level of daily reporting on progress at the job sites.

RECOMMENDATIONS
Nearly every aspect of this project involved significant challenges to its satis-
factory completion. SIGAR identified numerous construction deficiencies that
undermine the structural integrity of the facilities. The U.S. government will be
responsible for at least $1 million in repair costs to address the problems and to
ensure that the buildings are structurally sound. SIGAR made six recommenda-
tions to the USACE Commanding General to address the range of construction
deficiencies and to help USACE prevent payment and performance problems on
future construction projects.
   SIGAR made several recommendations to help ensure that construction com-
plies with applicable contract and construction standards, and to improve the
management and oversight of similar USACE construction projects.

AGENCY COMMENTS
USACE concurred with four of the recommendations in the report and said it
understood the intent of the two with which it did not concur. It agreed that
construction at each site did not meet the contract requirements but did not
agree that the construction problems affected the structural integrity of the



          REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           19
                                                                SIGAR OVERSIGHT




                                                                buildings at one of the sites. USACE stated that the contractor was committed
                                                                to correcting all the deficient work and to completing the remaining facilities.
                                                                USACE did not concur with SIGAR’s recommendation to require the maximum
                                                                amount of retainage allowable by the FAR to be withheld from certain contrac-
                                                                tors because it said the blanket implementation of such a policy would negatively
                                                                affect Afghan firms. It argued that because every contract and contractor perform-
                                                                ing construction in Afghanistan presented a unique challenge, a uniform policy of
                                                                maximum retainage could, in fact, increase the chances of project failure.
FIGURE 2.1

AFGHAN RECONSTRUCTION: CONTRACT                                 Audit 11-4: Reconstruction Contracts, Grants, and
OBLIGATIONS, BY DoD CONTRACTING                                 Cooperative Agreements
ORGANIZATION                                                    DoD, DoS, and USAID Obligated Over $17.7 Billion to as Many as 6,900 Contractors and
FY 2007–2009 ($ BILLIONS)                                       Other Entities for Afghanistan Reconstruction during Fiscal Years 2007–2009
                                                                Since 2001, the United States has appropriated approximately $56 billion for
                       Total: $11.54                            reconstruction in Afghanistan. Reconstruction funds are used to build or rebuild
                                                                the physical infrastructure of Afghanistan, establish training or technical assis-
         SMDC                                                   tance programs to the Government of the Islamic Republic of Afghanistan
         $0.85
                                                                (GIRoA), deliver relief assistance to the people of Afghanistan, and provide
AFCEE                                                           security or other support functions to facilitate reconstruction efforts. The
$0.77                                                           Department of Defense (DoD), the Department of State (DoS), and the U.S.
                                     JCC-I/A                    Agency for International Development (USAID) have relied extensively on con-
                USACE                $6.68                      tractors to provide a range of services in Afghanistan. Figure 2.1 shows contract
                $3.24
                                                                obligations for DoD contracting organizations as an example.
                                                                   The Congress has taken a number of actions to increase the oversight of contracts
                                                                in Afghanistan and Iraq, such as requiring the three agencies to create a common
                                                                database to track contractor personnel and contracts. However, the agencies have
Notes: JCC-I/A = Joint Contracting Command-Iraq/
Afghanistan. USACE = U.S. Army Corps of Engineers               faced challenges in using this database. In addition, these agencies do not routinely
(Afghanistan Engineer District). AFCEE = Air Force Center for
Engineering and the Environment. SMDC = U.S. Army Space         report which contracts, cooperative agreements, and grants are for reconstruction
and Missile Defense Command.
                                                                versus other purposes in Afghanistan, such as support for U.S. combat troops.
Source: SIGAR analysis of JCC-I/A, USACE, AFCEE, and
SMDC data.

                                                                OBJECTIVE
                                                                This audit addressed one objective:
                                                                • Identify the contractors and other entities that receive reconstruction funds
                                                                   and the financial mechanisms used to provide these funds.

                                                                FINDINGS
                                                                1. DoD, DoS, and USAID reported about $17.7 billion in obligations made
                                                                   against contracts, cooperative agreements, and grants for Afghanistan
                                                                   reconstruction from FY 2007 to FY 2009. SIGAR identified as many as 6,900
                                                                   contractors and other entities, including for-profit and nonprofit organiza-
                                                                   tions, multilateral organizations, and other federal agencies.
                                                                2. Four DoD contracting organizations obligated about $11.5 billion for reconstruc-
                                                                   tion contracts, primarily to train and equip the ANSF and build facilities for them.
                                                                   a. The Joint Contracting Command-Iraq/Afghanistan (JCC-I/A) reported
                                                                      about $6.7 billion in contract obligations. SIGAR identified 6,253



                                                                  20                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                              SIGAR OVERSIGHT




      contractors; 27 of these accounted for more than half of JCC-I/A’s total
      obligations. The largest obligation during this period was about $691 mil-
      lion to Kabuljan Construction Company, an Afghan-owned firm.
   b. USACE reported about $3.2 billion in contract obligations to 398 contrac-
      tors. Seven contractors accounted for half of USACE’s total. The largest
      obligation during this period was $366 million to Contrack International
      to construct and maintain ANSF facilities.
   c. The Air Force Center for Engineering and the Environment (AFCEE)
      reported $770 million in contract obligations to 17 contractors; 5 accounted
      for about 70% of AFCEE’s total.
   d. DoD’s Counter-Narcoterrorism Technology Program Office (CNTPO)
      reported about $850 million in contract obligations to 5 identified contrac-
      tors; 2 accounted for over 60% of CNTPO’s total.
3. Two DoS bureaus reported obligating about $2.4 billion:
   a. The Bureau of International Narcotics and Law Enforcement Affairs (INL)
      reported approximately $2.3 billion in contract obligations. SIGAR identi-
      fied 4 vendors; DynCorp International accounted for more than 80% of
      INL’s total obligations during this period.
   b. The DoS Bureau of Population, Refugees, and Migration (PRM) obligated
      approximately $178 million to cooperative agreements and grants. SIGAR
      identified 21 implementing partners; the UN High Commissioner for Refugees
      accounted for more than half of PRM’s total obligations during this period.
4. USAID reported obligating about $3.8 billion to 283 contractors and other
   entities—more than $2 billion (53%) for contracts, $1.1 billion (nearly 30%)
   for cooperative agreements, and $625 million (17%) for grants. Of the con-
   tracts, Louis Berger International received the most ($736 million); of the
   cooperative agreements, International Relief and Development received the
   most ($358 million); and of the grants, the World Bank received the most
   ($322 million) during this period. About $809 million of USAID’s total obliga-
   tions (21%) went to multilateral organizations or federal agencies.

RECOMMENDATIONS
SIGAR did not make any recommendations in this report. This is the first analysis
to identify the principal contractors and other entities involved in reconstruction
efforts in Afghanistan and the funding mechanisms used. SIGAR plans to use this
information to guide its audit and investigative activities.

AGENCY COMMENTS
In comments on a draft of the audit report, JCC-I/A stated that it is undertaking sev-
eral initiatives to improve the quality of the contract data that it maintains, including
participating in inter-agency working groups to strengthen strategic partnerships
and improving data-system protocols to reduce the number of errors. Neither
USACE, USAID, nor DoS offered any comments on the report. They are contained
in the final audit report. To read the report, see the SIGAR Web site (www.sigar.mil).




         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2010             21
SIGAR OVERSIGHT




Audit 10-15: U.S. Anti-Corruption Strategy
U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive
U.S. Anti-Corruption Strategy
Since 2002, the United States has appropriated approximately $56 billion for
reconstruction assistance in Afghanistan. In February 2010, President Obama
submitted FY 2011 budget requests for an additional $16.2 billion to help the
GIRoA build its capacity to defend itself and govern effectively.11 Consistent with
a new donor approach adopted in January 2010, the United States plans to direct
up to half of future development assistance through Afghan government chan-
nels. The success of this new funding approach will depend, to a large degree, on
the capacity of the GIRoA to manage U.S. reconstruction funds and protect them
from waste, fraud, abuse, and other forms of corruption.

OBJECTIVES
This report had the following objectives:
• Identify U.S. assistance to help the GIRoA develop its anti-corruption capabilities.
• Describe the capacity of Afghanistan’s key anti-corruption institutions.

FINDINGS
1. A multi-agency working group based at U.S. Embassy Kabul has drafted a
   comprehensive anti-corruption strategy to provide guidance to help agen-
   cies improve the transparency and accountability of Afghan institutions, to
   reduce corrupt practices and improve financial oversight. DoS, however, has
   not yet approved the strategy.
2. Developing a more coordinated approach to building the capacity of Afghan
   oversight institutions to fight corruption has become increasingly important
   because the U.S. government plans to provide much of its future reconstruc-
   tion assistance to Afghanistan through the GIRoA.
3. Key Afghan oversight institutions lack adequate independence, audit author-
   ity, and capacity. In line with its publicly expressed commitments to combat
   corruption, the GIRoA has given a number of ministerial-level departments
   and offices a direct role in combating corruption. In particular, the High
   Office of Oversight, the Control and Audit Office, and internal audit depart-
   ments of line ministries are key GIRoA oversight institutions with significant
   anti-corruption responsibilities. However, these institutions remain severely
   limited because of a lack of independence, audit authority, and capacity, as
   documented by SIGAR, USAID, and the World Bank.

RECOMMENDATIONS
To improve and direct U.S. anti-corruption efforts in Afghanistan and help
strengthen the capacity of GIRoA institutions to combat corruption and protect
U.S. and other donor funds from waste, fraud, and abuse, SIGAR recommended
that the U.S. Secretary of State take the following actions:
• Approve and implement a comprehensive U.S. anti-corruption strategy for
   reconstruction efforts in Afghanistan.



  22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                              SIGAR OVERSIGHT




• Review key Afghan oversight institutions, particularly the internal audit
  departments of Afghan line ministries, to determine whether the United
  States should provide them more assistance to strengthen their ability to
  combat corruption in Afghanistan and provide accountability over U.S.
  reconstruction funds channeled through the GIRoA.

AGENCY COMMENTS
U.S. Embassy Kabul and USAID/Afghanistan supported the report’s recommenda-
tions and stated that they expected the Special Representative for Afghanistan and
Pakistan in Washington, D.C., to finalize the comprehensive U.S. anti-corruption
strategy in Afghanistan by September 30, 2010. However, at the time this quarterly
report went to press, the strategy had not been finalized. The Embassy noted in its
comments that implementation of the strategy was under way. The Embassy also
indicated that the U.S. Mission in Afghanistan is in the process of developing an
assessment process for Afghan line ministries and other governmental institutions.
   According to the Embassy, providing support to the internal audit depart-
ments of Afghan line ministries was problematic because of the unclear nature of
internal audit responsibilities under current Afghan law. The Embassy noted that
the U.S. government included resolution of this issue as a benchmark under the
Afghanistan Reconstruction Trust Fund Incentive Program. The U.S. Treasury
Department is also engaged with the GIRoA to help resolve this issue.

Audit 11-1: Provincial Development Capacity
Weaknesses in Reporting and Coordination of Development Assistance and Lack of Provincial
Capacity Pose Risks to U.S. Strategy in Nangarhar Province
Since 2002, the majority of U.S. development assistance to Afghanistan has been
managed by U.S. agencies, bypassing the GIRoA. At the Kabul Conference in July
2010, the United States and international donors reaffirmed their commitment to
increasing the proportion of development assistance delivered through the GIRoA to
50% over the next two years. For the U.S. government and the international commu-
nity to fulfill this commitment, the GIRoA must reduce corruption, improve financial
management and budget execution, and increase the capacity of the central and
provincial government agencies to deliver public services. The international commu-
nity has ongoing initiatives to strengthen provincial governance. These initiatives are
essential to building Afghanistan’s governing capacity and strengthening Afghans’
trust in their government. The success of the international community’s new fund-
ing strategy depends on the capacity of provincial institutions to absorb and execute
development funding to achieve coherent and cohesive development objectives.

OBJECTIVES
This audit had three objectives:
• Identify the amount and type of Afghan, U.S., and other donor development
   funding expended in Nangarhar province.
• Determine the degree to which U.S. projects are aligned with Nangarhar’s
   development priorities.



         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2010              23
SIGAR OVERSIGHT




• Assess the extent to which Nangarhar’s provincial administration is prepared
  to absorb and execute additional development funds.

FINDINGS
1. Nangarhar receives operating and development funds from various
   sources, including the GIRoA, international donors, and other stakeholders.
   Nangarhar’s provincial directorates and offices expend about 85% ($51.3 mil-
   lion) of the core operating budget on wages and salaries, and only 4% of core
   budget expenditures on development.
2. The U.S. government and other donors fund most development activity in
   Nangarhar. SIGAR identified more than $100 million spent on U.S. devel-
   opment activity during FY 2009. The Commander’s Emergency Response
   Program (CERP) funded 202 projects with a combined value of $58.7 million,
   accounting for more than half the development activity.
3. Identifying and assessing the total amount of development funds expended
   in Nangarhar is problematic for three reasons: the centralized nature of the
   GIRoA, the lack of donor reporting, and the scope of some development
   projects.
4. U.S. government agencies that provide development funds and assistance to
   Nangarhar have made some progress in aligning development projects and
   programs with provincial priorities. However, U.S. government development
   projects and programs are still being implemented without the benefit of a
   provincially generated, GIRoA-endorsed development plan.
5. Nangarhar does not have a functioning development planning process.
   Although Nangarhar has a completed provincial development plan, it is out-
   dated, not tied to dedicated funding, and largely ignored by both the national
   and the provincial governments, as well as the U.S. government and the
   international community. For example, SIGAR’s analysis of CERP projects
   in Nangarhar found that only 1 of 26 projects was aligned with the provincial
   development plan.
6. The GIRoA is not sustaining many U.S.-funded development projects in
   Nangarhar, according to both SIGAR’s analysis and several senior U.S.
   officials responsible for multi-million-dollar development projects in the
   province. The GIRoA’s lack of visibility or input into many externally funded
   and implemented development projects—and the inability of donors in
   Nangarhar to coordinate their efforts effectively—further complicate the
   national and provincial governments’ ability to plan for and sustain develop-
   ment projects.
7. The level of centralization, lack of procurement authority and budget input,
   and distrust between the central ministries and the line directorates have left
   Nangarhar’s line directorates with little capacity to absorb significantly more
   development funding. Nangarhar’s line directorates play a very limited role in
   provincial development activities; nearly all of the GIRoA’s core development
   activities are centralized in Kabul at the ministry level.




  24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




RECOMMENDATIONS
U.S. government development strategies in Nangarhar have compounded the
GIRoA’s difficulties in bridging the gap between the government and the people
of Afghanistan. Because of the lack of provincial development planning by the
United States and the GIRoA, accomplishments cannot be measured against
identified needs, sustainable economic development has not emerged, and the
dynamics of provincial governance have not changed. The international com-
munity needs to help reorient Nangarhar’s government to focus on producing
cohesive sectoral strategies and development plans, rather than on preparing
project proposals for the U.S. Provincial Reconstruction Team (PRT) or other
entities that are funding projects. SIGAR made recommendations to help ensure
the following:
 • Nangarhar’s provincial directorates develop the capacity to absorb and
   execute development funds and implement projects.
 • The GIRoA and U.S. personnel are aware of U.S.-funded provincial develop-
   ment activities and expenditures across Afghanistan.
 • U.S. development funds executed in Nangarhar are used in accordance with
   the GIRoA’s provincial development priorities.
 • The GIRoA sustains completed CERP projects.

AGENCY COMMENTS
In comments on a draft of the audit report, USFOR-A concurred with SIGAR’s rec-
ommendations and agreed to provide additional guidance countrywide to improve
CERP procedures for documenting the GIRoA’s project sustainment responsibili-
ties. At press time, SIGAR had not received official Embassy comments.                  FIGURE 2.2


Audit 11-5: U.S. Salary Support to Afghans                                              SALARY SUPPORT FUNDING BY DONOR,
                                                                                        FEBRUARY 2010 ($ MILLIONS)
Actions Needed To Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary
Support to Afghan Government Employees and Technical Advisors
Strengthening Afghan governance by enhancing capacity and reducing cor-                                           Total: $45
ruption is a core element of the U.S. strategy in Afghanistan. To help build the
capacity of the GIRoA, the United States and other international donors have
paid the salaries of thousands of civilian government employees and technical                                      World Bank
advisors since 2002. Some Afghan officials, including President Karzai, attribute                                  $18.5

increasing corruption in the GIRoA to the higher salaries that donors pay and                                                    United
                                                                                                          Other                  States
the lack of controls over these funds. Some observers have called donor-funded                            $7.7                   $7.9
government employees and technical advisors a “second civil service.” Many                                        UNDP
donors have policies that discourage the practice of supplementing the salaries                                   $4.8
of foreign government employees, but the GIRoA’s severe capacity limitations                                                     United Kingdom
and fiscal deficits have led donors to provide millions of dollars in salary support.                                            $6.1
In February 2010, the Ministry of Finance estimated that donors were paying
                                                                                        Note: Other donors include the Asian Development Bank,
more than $45 million in annual salary support to GIRoA employees and techni-           Denmark, UNESCO, and the WHO.
cal advisors, as shown in Figure 2.2.                                                   Source: MOF analysis of data provided by international donors.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            25
SIGAR OVERSIGHT




OBJECTIVES
This audit addressed four objectives:
• Determine the extent of donor salary support provided to GIRoA employees
   and technical advisors since 2005.
• Assess the impact of donor salary support on long-term capacity and sustain-
   ability of the GIRoA.
• Assess U.S. agencies’ implementation of salary support.
• Determine the extent to which internal controls and accountability mecha-
   nisms are in place to safeguard U.S. funding for salary support.

FINDINGS
1. Neither the GIRoA nor donors can account for the number of government
   employees and technical advisors who receive salary support or identify how
   much they are paid. In February 2010, the Ministry of Finance estimated that
   17 donors were providing $45 million annually to more than 6,600 employ-
   ees and advisors, but this estimate was based on incomplete data. Donors
   under-report the salary support they provide and do not report consistently
   because of confusion over the definitions and type of information to report.
2. U.S. agencies lacked visibility over salary support because this data was not cen-
   trally managed; no single office was responsible for collecting it. USAID began
   collecting this data in 2008; U.S. Embassy Kabul began collecting it in 2010.
3. The GIRoA relies heavily on donor salary support to fill critical positions
   and hire highly skilled Afghans. However, salary support has a number of
   negative effects, including distorting the local labor market and undermining
   government capacity and fiscal sustainability.
4. Donors do not have a standardized pay scale and thus pay significantly
   higher salaries than the GIRoA can sustain on its own. For example, GIRoA
   employees can receive donor-funded salary supplements 10 to 20 times the
   amount of their base government salaries.
5. Salary support can also undermine long-term development of the GIRoA’s capac-
   ity by drawing highly skilled, qualified Afghans away from the civil service. In
   addition, donors provide salary support outside Afghan planning and budgeting
   processes, which hinders the GIRoA’s ability to assume responsibility for paying
   recipients or to exert control over employees’ salaries. Furthermore, many posi-
   tions are not identified in the GIRoA’s official staffing documents.
6. U.S. agencies have provided salary support without consistent guidance. Since
   1988, USAID has had a global salary support policy, but the policy has been
   waived twice for Afghanistan. USAID’s policy does not apply to other U.S.
   agencies, and it does not cover salaries paid to technical advisors embedded
   in GIRoA offices. Furthermore, DoS does not have a policy on salary sup-
   port—either for salary supplements or for technical advisors embedded in
   government offices. This lack of clear policy guidance has hindered the ability
   of U.S. agencies to target salary support to prioritized needs and goals.
7. USAID has not conducted assessments of the Afghan human resources and
   payroll systems that will be used to provide future salary support through the



  26                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




   GIRoA. Potential weaknesses in disbursing salaries—including incomplete
   implementation of an electronic payroll system and an inability to detect
   multiple supplements paid to recipients—increase the risk of mismanage-
   ment and abuse of U.S. salary support.

RECOMMENDATIONS
Since 2002, the GIRoA has depended on donor salary support to fill critical gaps
in its capacity, yet donors may be forfeiting long-term capacity and fiscal sustain-
ability for the short-term imperatives of standing up a functioning government in
Afghanistan. As U.S. agencies provide increasingly more funding directly to the
GIRoA, the Ministry of Finance will assume greater responsibility for oversight
of U.S. salary support. SIGAR made a number of recommendations to improve
transparency and accountability over U.S. funding for salary support and
improve long-term sustainability and capacity of the GIRoA.
   SIGAR also made several recommendations to mitigate the effects of donor
competition, to ensure that U.S. salary support is targeted strategically and
applied consistently across U.S. agencies, and to enhance safeguards and
improve accountability over U.S. funding for salary support.

AGENCY COMMENTS
At the time this quarterly report went to press, the agencies were still preparing
formal comments on a draft of the audit report. The final audit report contains
the agency comments and response to the findings and recommendations. To
read the report, see the SIGAR Web site (www.sigar.mil).

Audit 11-2: Civilian Uplift
U.S. Civilian Uplift in Afghanistan Is Progressing, But Some Key Issues Merit Further
Examination as Implementation Continues
On March 27, 2009, the U.S. President announced a comprehensive new U.S.
strategy for Afghanistan with the core objective of disrupting, dismantling, and
defeating al-Qaeda and its safe havens. In addition to calling for an increase in
military personnel, the new strategy announced the civilian uplift—an increase
in civilian-led efforts to build Afghan governing capacity, improve the rule of law,
and initiate sustainable economic growth, primarily through agricultural develop-
ment. Given the large influx of U.S. civilian personnel into Afghanistan and the
importance of achieving U.S. reconstruction goals, agencies will need to ensure
that these civilians—particularly civilians in the field—have the support they
need to implement efforts that are critical to reaching strategic goals.

OBJECTIVES
This audit addressed two objectives:
• Identify the types and number of personnel provided to implement the civil-
   ian uplift and the extent to which the life and operational support needs of
   these personnel have been met.
• Review the key areas of concern raised during the initial stages of the uplift.



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            27
SIGAR OVERSIGHT




FINDINGS
1. U.S. agencies have deployed nearly 67% of the personnel identified as part of
   the civilian uplift; to date, the agencies have largely met life and operational
   support needs in the field. Sixteen agencies from 8 departments are provid-
   ing personnel to fill approximately 626 new positions identified as part of the
   current phase of the civilian uplift.
2. The uplift will be implemented over two phases and will contribute to an
   increase of the U.S. civilian mission from 320 personnel in January 2009 to
   approximately 1,500 personnel by January 2012, according to current esti-
   mates. As of September 9, 2010, approximately 418 personnel have deployed
   to Afghanistan, which includes 227 personnel in the field.
3. The first phase of the uplift ended in December 2009; the current phase began
   in January 2010 and will be completed in December 2011. Approximately 294
   of the 626 positions will be located in Kabul; the remaining positions, such
   as those on PRTs and District Support Teams, will be distributed across the
   various field locations.
4. Based on SIGAR’s review of U.S. Embassy Kabul documents and discussions
   with officials in Kabul and the field, mechanisms are in place to meet the
   needs of civilian life and operational support and have generally been met
   across the field platforms. However, Afghanistan’s operating environment
   presents challenges to providing this support, including the lack of security,
   which affects civilians’ mobility.
5. Several areas merit further examination as the U.S. Mission implements
   the second phase of the civilian uplift. During this review, SIGAR identified
   several topics of concern that field staff at all levels have raised over the
   course of the uplift, such as the effectiveness of training, the level of agency
   guidance on working in the field, and the application of models for civilian-
   military integration.
6. In late July 2010, U.S. Embassy Kabul, in conjunction with Washington, initi-
   ated an inter-agency review of the uplift. However, tentative plans for the
   review do not include a comprehensive examination of training effectiveness
   and agency guidance.
7. U.S. Embassy Kabul lacks a formal mechanism to collect and implement best
   practices and lessons learned at the field level. A mechanism to monitor and
   evaluate the results of various efforts and identify corrective actions would
   enable the Embassy to make changes that would increase the effectiveness
   of civilian personnel working in the field.

RECOMMENDATIONS
As the U.S. Mission and Washington conduct their inter-agency review of the
uplift, officials may need to determine whether current processes for sup-
porting civilians are fully effective in achieving U.S. strategic reconstruction
goals. Further, a formal mechanism for collecting, analyzing, and implement-
ing best practices and lessons learned over the course of the uplift could help




  28                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




the Embassy make the changes necessary to improve civilians’ effectiveness in
achieving these goals.
   SIGAR made two recommendations to help ensure that the inter-agency
evaluation of the civilian uplift is comprehensive and that U.S. agencies formally
monitor the effectiveness of civilians in the field and identify shortfalls and nec-
essary corrective actions.

AGENCY COMMENTS
At the time this quarterly report went to press, the agencies were still preparing
formal comments on a draft of the audit report. The final audit report contains
the agency comments and response to the findings and recommendations. To
read the report, see the SIGAR Web site (www.sigar.mil).

Audit 10-16: Elections
Lessons Learned in Preparing and Conducting Elections in Afghanistan
Strengthening the electoral system in Afghanistan is key to the U.S. democracy
and governance strategy. In coordination with international donors, the United
States invested approximately $500 million in 2009 to improve Afghanistan’s elec-
toral capacity and associated civic participation programs. In this report, SIGAR
provided information on lessons learned in the preparation and conduct of the
2009 elections in Afghanistan.

FINDINGS
1. The 2009 elections exhibited some of the same difficulties as the first elec-
   tion cycle in 2004 and 2005, according to USAID. Reports from official
   election observers, independent election analyses, independent audits, and
   participants in conducting the election—including donors, the GIRoA, and
   the United Nations—all point to deficiencies that resulted in fraud and weak-
   nesses in the electoral process. In assessing these reports, SIGAR identified
   16 significant problems associated with the preparation and conduct of the
   2009 elections. The problems include (1) operational issues that contributed
   to vulnerable electoral processes and (2) long-term issues that require elec-
   toral reforms and political will by the GIRoA.
2. Operational problems such as inadequate electoral procedures led to wide-
   spread fraud in ballot counting. Lessons learned included the importance of
   identifying polling stations well in advance to ensure sufficient logistics and
   security support, controlling printed ballots to prevent fraudulent voting,
   enabling and educating candidate agents and election observers, complet-
   ing electoral activities before sundown for security, tallying votes quickly to
   avoid manipulation, making results forms tamper-resistant, tabulating votes
   in a transparent manner, and addressing and resolving complaints quickly.
3. The Afghan electoral system also suffers from long-term issues that will
   take years to address. The GIRoA needs to improve voter registration by
   developing a reliable list of voters; better vet candidates to disqualify ineli-
   gible candidates; empower independent electoral organizations to provide



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            29
SIGAR OVERSIGHT




   transparency; consider changes to the single, non-transferable vote system
   to provide wider representation; and reduce the number of elections to
   lessen the financial burden.
4. Since the August 2009 election, the United States has collaborated with
   other international donors to act on the lessons learned from the 2009 elec-
   tions. Applying these lessons and achieving credible elections in Afghanistan
   depends on the integrity of the election process and the willingness and
   ability of the GIRoA to build its electoral capabilities so that democratic prin-
   ciples and the electoral process are sustained. Building electoral capacity in
   Afghanistan will require continued attention to all aspects of the election cycle.

New Audits Announced This Quarter
This quarter, SIGAR initiated six new audits. These audits examine key aspects
of the U.S. effort to build the ANSF, develop the agriculture and banking sectors,
deter corruption, sustain the civilian uplift, and administer insurance for contrac-
tor personnel.

Review of Afghan National Army Logistics
This audit is examining efforts to develop the logistics capabilities of the ANA.
The audit will address three objectives:
• Identify U.S. assistance for developing ANSF logistics capabilities—specifi-
   cally, support for the management of the Ministry of Defense supply chain
   within Afghanistan.
• Assess the measures in place to prevent fraud, waste, and abuse in the
   ANA supply chain and the extent to which inefficiencies, loss, and theft
   have occurred.
• Identify challenges to efforts to improve ANA logistics systems and the
   extent to which logistics problems have impeded ANA development.

U.S. Efforts To Strengthen the Capabilities of the Afghan Major
Crimes Task Force
This audit is assessing U.S. efforts to strengthen the capabilities of the Afghan
Major Crimes Task Force (MCTF) and is related to a series of reviews examining
U.S. and donor assistance to support the GIRoA’s anti-corruption capabilities.
The audit will address three objectives:
• Identify U.S. and other donor assistance to strengthen the MCTF.
• Determine whether U.S. efforts were designed and implemented in accor-
   dance with applicable laws and regulations.
• Determine whether U.S. assistance is achieving intended results.

Review of U.S. and International Donor Assistance for
Development of the Afghan Banking Sector and Afghan Currency
Control Systems
The Congress has expressed concerns about Afghanistan’s banking system and
the bulk cash being exported through Kabul International Airport. To address



  30                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




congressional inquiries, SIGAR initiated an audit of U.S. and international donor
assistance for development of the Afghan banking sector and currency control
systems, including regulation of bulk cash flows. The audit has four objectives:
• Examine the status and development of the banking sector.
• Identify currency control systems, policies, and activities of the GIRoA,
   including regulation of bulk cash flows into and out of the country.
• Identify programs and activities of the United States and other international
   donors supporting the GIRoA’s efforts to control currency.
• Assess the implementation and effectiveness of the Mission Inter-agency
   Civilian-Military Working Group Action Plan for regulating bulk cash flow at
   Kabul International Airport.

Review of U.S. Assistance To Develop Afghanistan’s Agricultural
Sector
A top priority of the U.S. strategy in Afghanistan is to rebuild the agriculture sec-
tor. This audit has four objectives:
• Identify U.S. and donor assistance to Afghanistan’s agricultural sector
    through FY 2010.
• Assess the extent to which U.S. agricultural assistance is coordinated with
    U.S. agencies, other donors, and the GIRoA and safeguarded against fraud,
    waste, and abuse.
• Evaluate the effect of the agricultural assistance provided by USAID, DoS,
    and DoD in achieving U.S. counter-insurgency objectives and other U.S. and
    Afghan strategic objectives.
• Identify any challenges that may affect the progress of developing the agri-
    cultural sector.

Implementation of the Defense Base Act Insurance Program for
Contractors in Afghanistan
The Defense Base Act (DBA) Insurance Program, administered by the
Department of Labor, requires that many federal government contractors and
subcontractors provide workers’ compensation insurance for employees who
work outside the United States. DoD, DoS, and USAID are the principal U.S.
government entities involved with reconstruction efforts in Afghanistan. DoS,
USAID, and USACE use a single-source insurance provider; all other DoD ele-
ments allow individual contractors to select their own DBA insurers. Over the
course of this audit, SIGAR will examine program costs, program administration,
and payments to recipients.
  The audit has three objectives:
• Determine how much the United States has disbursed under the program in
   2009 and 2010 for contractors involved in Afghanistan reconstruction.
• Assess the procedures and processes in place to enable the agencies involved
   and the Department of Labor to administer the DBA program in Afghanistan,
   including tracking the status of claims and the amounts paid and recouping
   insurance rebates paid by the insurance companies to contractors.



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            31
SIGAR OVERSIGHT




• Assess the procedures and processes in place to help ensure that qualified
  claimants receive the compensation they are entitled to under the DBA insur-
  ance program.

Implementation and Sustainability of the U.S. Civilian
Uplift in Afghanistan
The U.S. strategy in Afghanistan rests in part on the U.S. ability to deploy and
sustain a civilian effort to build governance and support economic develop-
ment across the country. Conducted jointly with the DoS Office of Inspector
General, this audit is a follow-on audit of aspects of the implementation of the
civilian uplift, as well as the sustainability of deploying additional civilians to
Afghanistan. The audit has one objective:
• Determine the costs of the uplift, including how much has been spent to date
   and how much it will cost to sustain the effort. The work will focus on the
   costs associated with the hiring, training, deployment, and necessary life and
   operational support of civilian uplift personnel assigned to Afghanistan.

Ongoing Audits
During this reporting period, SIGAR continued work on eight audits, including
contract assessments, program reviews, and audits related to SIGAR’s anti-
corruption initiative. The audits address reconstruction issues related to security,
governance, and development.

Planning for ANSF Facilities
This audit is examining the process used in providing a rationale for ANSF
infrastructure and facilities and for meeting the ANSF’s changing requirements.
As noted in previous SIGAR audit reports, without an updated facilities plan
that reflects current ANSF requirements, CSTC-A runs the risk of building
facilities that are inadequate for the ANSF’s projected force strength. The audit
has three objectives:
 • Review CSTC-A’s overall plan for constructing ANSF infrastructure and facili-
   ties in Afghanistan.
 • Review CSTC-A’s strategic and tactical rationale for ANSF infrastructure and
   facilities, including justifications for the deployment of ANSF personnel, the
   locations of the various facilities, and their role in the operational missions
   of the ANA and the ANP.
 • Assess how CSTC-A updates its facilities plans to ensure that current and
   planned ANSF infrastructure and facilities meet changing requirements.

Review of U.S. Air Force Center for Engineering and the
Environment Infrastructure Projects in Herat and in Mazar-e Sharif
SIGAR is examining two infrastructure projects undertaken by the AFCEE. This
review has three objectives:
• Assess whether the projects are being completed within the terms of the
   contracts, including schedule and cost.



  32                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




• Determine whether construction is in accordance with approved
  construction plans and specifications.
• Assess whether U.S. contract administration and construction oversight
  are effective.

Review of USAID’s Cooperative Agreement with CARE
International for the Food Insecurity Response for Urban
Populations of Kabul (FIRUP-K) Program
SIGAR is initiating an audit of an estimated $60 million cooperative agreement
between USAID and CARE International. The agreement, the Food Insecurity
Response for Urban Populations of Kabul (FIRUP-K), is for one of four programs
addressing food insecurity in major urban areas in Afghanistan. Although the
completion date of the one-year program was originally March 2010, USAID
recently told SIGAR that it has been extended to September 2011. SIGAR will
examine USAID’s award and oversight processes, program start dates and
results, and challenges to implementation. The audit has three objectives:
• Assess USAID’s process for awarding cooperative agreements, particularly
   FIRUP-K, and USAID’s management and oversight of the program.
• Review the goals and objectives of the program, assess how USAID mea-
   sures results, and identify the program’s achievements.
• Identify the challenges the program has encountered, how they have affected
   implementation, and what USAID and CARE have done to address them—in
   particular, the rationale for extending the planned completion date.

Review of Selected CERP Projects in Afghanistan
This review is a pilot audit of a selection of CERP projects. SIGAR intends to rep-
licate the pilot in selected geographical areas and categories of CERP assistance.
The audit will examine schedules and costs, outcomes, U.S. oversight, and plans
for sustaining the projects. The audit will address four objectives:
 • Assess whether the CERP projects were completed within the terms of the
    project plans, including schedule and cost.
 • Examine the processes in place for evaluating CERP projects and the extent
    to which CERP project outcomes have been assessed.
 • Assess the nature and extent of U.S. administration and oversight for
    CERP projects.
 • Identify the plans that exist for Afghan authorities to take possession of the
    projects, perform maintenance, and pay for sustainment.

Review of Afghanistan’s National Solidarity Program
This audit is related to a series of audits SIGAR is conducting to examine U.S.
and other donor assistance provided to support the anti-corruption capabilities
of the GIRoA. These audits also assess the internal controls that Afghan public
institutions are able to exercise to ensure that donor assistance funds provided
to the government are reasonably protected against waste, fraud, and abuse.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          33
SIGAR OVERSIGHT




   In 2003, the Ministry of Rural Rehabilitation and Development established the
National Solidarity Program to help Afghan communities identify, plan, man-
age, and monitor their own development projects. Since then, the program has
received more than $900 million in international funding and has reported com-
pleting nearly 40,000 small infrastructure projects. The United States has pledged
$440 million to this program. The audit has two objectives:
• Identify U.S. and donor assistance to the program and the actions taken by
   the United States and other donors to ensure that their contributions are
   adequately accounted for, appropriately programmed, and ultimately used
   for their intended purposes.
• Examine the capacity of the Ministry of Rural Rehabilitation and
   Development to plan, manage, and monitor the program, in order to provide
   reasonable assurance that adequate internal controls are in place and are
   used properly to achieve the program’s intended results.

Review of U.S. Agencies’ Use of Contractors To Provide Security
for Reconstruction Programs in Afghanistan
SIGAR is conducting this audit to identify the number and volume of contracts in
place to provide security services in Afghanistan. The audit has these objectives:
• Determine the number of security contractors and personnel working for
   U.S. federal agencies in Afghanistan.
• Assess the agencies’ management and oversight of security contractors
   and subcontractors.
• Determine the extent to which the Government Accountability Office
   and the inspector general community have conducted audits of private
   security contracts.

Contract Audit: Reconstruction Security Support Services from
Global Strategies Group, Inc.
This audit, which is related to SIGAR’s audit of private security contractors
in Afghanistan, is examining whether USACE received the security services it
needed from the contractor at a reasonable cost. This quarter, SIGAR changed
the scope of this audit to clarify the objectives. The re-scoped audit has these
objectives:
 • Identify the services provided by Global Strategies Group (Global) and deter-
   mine whether those services were provided in accordance with the contract,
   including schedule, cost, and any modifications.
 • Determine whether USACE conducted its oversight of the Global contract in
   accordance with the Federal Acquisition Regulation, USACE requirements,
   and any oversight provisions in the contract.
 • Identify the private security subcontractors that were used, if any, and deter-
   mine how they were vetted and considered to be capable of performing the
   contracted services.




  34               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                             SIGAR OVERSIGHT




Review of Afghan National Police (ANP) Personnel Management
SIGAR is conducting this audit to evaluate the extent to which the ANP has
developed accurate systems for personnel accounting. This audit originally
focused on both the ANP and ANA, but SIGAR changed the scope of the audit
to focus only on the ANP in order to avoid duplicating work being conducted
by GAO and to meet the growing interest in the ANP. The re-scoped audit has
four objectives:
• Describe ANP personnel management processes and systems.
• Describe actions taken by the GIRoA and donors to implement and maintain
    ANP personnel management processes and systems.
• Identify any challenges that may impede the implementation and sustain-
    ment of ANP personnel management processes and systems.
• Identify the extent to which risks of fraud, waste, and abuse are being mitigated.

Forensic Audits
SIGAR is conducting forensic reviews of three Afghanistan reconstruction funds
under the authority of P.L. 110-181, as amended. The legislation requires SIGAR
to investigate improper payments—such as duplicate payments or duplicate bill-
ings—and to prepare a final forensic audit report on all programs and operations
funded with amounts appropriated or otherwise made available for the recon-
struction of Afghanistan. The reviews include examination of DoD, USAID, and
DoS transaction data related to reconstruction funding.

Forensic Review of Afghanistan Security Forces Fund
Transaction Data
SIGAR initiated a review of DoD appropriation, obligation, and expenditure trans-
action data related to the Afghanistan Security Forces Fund (ASFF) for the period
from FY 2005 through FY 2009, totaling $25.23 billion in appropriated dollars.
Obtaining data to perform a comprehensive forensic review has been a challenge.
Transactions are processed differently and reside in different systems for every
disbursing station. Detailed system flow diagrams are often not available or are too
high-level to identify how transactions flow through each respective system. Finding
system and data owners who have knowledge of the complete end-to-end process
has been difficult and resulted in the time-consuming pursuit of many financial
trails to attempt to locate the transaction-level detail that is necessary for analysis.
In addition, when all ASFF-related data is gathered, it will be difficult to perform
the same set of analyses across the entire population because the data fields and
formats vary.
   SIGAR is currently working in conjunction with DoD’s Controller team and
various members of the Defense Finance and Accounting Services (DFAS) to
assist in identifying data owners and locating source systems. When transaction
data is obtained, it will be analyzed using extensive data-mining and risk-scoring
techniques to identify anomalies that may indicate fraud, abuse, or waste. The
results could support or lead to SIGAR audits or investigations.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010             35
                                                        SIGAR OVERSIGHT




                                                        Forensic Review of U.S. Agency for International Development
                                                        Transaction Data Related to Afghanistan Reconstruction
                                                        SIGAR initiated a review of USAID appropriation, obligation, and expenditure
                                                        transaction data related to the Economic Support Fund (ESF) from FY 2002 to
                                                        the present, totaling $9.74 billion in appropriated dollars. All transaction data has
                                                        been obtained. It is being analyzed using extensive data-mining and risk-scoring
                                                        techniques to identify anomalies that may indicate fraud, abuse, or waste. The
                                                        results could support or lead to SIGAR audits or investigations.

                                                        Forensic Review of Department of State Transaction Data Related
                                                        to Afghanistan Reconstruction
                                                        SIGAR initiated a review of DoS appropriation, obligation, and expenditure trans-
                                                        action data related to the International Narcotics Control and Law Enforcement
                                                        Fund (INCLE) from FY 2002 to the present, totaling $2.68 billion in appropriated
                                                        dollars. Transaction data is currently being identified and gathered by DoS. When
                                                        provided, the data will be analyzed using extensive data-mining and risk-scoring
                                                        techniques to identify anomalies that may indicate fraud, abuse, or waste. The
                                                        results could support or lead to SIGAR audits or investigations.

                                                        SIGAR INVESTIGATIONS
FIGURE 2.3                                              This quarter, SIGAR opened 32 new investigations. SIGAR’s 81 ongoing inves-
                                                        tigative matters include assessments, preliminary investigations, and full
SIGAR INVESTIGATIONS: STATUS OF OPEN
                                                        investigations. The distinction between these investigative matters derives from
CASES, JULY 1–OCTOBER 30, 2010
                                                        the nature and factual basis of the information regarding the alleged crime. As of
                                                        October 30, 2010, SIGAR is conducting 1 assessment, 41 preliminary investigations,
                        Total: 81                       and 39 full investigations. SIGAR closed 6 cases; for details, see Appendix D.
                                                           SIGAR thoroughly assesses all allegations of criminal activity to determine
                                                        whether reconstruction funds are involved. The United States is funding so many
                                                        interrelated military and civilian activities in Afghanistan that contractors and
                                                        their subcontractors often work for multiple entities engaged in multiple activi-
              Preliminary      Full
              Investigation    Investigation            ties. This often makes it difficult to quickly determine the source of funds, such
              41               39                       as in the case of bulk cash shipments.
                                                           The cases under investigation involve contract and other procurement fraud,
                                                        corruption, theft of government property, and civil investigations. Targets of
                                                        these investigations are not named until cases are adjudicated. Figure 2.3 and
                                 Assessment
                                                        Figure 2.4 provide a breakdown of the cases by status and type.
                                 1

Source: SIGAR Investigations Directorate, 10/13/2010.   SIGAR Investigation Leads to Suspension of U.S. Contracting
                                                        Officer’s Representative and Two Afghan Construction Contractors
                                                        As a result of a bribery investigation initiated by SIGAR, the United States has
                                                        suspended two Afghan construction contractors from being able to bid on
                                                        U.S. government contracts and fired a U.S. International Contracting Officer’s
                                                        Representative accused of accepting a large cash payment from one of the




                                                          36                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




contractors. SIGAR, DoS, and the FBI are coordinating with Department of              FIGURE 2.4

Justice prosecutors in the continuing investigation of irregularities committed in
                                                                                      SIGAR INVESTIGATIONS: NEW CASES,
connection with this large reconstruction project.
                                                                                      JULY 1–OCTOBER 30, 2010

Joint Bribery Investigation Results in Termination of Afghan                                                   Total: 32
Employees and Suspension/Debarment Proceedings Against
Subcontractors
A bribery investigation by special agents of SIGAR, USAID, and the FBI has
                                                                                                          Public Corruption
resulted in the firing of 11 Afghan employees of a major U.S. reconstruction                              17
contractor and the initiation of suspension and debarment proceedings against                                                       Civil
6 Afghan subcontractors to prevent them from receiving future contracts. The              Other
                                                                                                                                    1
                                                                                                            Procurement/          Theft
Afghan employees were accepting bribes to steer work to the subcontractors.               1
                                                                                                            Contract Fraud        2
The investigation has been coordinated with Afghan law enforcement and gov-                                 11
ernment officials. Despite the obstacles associated with charging Afghans in U.S.
courts and the challenges involved in bringing successful prosecutions in Afghan      Source: SIGAR Investigations Directorate.
courts, SIGAR’s investigation is moving forward.

SIGAR Continues To Investigate Cash Leaving Afghanistan
SIGAR has initiated several investigations involving the shipment of large quanti-
ties of cash out of Afghanistan. The investigations are focused on identifying the
origin of the cash, methodologies, and individuals involved in facilitating this
movement of cash. SIGAR investigators are also continuing to work closely with
investigators from other federal agencies and Afghan authorities to identify and
regulate bulk currency shipments from Kabul International Airport.
   The U.S. government and the GIRoA are taking steps to make it easier for U.S.
and Afghan law enforcement agencies to conduct investigations. They include
efforts to establish better airport terminal controls for employees and passen-
gers, improve the airport facility, institute new currency declaration procedures,
and implement other control measures to monitor the movement of commerce
through Kabul International Airport.

SIGAR Is Key Participant in Task Force 2010
Acknowledging the vital and growing role that contractors play in supporting the
international coalition in Afghanistan and recognizing the serious problems that
can result from a lack of awareness of money flows, DoD established Task Force
2010 earlier this year to investigate allegations that contractors hired to provide
security, supplies, and reconstruction work were funding the Taliban or other
criminal networks. The task force began operations in Afghanistan this quarter
and is focused on (1) building a database of contractors and subcontractors to
increase the U.S. visibility into how U.S. funds are flowing through contracts and
subcontracts, (2) identifying contractors and subcontractors who may be divert-
ing funds to the insurgency or other criminal organizations, and (3) taking legal
action against those contractors who have been identified as providing support
for illicit activities.



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          37
SIGAR OVERSIGHT




   Task Force 2010 created the Afghan Shafafiyat (“Transparency”) Investigative
Unit (ASIU), a joint U.S.-Afghan investigations team that includes SIGAR, the
FBI, Homeland Security Investigations, the Defense Criminal Investigative
Service, and the Army Criminal Investigation Command. Through the ASIU, the
United States will work with the GIRoA to arrest and prosecute Afghan citizens
involved in contract fraud. SIGAR’s investigators are working closely with Task
Force 2010 and the ASIU.

Building Investigative Capacity
Since the last reporting period, SIGAR has hired 16 investigative staff mem-
bers—11 special agents, 4 investigative analysts, and 1 administrative
assistant—raising the total number of investigative staff members to 32 and
meeting the targeted staffing level of 32 investigators by the end of FY 2010.
SIGAR continues to hire investigators who are senior-level, career law enforce-
ment officers with experience in white-collar crime investigations, accounting,
and fraud examination.
   Of the 32 investigative staff members, 18 are assigned to Afghanistan and
14 are based at SIGAR headquarters in Arlington, Virginia. SIGAR has assigned
investigators to the U.S. Embassy in Kabul, CSTC-A headquarters at Camp
Eggers, Bagram Air Field, and Kandahar Air Field.
   To expand its investigative presence in Afghanistan, SIGAR is adding seven
new field offices in five provinces where significant reconstruction work is
planned or under way—Balkh, Herat, Khowst, Logar, and Nangarhar. SIGAR
is coordinating with DoS officials and the commanders of ISAF and USFOR-A
to facilitate logistics, including force protection and life support services. To
support its expanded investigative presence, SIGAR will continue to hire addi-
tional investigators. For the next fiscal year, the targeted staffing level for the
Investigations Directorate is 49.
   SIGAR investigators work in close cooperation with other federal law enforce-
ment agencies in Afghanistan and in the United States to maximize resources and
to ensure that all allegations of waste, fraud, and abuse involving U.S. taxpayer
dollars are seriously considered. SIGAR maintains a permanent, full-time pres-
ence at the Joint Operation Center of the International Contract Corruption Task
Force in Washington, D.C. The task force is the principal U.S. law enforcement
organization coordinating U.S. federal investigations of fraud internationally.

SIGAR Hotline and Complaints Management System
This quarter, the SIGAR Hotline and Complaints Management System (HCMS)
received 125 complaints—up nearly 100% from last quarter. The number of
complaints has increased for the third consecutive quarter. Since becoming
operational in January 2009, the HCMS has received 333 reports of alleged fraud,
waste, and abuse in Afghanistan reconstruction.
   To increase awareness of the SIGAR Hotline in Afghanistan, SIGAR
Investigations continued to support a broad public outreach campaign
this quarter, using posters, business cards, fliers, billboards, public service



  38               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                 SIGAR OVERSIGHT




SIGAR posters like this one in Dari encourage Afghans to report incidents of waste, fraud, and
abuse to the SIGAR Hotline and Complaints Management System. (SIGAR photo)



announcements, and fraud awareness briefings. This campaign contributed to
the significant increase in complaints.
   This quarter, SIGAR increased its ability to better support the increased com-
plaint traffic received by the HCMS. The Investigations Directorate hired three
additional investigative analysts, bringing the number to five. Two investigative
analysts are deployed to Afghanistan, and three work at SIGAR headquarters.

PEER REVIEW
On February 24, 2010, SIGAR requested assistance from the Council of the
Inspectors General on Integrity and Efficiency (CIGIE) to examine SIGAR’s
management, audit, investigative, and support operations. CIGIE assembled a
team of 26 multi-disciplinary professionals representing the Offices of Inspector
General from the Federal Deposit Insurance Corporation, the Tennessee Valley
Authority, DoS, DoD, the Department of Agriculture, the Department of the
Interior, and USAID.
    The audit peer review resulted in a rating of “pass with deficiencies” and a let-
ter of comment. Specifically, the review team concluded that with the exception
of five deficiencies, SIGAR complied with its system of quality control and has
reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. CIGIE concurred with SIGAR’s pro-
posed corrective actions, and SIGAR has implemented all the recommendations in
the report and the letter of comment. There are no outstanding recommendations.
SIGAR is also implementing all the Capstone Report’s suggestions.
    The investigations peer review resulted in a determination that SIGAR was not
in full compliance with certain standards. Correction of the compliance issues
was a top priority, and the Investigations Directorate is now fully compliant with
all Attorney General Guidelines and CIGIE qualitative standards.



         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2010                39
SIGAR OVERSIGHT




   All of the reports generated from this request and SIGAR’s response to
the recommendations and suggestions are available on SIGAR’s Web site
(www.sigar.mil). They include the Peer Evaluation Report (August 10, 2010),
the System Review Report and Letter of Comment (July 14, 2010), and the
Quality Assessment Review of the Investigative Operation (July 14, 2010).12

SIGAR BUDGET
Since 2008, when SIGAR was established, the Congress has appropriated
$46.2 million to cover the organization’s operating expenses. In this same period,
the Congress has nearly doubled the amount of funding for the reconstruction
of Afghanistan. From 2002 through 2008, the Congress provided $29.23 billion
for Afghanistan reconstruction; since 2008, it has appropriated an additional
$26.47 billion. President Obama has asked for $16.2 billion more for Afghanistan’s
reconstruction in the FY 2011 budget request. In order to provide oversight of
these funds, SIGAR has steadily increased its staff. SIGAR’s budget request of
$35.6 million for FY 2011 will enable the organization to continue to add to staff
to provide oversight of this increasing U.S. investment in the reconstruction of
Afghanistan. Table 2.2 summarizes SIGAR’s funding through FY 2010.

SIGAR STAFF
This quarter, SIGAR’s staff grew from 93 to 117. Taking into account the
President’s requests for significant increases in reconstruction funding, SIGAR
plans to continue hiring experienced auditors and investigators throughout the
coming year. Depending on its funding, SIGAR’s goal is to have 180 full-time
employees in FY 2011.


TABLE 2.2


SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                      Public Law     Appropriated Made Available      Expires   Amount
Supplemental Appropriations for    P.L. 110-252    6/30/2008     6/30/2008      9/30/2009      $2.0
Fiscal Year 2008, H.R. 2642
Supplemental Appropriations for    P.L. 110-252    6/30/2008     10/1/2008      9/30/2009      $5.0
Fiscal Year 2008, H.R. 2642
Consolidated Security, Disaster    P.L. 110-329    9/30/2008     9/30/2008      9/30/2010      $9.0
Assistance, and Continuing
Appropriations Act, 2009
Supplemental Appropriations for    P.L. 111-32     6/24/2009     6/24/2009      9/30/2010      $7.2
Fiscal Year 2009, H.R. 2346
Consolidated Appropriations Act,   P.L. 111-117   12/16/2009     10/1/2009      9/30/2010     $23.0
2010, H.R. 3288
Total                                                                                        $46.2




   40                       SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                                     SIGAR OVERSIGHT




   SIGAR has 33 staff members working out of 4 offices in Afghanistan, includ-
ing 30 on a one-year tour in Afghanistan and 3 on short-term assignments.
Under its current agreement with U.S. Embassy Kabul, SIGAR is allowed to
station 45 people full-time in Afghanistan. SIGAR is also working with the U.S.
military to expand SIGAR’s investigations presence to seven military-controlled
facilities in five provinces. Figure 2.5 shows SIGAR’s offices and operations
throughout Afghanistan.



FIGURE 2.5

SIGAR IN AFGHANISTAN
Locations of Offices and Places Where SIGAR Has Conducted Audits and Investigations


                                        Bagram Air Field                                  Mazar-e Sharif                   Baghlan                      Fayzabad                   Nijrab
                                        Bagram                                            FOB Mazar-e Sharif
                                        Charikar
                                                                                                             Kunduz
                                                                                                             Aliabad
                   Bamyan
                                                                                          BALKH             KUNDUZ               BADAKHSHAN
                                                                            JOWZJAN                                    TAKHAR
                                                                                                                                                                                   Gamberi
                   Chakhcharan                                                                                                                                                     Mahtar Lam
                                                                            SAR-E PUL                                                                                              Alishang
                                                                                             SAMANGAN                                                         FOB Wright           Kariya
                                                              FARYAB                                          BAGHLAN
                                                                                                                           PANJSHIR
                                                                                                                                 NURISTAN                        FOB Fenty
                                                    BADGHIS                                                                                                   Jalalabad
  Herat                                                                                              PARWAN KAPISA     KUNAR
                                                                                         BAMYAN                                                               FOB Finley Shields
  FOB Herat                                                                                                    LAGHMAN
                                                                                                                                                              Batikot
                                                                                                         KABUL                                                Kameh
                                                                                                WARDAK
                                  HERAT                                                                          NANGARHAR                                    Chaparhar
                                                                                                        LOGAR
                                                              GHOR
                                                                             DAYKUNDI                                  PAKTIYA                                                     U.S. Embassy
                                                                                                                                                                                   Camp Eggers
  Farah                                                                                            GHAZNI                  KHOWST                                                  Camp Falcon
                                                                                                                                                                FOB Salerno
  Tojg                                                                                                                                                                             Camp Alvarado
                                                                                                                                                              FOB Chapman
  FOB Farah                                                                                                                                                                        Kabul
                                                                       URUZGAN                                                                                Khowst City
                                      FARAH                                             ZABUL
                                                                                                            PAKTIKA
                                                                                                                                                              Jaji
                                                                                                                                                              Zardan
                                                                                                                                                              Zormat
                                                                                                                                                              Gardez

                                      NIMROZ                                                                                                                       FOB Shank
                                                   HELMAND
                                                                     KANDAHAR
                                                                                                                                              Orgun-e

                                                                                                                                 Tarin Kowt




                                                  Camp Leatherneck            Kandahar Air Field
                                                                                                                                                               Sites of SIGAR Audits and Investigations
                                                  Lashkar Gah                 Kandahar City                                                                    Current SIGAR Offices
                                                  Garmsir                     Spin Boldak                                                                      Planned SIGAR Offices
                                                  Nari Saraj                  Tahka Pul
                                                  Nad Ali                     Zehali


Note: FOB = forward operating base.




              REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2010                                41
              The Power of Reading
              An Afghan National Army soldier writes in a notebook during a
              literacy program at the Joint Security Academy Southwest at
              Camp Leatherneck in October. Developing the reading skills of
              the army and the police is a fundamental element in building
              the capacity of Afghanistan’s security forces. (ISAF photo)




42   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




        43
          RECONSTRUCTION UPDATE




“We recognize that peace and security
 are not possible without progress in
justice, governance, and development
      across the entire country.”
                           —Afghan Prioritization and
                                Implementation Plan




          Source: GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 48.




              44                         SPECIAL INSPECTOR GENERAL                     I   AFGHANISTAN RECONSTRUCTION
                       RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of Afghanistan during this reporting period.
Updates on accomplishments, challenges, and local initiatives provide context
for the oversight needed in reconstruction efforts. The section is divided into
six subsections: Status of Funds, Security, Governance, Economic and Social
Development, Counter-Narcotics, and Anti-Corruption. The Security, Governance,
and Economic and Social Development subsections mirror the three pillars set
forth in the 2008 Afghanistan National Development Strategy and reflected in the
2010 Prioritization and Implementation Plan announced by the Government of
the Islamic Republic of Afghanistan (GIRoA). The Counter-Narcotics and Anti-
Corruption subsections focus on key issues identified in both documents.

TOPICS
Section 3 discusses six broad topics: historical and current funding information,
security conditions, governance activities, economic and social development
programs, counter-narcotics initiatives, and anti-corruption efforts. Throughout
the section, quarterly highlights accent a single topic related to reconstruction
efforts within a specific subsection.
   The Status of Funds subsection provides a comprehensive discussion of the
monies appropriated, obligated, and disbursed for Afghanistan reconstruction. It
includes specific information on major U.S. funds and international contribution.
   The Security subsection details the progress of the Afghan National Security
Forces and discusses U.S. and international efforts to bolster security in the coun-
try. A quarterly highlight focuses on the new Commander’s Unit Assessment Tool,
which is used to gauge the capabilities of the Afghan National Security Forces.
   The Governance subsection provides an overview of the GIRoA’s progress toward
achieving good governance. It presents updated information on the September 2010
elections; public administration, justice, and prison development; and human rights,
including gender equity and minority representation. A quarterly highlight examines
the effort to reintegrate insurgents into mainstream Afghan society.
   The Economic and Social Development subsection focuses on reconstruction
activities by sector, ranging from agriculture and energy to health services. It
provides a snapshot of the state of the economy and updates on progress in regu-
lating financial networks, achieving fiscal sustainability, developing resources,
and boosting agricultural output, and the process of assessing the capacity of
GIRoA ministries to receive direct assistance.



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           45
RECONSTRUCTION UPDATE




   The Counter-Narcotics subsection describes efforts to reduce the prevalence
of narcotics in Afghanistan. It provides updates on interdiction and alternative
development programming. This subsection discusses joint U.S.-Afghan efforts to
combat the drug trade and the challenges impeding the success of those efforts.
   The Anti-Corruption subsection provides the status of the U.S. and GIRoA
strategies to combat corruption. It also describes ongoing efforts to reduce
corruption and its impact on the reconstruction effort.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. Except where SIGAR audits or investigations are specifically refer-
enced, SIGAR has not verified this data; the information does not reflect SIGAR’s
opinions. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple orga-
nizations provide the data, numbers may conflict. For a complete discussion of
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the state
of affairs in Afghanistan. The U.S. agencies that participated in the data call
for this quarterly report include the following:
• Department of State
• Department of Defense
• U.S. Agency for International Development
• U.S. Department of the Treasury
A preliminary draft of the report was provided to the responding agencies
prior to publication to allow these agencies to verify and clarify the content
of this section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 • U.S. agencies represented in the data call
 • International Security Assistance Force
 • Government Accountability Office
 • United Nations (and relevant branches)
 • International Monetary Fund
 • World Bank
 • GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  46                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               GRAPHICS KEY




UNDERSTANDING THE GRAPHICS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                            HEAT MAPS
This report discusses many funds and projects with                    Heat maps assign colors to provinces, based on
dollar values ranging from millions to billions. To                   pertinent data. Each color represents a data set,
provide an accurate graphical representation of these                 defined in a legend; darker colors represent larger
numbers, some bar graphs appear with a break (a                       numbers, lighter colors show smaller numbers.
wavy line) to indicate a jump between zero and a
larger number.


     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350

                                   $50                                                                         0
                                                                                                               1–20
                                                                                                               21–40
       $0                           $0                                                                         41–200
                                                                                                               201–429
            Bar chart with a             Bar chart without
             break in scale              a break in scale


DISTINGUISHING BILLIONS AND MILLIONS                                  FUNDING MARKERS
Because this report details funding in both billions                  Funding markers identify individual funds discussed
and millions of dollars, it uses a visual cue to distin-              in the text. The agency responsible for managing the
guish the two measurement units. Dollars reported in                  fund is listed in the tan box below the fund name.
billions are represented in blue, and dollars reported
in millions are depicted in green.




                                                                                                  ESF



                                                                                                 USAID



       Pie Chart in Billions         Pie Chart in Millions




         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2010             47
TITLE OF THE SECTION




 48    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




STATUS OF FUNDS
As of September 30, 2010, the United States had appropriated approximately
$56.10 billion for relief and reconstruction in Afghanistan since fiscal year (FY)
2002. This cumulative funding total is based on data reported by agencies and
amounts appropriated in FY 2010, as shown in Appendix B. This total has been
allocated as follows:
• nearly $29.35 billion for security
• more than $16.15 billion for governance and development
• more than $4.49 billion for counter-narcotics efforts
• nearly $2.08 billion for humanitarian aid
• more than $4.03 billion for oversight and operations
Figure 3.1 provides an overview of the major U.S. funds that contribute to
these efforts.

FIGURE 3.1


U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                        FUNDING SOURCES (TOTAL: $56.10)
                                                                                                                              ASFF: Afghanistan Security Forces Fund

       ASFF                 CERP                 DoD CN                  ESF             INCLE                 Other
                                                                                                                              CERP: Commander’s Emergency
                                                                                                                              Response Program
     $27.83                 $2.64                 $1.51              $11.14              $2.85                $10.13

                                                                                                                              DoD CN: DoD Drug Interdiction and
                                                          AGENCIES
                                                                                                                              Counter-Drug Activities


               Department of Defense (DoD)                           USAID
                                                                                     Department of
                                                                                                         Distributed to
                                                                                                                              ESF: Economic Support Fund
                                                                                      State (DoS)
                        $31.98                                       $11.14                             Multiple Agenciesa
                                                                                         $2.85
                                                                                                                              INCLE: International Narcotics Control
                                                                                                                              and Law Enforcement
Note: Numbers affected by rounding.
a. Multiple agencies include DoJ, DoS, USAID, Treasury, and USDA.
                                                                                                                              Other: Other Funding
Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD, responses to SIGAR data call, 10/20/2010, 10/15/2010, 10/6/2010,
10/14/2009, and 10/1/2009; FY 2010 Supplemental; FY 2010 Defense Explanatory Statement; DoS, responses to SIGAR data call,
10/15/2010 and 10/12/2010; Treasury, response to SIGAR data call, 10/12/2010; OMB, responses to SIGAR data call, 10/19/2010
and 4/19/2010; USAID, responses to SIGAR data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009.




              REPORT TO THE UNITED STATES CONGRESS                   I    OCTOBER 30, 2010                        49
                                                                      STATUS OF FUNDS




                                                                      U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF      CERP DoD CN             ESF     INCLE                     As of September 30, 2010, cumulative appropriations for relief and reconstruc-
                                                                      tion in Afghanistan totaled approximately $56.10 billion. This total can be divided
                                                                      into five major categories of reconstruction funding: security, governance and
             DoD                 USAID       DoS
                                                                      development, counter-narcotics, humanitarian, and oversight and operations. For
                                                                      complete information regarding U.S. appropriations, see Appendix B.
                                                                         As shown in Figure 3.2, cumulative appropriations as of FY 2010 increased
The amount provided by the five major U.S.
                                                                      by nearly 41.4% over cumulative appropriations as of FY 2009, to approximately
funds represents nearly 82.0% (more than
$45.98 billion) of total reconstruction                               $56.10 billion. Since FY 2002, security efforts have received the largest cumula-
assistance in Afghanistan since FY 2002.                              tive appropriations. Appropriations for security (nearly $29.35 billion) account
Of this amount, nearly 84.7% (more than                               for more than 52.3% of total U.S. reconstruction assistance. In FY 2010, security
$38.94 billion) has been obligated, and                               had a large gain in cumulative appropriations over FY 2009 (more than 45.4%),
nearly 70.3% (nearly $32.31 billion) has                              followed by governance and development (nearly 38.7%), and counter-narcotics
been disbursed. The following pages provide                           (more than 27.9%).
additional details on these funds.                                       Figure 3.3 on the facing page displays annual appropriations by funding cat-
                                                                      egory from FY 2002 to FY 2010. The bars show the dollar amounts appropriated,
                                                                      and the pie charts show the proportions of the total appropriated by category.
                                                                      These figures reflect amounts as reported by the respective agencies and
                                                                      amounts appropriated in the following legislation:
                                                                       • the FY 2010 Supplemental Appropriations Act (FY 2010 Supplemental)


FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF SEPTEMBER 30, 2010                                                   ($ BILLIONS)


                                                                                                                                                                                   $56.10
  $55
  $50
  $45
                                                                                                                                                                $39.69
   $40
   $35
   $30                                                                                                                                      $29.23

   $25                                                                                                                    $23.04
   $20
   $15                                                                                               $13.01
   $10                                                                           $9.53
                                                            $4.68
     $5                               $2.08
                 $1.06
     $0
                 2002                     2003              2004                 2005                   2006               2007              2008                   2009           2010


                         Security                Governance/Development             Counter-Narcotics             Humanitarian           Oversight and Operations          Total
Notes: Numbers affected by rounding. Updated data resulted in a higher appropriation figure for FY 2009 than reported last quarter.
Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD, responses to SIGAR data call, 10/20/2010, 10/15/2010, 10/6/2010, 10/14/2009, and 10/1/2009; FY 2010 Supplemental; FY 2010
Defense Explanatory Statement; DoS, responses to SIGAR data call, 10/15/2010 and 10/12/2010; Treasury, response to SIGAR data call, 10/12/2010; OMB, responses to SIGAR data call, 10/19/2010
and 4/19/2010; USAID, responses to SIGAR data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                                                                          50                            SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




• the FY 2010 Department of Defense Appropriations Act (FY 2010 DoD
  Appropriations Act)
• the FY 2010 Departments of Transportation and Housing and Urban
  Development Related Agencies Appropriations Act (FY 2010 Consolidated
  Appropriations Act)
    As shown in Figure 3.3, appropriations for FY 2010 amounted to nearly $16.42
billion, surpassing FY 2009 levels by more than 57.0%. This is the largest amount
appropriated in a single year for the reconstruction effort.
    FY 2010 appropriations for security increased by nearly 63.5% over FY 2009
appropriations, to nearly $9.17 billion. Of the total appropriations for FY 2010,
security initiatives accounted for more than 55.8%, followed by governance
and development with more than 27.4%. Appropriations in FY 2010 for security
(nearly $9.17 billion) are the largest appropriations made in a single year for the
reconstruction effort since FY 2002.

FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                                   ($ BILLIONS)

                                                                                                                                                                                  $16.42
        $16
        $15
        $14
        $13
        $12
        $11                                                                                                                                                      $10.46
                                                                                                                          $10.03
        $10
          $9
          $8
          $7                                                                                                                                 $6.19
          $6
                                                                                   $4.85
          $5
          $4                                                                                           $3.48
          $3                                                  $2.60
          $2
                     $1.06                $1.01
          $1
          $0
                      2002                2003                 2004                2005                 2006                2007              2008               2009             2010


 Percentage




                          Security            Governance/Development               Counter-Narcotics            Humanitarian          Oversight and Operations            Total

Notes: Numbers affected by rounding. Updated data resulted in a higher appropriation figure for FY 2009 than reported last quarter.
Sources: DoD response to SIGAR vetting, 10/22/2010; DoD, responses to SIGAR data call, 10/20/2010, 10/15/2010, 10/6/2010, 10/14/2009, and 10/1/2009; FY 2010 Supplemental; FY 2010
Defense Explanatory Statement; DoS, responses to SIGAR data call, 10/15/2010 and 10/12/2010; Treasury, response to SIGAR data call, 10/12/2010; OMB, responses to SIGAR data call, 10/19/2010
and 4/19/2010; USAID, responses to SIGAR data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




               REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2010                             51
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to provide
                                                       the Afghan National Security Forces (ANSF) with equipment, supplies, services,
                                                       and training, as well as facility and infrastructure repair, renovation, and con-
            DoD                                        struction.13 The primary organization responsible for building the ANSF is the
                                                       NATO Training Mission - Afghanistan (NTM-A/CSTC-A).14
                                                          The FY 2010 Supplemental Appropriations Act—signed by the U.S. President
ASFF FUNDS TERMINOLOGY
                                                       on July 29, 2010—provided more than $2.60 billion for the ASFF.15 This amount
DoD reported ASFF funds as available,                  brings the cumulative total funding for the ASFF to more than $27.83 billion—
obligated, or disbursed.                               more than 49.6% of total U.S. reconstruction assistance. As of September 30,
Available: Total monies available for                  2010, DoD reported that of this amount, nearly $23.61 billion has been obligated,
commitments                                            of which nearly $21.41 billion has been disbursed.16 Figure 3.4 displays the
Obligations: Commitments to pay monies                 amounts made available for the ASFF by fiscal year.
Disbursements: Monies that have been                      DoD reported that cumulative obligations as of September 30, 2010,
expended                                               increased by more than $1.77 billion over cumulative appropriations as of
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       June 30, 2010. Cumulative disbursements as of September 30, 2010, increased
                                                       by nearly $0.62 billion over cumulative disbursements as of June 30, 2010.17
                                                       Figure 3.5 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for the ASFF.

                                                       FIGURE 3.4                                               FIGURE 3.5


                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                      ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                             ($ BILLIONS)



                                                       $10.0                                                    $30.0

                                                                                                                                                                 Available
                                                                                                                                                                 $27.83
                                                        $8.0                                                                           Available
                                                                                                                $25.0                  $25.23
                                                                                                                                                                 Obligated
                                                                                                                                                                 $23.61
                                                        $6.0                                                                           Obligated
                                                                                                                                       $21.83                    Disbursed
                                                                                                                $20.0                  Disbursed                 $21.41
                                                                                                                                       $20.79
                                                        $4.0


                                                                                                                $15.0
                                                        $2.0



                                                          $0                                                       $0
                                                                 2005      06      07        08    09      10             As of Jun 30, 2010        As of Sep 30, 2010

                                                       Note: Numbers affected by rounding.                      Notes: Numbers affected by rounding. Amounts reported as
                                                       Source: DoD, response to SIGAR data call, 10/15/2010.    provided by DoD.
                                                                                                                Sources: DoD, responses to SIGAR data call, 10/15/2010
                                                                                                                and 7/14/2010.




                                                           52                        SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                         STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:18                                               Budget Activity Groups: categories
 • Defense Forces (Afghan National Army, or ANA)                                                                     within each appropriation or fund
 • Interior Forces (Afghan National Police, or ANP)                                                                  account that identify the purposes,
 • Related Activities (primarily Detainee Operations)                                                                projects, or types of activities financed
Funds for each budget activity group are further allocated to four sub-activity                                      by the appropriation or fund
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                     Sub-Activity Groups: accounting
and Sustainment.19
                                                                                                                     groups that break down the command’s
   As of September 30, 2010, DoD had disbursed nearly $21.41 billion for ANSF
                                                                                                                     disbursements into functional areas
initiatives. Of this amount, more than $14.07 billion was disbursed for the ANA
and nearly $7.24 billion for the ANP; the remaining nearly $0.10 billion was
directed to related activities.20                                                                                  Sources: DoD, “Manual 7110.1-M Department
                                                                                                                   of Defense Budget Guidance Manual,” accessed
   As shown in Figure 3.6, of the funds disbursed for the ANA, the largest                                         9/28/2009; Depar tment of the Navy, “Medical Facility
                                                                                                                   Manager Handbook,” accessed 10/2/2009, p. 5.
portion—more than $6.37 billion—supported Equipment and Transportation.
Of the funds disbursed for the ANP, the largest portion—nearly $2.03 billion—
also supported Equipment and Transportation, as shown in Figure 3.7.




FIGURE 3.6                                                FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                            ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                    By Sub-Activity Group,
FY 2005–September 30, 2010 ($ BILLIONS)                   FY 2005–September 30, 2010 ($ BILLIONS)


                     Total: $14.07                                              Total: $7.24



                      Equipment and
                      Transportation                                     Sustainment Infrastructure
                      $6.37                                              $1.99       $1.52
             Sustainment
             $3.89


                                                              Training and                       Equipment and
          Training and                 Infrastructure         Operations                         Transportation
          Operations                   $2.48                  $1.70                              $2.03
          $1.33

                                                          Notes: Numbers affected by rounding. Numbers are as of
Notes: Numbers affected by rounding. Numbers are as of
                                                          9/30/2010.
9/30/2010.
                                                          Source: DoD, response to SIGAR data call, 10/15/2010.
Source: DoD, response to SIGAR data call, 10/15/2010.




             REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2010                            53
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                         The Commander’s Emergency Response Program (CERP) enables U.S.
                                                        commanders in Afghanistan to respond to urgent humanitarian relief and recon-
                                                        struction requirements in their areas of responsibility by supporting programs
           DoD                                          that will immediately assist the local population. Funding under this program is
                                                        intended for small projects that are estimated to cost less than $500,000 each.21
                                                        Projects with cost estimates exceeding $1.00 million are permitted, but they
CERP FUNDS TERMINOLOGY                                  require approval from the Commander of U.S. Central Command.22
OMB reported CERP funds as appropriated.
Appropriations: Total monies available for              Status of Funds
commitments                                             The FY 2010 DoD Appropriations Act provides $1.20 billion to CERP to promote
                                                        and support development activities. Of this amount, $1.00 billion is for initia-
DoD reported CERP funds as appropriated,                tives in Afghanistan.23 This brings the cumulative total funding for CERP to
obligated, or disbursed.                                nearly $2.64 billion—more than 4.7% of total U.S. reconstruction assistance in
Appropriations: Total monies available for              Afghanistan.24 As of September 30, 2010, DoD reported that of this amount, more
commitments                                             than $1.93 billion had been obligated, of which more than $1.33 billion has been
Obligations: Commitments to pay monies                  disbursed.25 Figure 3.8 shows CERP appropriations by fiscal year.
Disbursements: Monies that have been                       DoD reported that cumulative obligations as of September 30, 2010, increased
expended                                                by more than $291.59 million over cumulative obligations as of June 30, 2010.
Sources: OMB, response to SIGAR data call, 4/19/2010;   Cumulative disbursements as of September 30, 2010, increased by more than
DoD, response to SIGAR data call, 4/14/2010.            $87.63 million over cumulative disbursements as of June 30, 2010.26 Figure 3.9
                                                        provides a cumulative comparison of amounts appropriated, obligated, and
                                                        disbursed for CERP projects.

                                                        FIGURE 3.8                                                         FIGURE 3.9

                                                        CERP APPROPRIATIONS BY FISCAL YEAR                                   CERP FUNDS, CUMULATIVE COMPARISON
                                                        ($ MILLIONS)                                                         ($ BILLIONS)

                                                                                                                                                 Appropriated                Appropriated
                                                        $1,000                                                               $2.5                $2.64                       $2.64



                                                          $800                                                               $2.0                                            Obligated
                                                                                                                                                                             $1.93
                                                                                                                                                 Obligated
                                                          $600                                                               $1.5                $1.64
                                                                                                                                                                             Disbursed
                                                                                                                                                 Disbursed
                                                                                                                                                                             $1.33
                                                                                                                                                 $1.24
                                                          $400                                                               $1.0


                                                          $200                                                               $0.5


                                                            $0                                                                 $0
                                                                 2004 05        06     07     08     09     10                       As of Jun 30, 2010         As of Sep 30, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers affected     Notes: Numbers affected by rounding. Amounts reported as
                                                        by rounding.                                                         provided by DoD and OMB.
                                                        Sources: OMB, response to SIGAR data call, 10/19/2010; DoD,          Sources: OMB, response to SIGAR data call, 10/19/2010; DoD,
                                                        response to SIGAR data call, 1/13/2010.                              responses to SIGAR data call, 10/20/2010 and 7/15/2010.




                                                            54                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                             STATUS OF FUNDS




DoD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities (DoD CN) fund sup-                                                                           DoD CN
port DoD’s efforts to stabilize Afghanistan by combating the drug trade and
related activities. The DoD CN fund provides support to the counter-narcotics
effort by supporting military operations against drug traffickers; expand-                                                                DoD
ing Afghan interdiction operations; and building the capacity of Afghan law
enforcement—including the Afghan Border Police—with specialized training,
                                                                                                                              DoD CN FUNDS TERMINOLOGY
equipment, and facilities.27
   The FY 2010 Supplemental provides $80.90 million for DoD CN. This brings                                                   DoD reported DoD CN funds as appropriated,
the cumulative total funding for DoD CN to more than $1.51 billion—nearly 2.7%                                                obligated, or disbursed.
of total U.S. reconstruction assistance in Afghanistan. DoD reported that of this                                             Appropriations: Total monies available for
amount, more than $1.43 billion had been obligated and disbursed.28 Figure 3.10                                               commitments
displays DoD CN appropriations by fiscal year.                                                                                Obligations: Commitments to pay monies
   DoD reported that cumulative obligations as of September 30, 2010, increased                                               Disbursements: Monies that have been
by more than $35.16 million over cumulative obligations as of June 30, 2010.                                                  expended
Cumulative disbursements as of September 30, 2010, increased by more than
                                                                                                                              Source: DoD, response to SIGAR data call, 4/13/2010.
$35.16 million over cumulative disbursements as of June 30, 2010.29 Figure 3.11
shows the cumulative amounts appropriated, obligated, and disbursed for DoD
CN–funded initiatives.



FIGURE 3.10                                                 FIGURE 3.11

DOD CN APPROPRIATIONS BY                                    DOD CN FUNDS, CUMULATIVE COMPARISON
                                                            ($ BILLIONS)
FISCAL YEAR ($ MILLIONS)
                                                                                                               Appropriated
$400                                                        $1.50                                              $1.51


$350
                                                            $1.45
$300                                                                               Appropriated                Obligated
                                                                                   $1.43                       $1.43
                                                            $1.40                  Obligated                   Disbursed
$250                                                                               $1.40                       $1.43
                                                                                   Disbursed
$200                                                                               $1.40
                                                            $1.35

$150

                                                            $1.30
$100

 $50

   $0                                                          $0
        2004     05     06      07     08      09     10                As of Jun 30, 2010        As of Sep 30, 2010

Notes: Data may include inter-agency transfers. Numbers     Notes: Numbers affected by rounding. Amounts reported as
affected by rounding.                                       provided by DoD. Obligation data was not provided; assumed to
                                                            equal disbursements.
Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD,
response to SIGAR data call, 10/6/2010.                     Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD,
                                                            responses to SIGAR data call, 10/6/2010 and 7/13/2010.




             REPORT TO THE UNITED STATES CONGRESS                   I   OCTOBER 30, 2010                           55
                                                        STATUS OF FUNDS




                                                        ECONOMIC SUPPORT FUND
                               ESF                      Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                        countries meet short- and long-term political, economic, and security needs. ESF
                                                        programs support counter-terrorism; bolster national economies; and assist in
                              USAID                     the development of effective, accessible, independent legal systems for a more
                                                        transparent and accountable government.30
                                                           The FY 2010 Supplemental provides nearly $1.31 billion for ESF, and the
ESF FUNDS TERMINOLOGY                                   FY 2010 Consolidated Appropriations Act provides almost $2.04 billion, bring-
OMB reported ESF funds as appropriated.                 ing the cumulative total funding for ESF to more than $11.14 billion—nearly
Appropriations: Total monies available for              19.9% of total U.S. reconstruction assistance to the reconstruction effort.31 As of
commitments                                             September 30, 2010, USAID reported that of this amount, more than $9.55 billion
                                                        had been obligated, of which nearly $6.28 billion had been disbursed.32 Figure
USAID reported ESF funds as appropriated,               3.12 shows ESF appropriations by fiscal year.
obligated, or disbursed.                                   Data as of June 30, 2010, was unavailable at press time. USAID reported that
Appropriations: Total monies available                  cumulative obligations as of September 30, 2010, increased by more than $1.98 bil-
for commitments                                         lion over cumulative obligations as of March 31, 2010. Cumulative disbursements
Obligations: Commitments to pay monies                  as of September 30, 2010, increased by more than $0.88 billion over cumulative
Disbursements: Monies that have been                    disbursements as of March 31, 2010.33 Figure 3.13 provides a cumulative compari-
expended                                                son of the amounts appropriated, obligated, and disbursed for ESF programs.
Sources: OMB, response to SIGAR data call, 4/19/2010;   FIGURE 3.12                                               FIGURE 3.13
USAID, response to SIGAR data call, 4/15/2010.

                                                        ESF APPROPRIATIONS BY FISCAL YEAR                         ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                              ($ BILLIONS)



                                                                                                                                                                        Appropriated
                                                        $3.5                                                      $11.0                                                 $11.14

                                                        $3.0                                                      $10.0
                                                                                                                                          Appropriated
                                                                                                                                                                        Obligated
                                                                                                                                          $9.74
                                                                                                                                                                        $9.55
                                                        $2.5                                                       $9.0


                                                                                                                   $8.0
                                                        $2.0                                                                              Obligated
                                                                                                                                          $7.57
                                                                                                                   $7.0
                                                        $1.5
                                                                                                                                                                        Disbursed
                                                                                                                   $6.0                                                 $6.28
                                                        $1.0
                                                                                                                                          Disbursed
                                                                                                                   $5.0                   $5.39
                                                        $0.5


                                                          $0                                                         $0
                                                               2002 03 04 05 06 07 08 09 10                                     As of Mar 31, 2010         As of Sep 30, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers   Notes: Data may include inter-agency transfers. Numbers affected by
                                                        affected by rounding. Amounts reported as provided by     rounding. Amounts reported as provided by USAID, OMB, and FY 2010
                                                        USAID, OMB, and FY 2010 Supplemental.                     Supplemental. Data as of 9/30/2010 is compared with data as of
                                                                                                                  3/31/2010 because data as of 6/30/2010 was not available.
                                                        Sources: OMB, response to SIGAR data call, 1/21/2010;
                                                        H.R. 4899, FY 2010 Supplemental Appropriations Act,       Sources: OMB, response to SIGAR data call, 1/21/2010; H.R. 4899,
                                                        7/29/2010; USAID, response to SIGAR data call,            FY 2010 Supplemental Appropriations Act, 7/29/2010; USAID,
                                                        10/15/2010 and 4/15/2010.                                 response to SIGAR data call, 10/15/2010 and 4/15/2010.




                                                            56                         SPECIAL INSPECTOR GENERAL            I    AFGHANISTAN RECONSTRUCTION
                                                              STATUS OF FUNDS




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                    INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
manages an account for advancing rule of law and combating narcotics produc-
                                                                                                                                                                        DoS
tion and trafficking—the International Narcotics Control and Law Enforcement
(INCLE) account. INCLE supports several INL program groups, including police,
counter-narcotics, and rule of law and justice.34                                                                               INL FUNDS TERMINOLOGY
   The FY 2010 Supplemental provides $169.00 million for INCLE.35 This brings
                                                                                                                                OMB reported INL funds as appropriated.
the cumulative total funding for INCLE to more than $2.85 billion—nearly 5.1%
                                                                                                                                Appropriations: Total monies available for
of total U.S. reconstruction assistance in Afghanistan.36 INL reported that of this
                                                                                                                                commitments
amount, more than $2.42 billion had been obligated, of which more than $1.86 billion
had been liquidated.37 Figure 3.14 displays INCLE allotments by fiscal year.                                                    INL reported INCLE and other INL funds
   INL reported that as of September 30, 2010, cumulative obligations increased                                                 as allotted, obligated, or liquidated.
$295.89 million over cumulative obligations, as of June 30, 2010. Cumulative                                                    Allotments: Total monies available
liquidations as of September 30, 2010, increased by nearly $185.56 million over                                                 for commitments
cumulative liquidations as of June 30, 2010.38 Figure 3.15 provides a cumulative                                                Obligations: Commitments to pay monies
comparison of amounts allotted, obligated, and liquidated for INCLE.                                                            Liquidations: Monies that have been expended

                                                                                                                                Sources: OMB, response to SIGAR data call, 4/19/2010;
                                                                                                                                DoS, response to SIGAR data call, 4/9/2010.
FIGURE 3.14                                                FIGURE 3.15

INCLE ALLOTMENTS BY FISCAL YEAR                            INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                               ($ BILLIONS)




$700                                                       $3.0
                                                                                                                 Allotted
                                                                                    Allotted                     $2.85
$600
                                                                                    $2.68
                                                           $2.5
                                                                                                                Obligated
$500
                                                                                                                $2.42
                                                                                   Obligated
$400
                                                                                   $2.13
                                                           $2.0
                                                                                                                 Liquidated
$300                                                                                                             $1.86
                                                                                   Liquidated
                                                                                   $1.68
$200                                                       $1.5


$100


  $0                                                         $0
       2002 03 04 05 06 07 08 09 10                                    As of Jun 30, 2010          As of Sep 30, 2010

Notes: Data may include inter-agency transfers. Numbers   Notes: Data may include inter-agency transfers. Numbers affected by
affected by rounding.                                     rounding. Amounts reported as provided by DoS and the FY 2010
                                                          Supplemental.
Sources: H.R. 4899, FY 2010 Supplemental Appropriations
Act, 7/29/2010; DoS, response to SIGAR data call,         Sources: H.R. 4899, FY 2010 Supplemental Appropriations Act,
10/15/2010.                                               7/29/2010; DoS, response to SIGAR data call, 10/15/2010 and
                                                          7/13/2010.




               REPORT TO THE UNITED STATES CONGRESS                I   OCTOBER 30, 2010                              57
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding, to support reconstruction
efforts in Afghanistan. The GIRoA uses some of this funding to pay staff salaries.
In an audit published this quarter, SIGAR found that neither donors nor the
GIRoA could identify how many employees receive support or how much they
were paid.39 A February 2010 estimate from the Ministry of Finance, based on
incomplete data, indicated salary support of more than $45 million for 6,600
civilian employees and technical advisors. This support is not provided through
trust funds, which are the preferred mechanism for providing donor assistance,
as noted in SIGAR’s April 2010 quarterly report. For details on SIGAR’s audit, see
Section 2 of this report.
   Contributions that are provided through the preferred mechanism, trust funds,
are pooled and then distributed for reconstruction activities. The two main
sources of such funding are the Afghanistan Reconstruction Trust Fund (ARTF)
and the Law and Order Trust Fund (LOTFA).40



Contributions to the Afghanistan Reconstruction Trust Fund
In its “Administrator’s Report on Financial Status,” the World Bank reported
that as of September 22, 2010, the ARTF had funded 19 active projects with a
combined commitment value of over $1.06 billion, of which $826.61 million has
been disbursed. From early 2002 to September 22, 2010, 32 donors contributed
more than $3.96 billion to the ARTF.41 The United States has provided nearly
$922 million of this amount.42 Figure 3.16 and Figure 3.17 show contributions
by status and by donor as of September 22, 2010. These contributions maintain
the trust fund’s status as the largest contributor to the GIRoA budget for both
operating costs and development programs.43
    Contributions are divided into two funding channels—the Recurrent Cost
(RC) Window and the Investment Window. According to the October 2010
“Quarterly Country Update,” contributions to the RC Window amounted to
$1.95 billion as of August 22, 2010. The RC Window supports the operating costs
of the GIRoA because domestic revenues continue to be insufficient to support
its recurring costs. The Investment Window supports the costs of development
programs. The World Bank reported that disbursement rates for the Investment
Window have been high—77% of total investments as of August 22, 2010.44




  58               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




FIGURE 3.16                                                                                                            FIGURE 3.17

ARTF CONTRIBUTIONS FOR SY 1389 BY DONOR, AS OF SEPTEMBER 22, 2010 ($ MILLIONS)                                         ARTF CONTRIBUTIONS FOR SY 1389,
                                                                                                                       AS OF SEPTEMBER 22, 2010
                                            Total Commitments: $950           Total Paid In: $335                      Proportion of Amounts Paid In to
                                                                                                                       Amounts Committed ($ MILLIONS)

   United States                                   215                                                           590
                                                                                                                                      Total Commitments: $950
 United Kingdom 24                          118

        Germany 0                64
                                                                                                                                                Paid In
          Norway 0          39                                                                                                                  $335

     Netherlands 33        33
          Canada 27 27
                                                                                                                                               Remaining
          Sweden 0 23                                                                                                                          $615

         Australia 23 23

            Spain 0 15
                                                                                                                       Notes: Numbers affected by rounding. SY = solar year;
                                                                                                                       SY 1389 runs from 3/21/2010 to 3/20/2011.
           Others 14 19
                                                                                                                       Source: World Bank, “ARTF: Administrator’s Report on
                                                                                                                       Financial Status as of September 22, 2010,” p. 1.
                   0                  100           200               300              400               500    600


                                                          Paid In           Commitments
Notes: Numbers affected by rounding. SY = solar year; SY 1389 runs from 3/21/2010 to 3/20/2011.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2010,” p. 1.




Contributions to the Law and Order Trust Fund for Afghanistan
In its progress report for the second calendar quarter of 2010, the United
Nations Development Programme reported that from September 2008 to June
2010, international donors committed nearly $846.95 million to the fifth phase
of the LOTFA. Of this amount, $261.00 million was contributed by the United
States.45 A large portion of these funds paid the salaries of approximately 105,965
Afghanistan National Police personnel—a principal priority of the fund.46 The
LOTFA had five implementation phases and just completed its fifth phase on
August 31, 2010. As noted in SIGAR’s July 2010 quarterly report, the GIRoA
and international donors will discuss whether to extend the fund and for what
duration of time.47




             REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2010                    59
TITLE OF THE SECTION




 60    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




SECURITY
The security environment across Afghanistan remained volatile this quarter.
As of October 1, 2010, the number of security incidents remained high in the
south and east, was moderate in the west, and was down in the north, accord-
ing to a U.S. Department of State (DoS) threat assessment. The central region,
including the area around Kabul, showed significant improvements—attributed
to the success of recent military and police operations. Most security events
occurred in Helmand and Kandahar, where military offensives continue.48
   Since 2009, according to the Secretary-General of the United Nations (UN),
there has been a 69% increase in the number of security incidents—including an
82% increase in incidents involving improvised explosive devices (IEDs). The
number of complex suicide attacks doubled to a rate of four per month. In addi-
tion, the Secretary-General reported that the number of assassinations carried
out by anti-government elements tripled this quarter, to an average of 21 per
week. The Secretary-General attributed these increases, in part, to higher inter-
national troop levels, a rise in the number of operations by the Afghan National
Security Forces (ANSF), and increased activities of elements opposed to the
Government of the Islamic Republic of Afghanistan (GIRoA).49
   To develop the ANSF, the United States had appropriated nearly $29.35 billion—
including nearly $9.17 billion for FY 2010—as of September 30, 2010. Most of
these funds were appropriated through the Afghanistan Security Forces Fund
(ASFF), which provides equipment, services, training, and infrastructure-related
assistance to the ANSF.50 The ASFF is administered by the U.S. Department of
Defense (DoD). The $29.35 billion is more than all other categories of U.S. relief
and reconstruction funding combined, as shown in Appendix B of this report.

SECURITY GOALS
The force strength of the ANSF grew from 235,758 in June 2010 to 258,668 in
October 2010, as reported by the International Security Assistance Force (ISAF).
This latest number includes 138,164 personnel assigned to the Afghan National
Army (ANA) and 120,504 personnel assigned to the Afghan National Police
(ANP).51 These numbers do not, however, represent the number of ANSF person-
nel who are present for duty at any given time. Table 3.1 on the following page
shows progress against strategic priorities since last quarter.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          61
                                                             SECURITY




                                                             TABLE 3.1


                                                             STRATEGIC PRIORITIES FOR SECURITY
                                                             Priority                      Target                                    Status                    Change Since Last Quarter
                                                             Afghan National Army          134,000 troops by 10/2010                 138,164 troops                                   +8,279
                                                                                           171,600 troops by 10/2011                 (as of 9/22/2010)
                                                             Afghan National Police        109,000 personnel by 10/2010              120,504 personnel                               +14,631
                                                                                           134,000 personnel by 10/2011              (as of 9/21/2010)
                                                             Note: Numbers affected by rounding.

                                                             Sources: GIRoA, “Afghanistan National Development Strategy, Executive Summary,” pp. 4, 6; CSTC-A, response to SIGAR data call,
                                                             10/4/2010; ISAF, PERSTAT, 10/5/2010; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.




     “If we do not continue                                     On September 27, 2010, the commander of the NATO Training Mission -
                                                             Afghanistan (NTM-A), Lieutenant General William Caldwell (U.S. Army),
    to resource the training                                 addressed the NATO Military Committee. Before November 2009, he noted,
    mission in Afghanistan,                                  ANSF development had focused on gathering as many recruits as possible but
         we will definitely                                  did not focus on the quality of those recruits. The result was a high attrition rate
        delay transition.”                                   and slow growth. Since November 2009, the focus has shifted to quality, and
                                                             growth has accelerated: this year, the ANSF exceeded its 2010 growth goals. Lt.
                   —LTG William Caldwell,                    General Caldwell stressed that the main challenge to building a self-sustaining
                      Commander, NTM-A                       ANSF is developing professionalism, leadership, and literacy—and reducing the
Source: NTM-A, “No Trainers, No Transition: Address to the   number of security forces lost through attrition. He estimated that in order to
NATO Military Committee,” 9/27/2010.
                                                             grow the ANSF by 50,000 personnel to meet the 2011 goal of 305,000, another
                                                             133,000 soldiers and police must be recruited, trained, and assigned.52
                                                                Lt. General Caldwell also pointed out that, since November 2009, NTM-A has
                                                             increasingly shifted its focus to building the quality of the ANSF, which is critical
                                                             to mission success. He gave examples of deficiencies he had seen in the train-
                                                             ing of the ANSF and the importance of skilled trainers in the ANSF’s effort to
                                                             become self-sufficient. He appealed to NATO to provide NTM-A with the skilled
                                                             trainers needed to prepare the ANSF for transition.53

                                                             SECURITY EVENTS
                                                             On August 1, 2010, General David Petraeus, commander of ISAF and U.S. Forces -
                                                             Afghanistan (USFOR-A), released new guidance for counter-insurgency opera-
                                                             tions, noting the need to avoid harm to civilians and damage to property. He
                                                             stressed the importance of working closely with the Afghan people, addressing
                                                             systemic corruption, building trust through frank and open lines of communica-
                                                             tion, and countering the propaganda campaign waged by insurgents.54
                                                                On August 17, 2010, President Karzai met with U.S. officials to emphasize
                                                             the need for a comprehensive review of the overall objectives and strategy in
                                                             Afghanistan.55 On October 4, 2010, he spoke with President Obama by video
                                                             conference to discuss the strategic vision of long-term relations between the
                                                             United States and Afghanistan. In that discussion, the presidents agreed that the
                                                             two countries should prepare a document by the end of the year that outlines




                                                                62                         SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




the strategic partnership for reaching the goal of transitioning to Afghan-led
security responsibilities by 2014.56
   This quarter, two NATO partners announced changes to their commitment
in Afghanistan. On August 1, 2010, the Netherlands ended its role as lead nation
for the provincial reconstruction team and security operations in Uruzgan. On
September 22, the German Minister of Defense announced the shifting of 90
positions to support the ANSF training and mentoring mission. These positions
are the result of a realignment of personnel following Germany’s planned with-
drawal of six reconnaissance aircraft in November.57

Regional Security Events
During this reporting period, Pakistan reopened the Torkham Gate, a major
supply route for U.S. and NATO operations on Pakistan’s northwest border with
Afghanistan. According to DoD, the gate was closed by the Pakistani military for
11 days following a September 30 incident in which U.S. helicopters unknow-
ingly killed several Pakistani border guards.58 The U.S. Ambassador apologized to
Pakistan for the incident, and the chairman of the Joint Chiefs of Staff expressed
his condolences to Pakistan’s Chief of Army Staff for the loss of life. Both U.S.
officials stated their commitments to work more closely with Pakistan to avoid a
repetition of the incident.59
   Earlier in September, President Karzai met with Pakistani President Asif Ali
Zardari to discuss their ongoing partnership and bilateral cooperation on security
issues. In a joint statement, the two leaders recognized the common challenge
posed by terrorism and extremism and agreed to strengthen the interaction
between their nations’ security and counter-terrorism institutions, to hold regular
dialogues, and to increase information and intelligence sharing. In addition,
they agreed to explore programs for capacity building and joint security train-
ing.60 During the same visit, President Karzai met with General Petraeus and
Pakistan’s Chief of Army Staff, General Ashfaq Parvez Kayani, to discuss security
in Afghanistan and Pakistan.61
   To strengthen regional efforts, the U.S. military has been providing relief to
flood victims in northwest Pakistan since August 5. The U.S. military has res-
cued more than 20,000 displaced Pakistanis and delivered more than 13.7 million
pounds of supplies as part of the relief effort, according to DoD.62

Election Security
The number of attacks during the September 18 parliamentary elections was
down one-third from the number reported during the 2009 presidential elections,
according to DoD. Less than 1% of polling centers reported significant violence.
Most attacks used small arms or rocket-propelled grenades; there were few IED
incidents and no suicide attacks. During the elections, the ANSF handled the
security at polling locations. ISAF was on standby to assist the ANSF but other-
wise was not actively involved.63 For more information on the elections, see the
“Governance” section of this report.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          63
SECURITY




   In his September report, the Secretary-General cited security concerns—
especially intimidation of candidates, particularly women—as a challenge to
the electoral process. Four candidates were killed, as were five staffers who
were campaigning for a female candidate. The Secretary-General noted that
Afghanistan’s Independent Electoral Commission (IEC) gave the ANSF a list
of polling centers to assess the security posture at each center. The ANSF deter-
mined that 5,897 (88%) of the 6,835 proposed polling centers could be opened
safely.64 According to the IEC, 5,510 polling centers were reported open during
the election, 387 fewer than the number determined to be safe by ANSF.65

Disbanding of Private Security Contractors
On August 17, 2010, President Karzai decreed that all national and international
private security contractors (PSCs) would be disbanded within four months.66
As this report went to press, it was not yet known which PSCs or which security-
related services would be most affected by the decree. U.S. Embassy Kabul
estimated that $2 billion in reconstruction programs rely on PSCs for security.
According to DoS, the decree could affect about 96 projects of the U.S. Agency
for International Development, the Bureau of International Narcotics and Law
Enforcement Affairs, and U.S. Embassy Kabul’s Regional Security Office.67 Nearly
18,000 PSC personnel perform work for DoD alone; 93% of them are Afghan
citizens, according to DoD.68 SIGAR has not yet seen a plan to replace the PSCs
with units from the ANSF before the decree’s December deadline. U.S. officials
are attempting to determine the likely effect of the decree and identify necessary
actions to minimize any adverse impact.
   SIGAR is conducting a contract audit to examine the work of the company
that provides security for U.S. Army Corp of Engineers personnel. In addition,
SIGAR is initiating three more audits related to this issue this year. For details
about these audits, see Section 2 of this report.

SECURITY INCIDENTS
In the first six months of 2010, civilian casualties increased 31% over the same
period in 2009 (to 1,271 deaths and 1,997 injuries), according to the United
Nations Assistance Mission in Afghanistan (UNAMA). More than three-quarters
of these casualties were linked to anti-government elements—a 53% increase
from 2009. Anti-government elements include those who identify themselves
as Taliban, as well as other individuals and groups involved in conflict with the
GIRoA and international military forces. Civilian casualties attributed to pro-
government forces decreased by 30% compared with the same period in 2009.
UNAMA attributed the overall increase in civilian casualties to a rise in assas-
sinations by anti-government elements and the increased use of larger and more
sophisticated IEDs by those elements.69
   This quarter, women and children made up a larger percentage of the overall
casualties. UNAMA noted a 6% increase in the number of female casualties and




  64               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                    SECURITY




an alarming 55% increase in the number of child casualties—most caused by
suicide attacks and IEDs.70

AFGHAN NATIONAL ARMY
As of September 22, the ANA’s assigned personnel strength was 138,164—an
increase of 8,279 since June 20, 2010—surpassing the ANA’s original goal to have                                                       Tashkil: lists of personnel and equip-
134,000 assigned personnel by October 2010, according to the Combined Security                                                         ment requirements used by the Ministry
Transition Command - Afghanistan (CSTC-A). The ANA’s current goal is to reach                                                          of Defense and the Ministry of Interior
171,600 by October 2011.71                                                                                                             that detail authorized staff positions and
   According to a CSTC-A assessment that focused specifically on force strength                                                        equipment items, in this case for the ANA
in the ANA’s six corps, the Special Operations Force division, and the Capital                                                         and the ANP. (The word means “organiza-
Division, a total of 85,359 personnel were assigned as of September 30. That                                                           tion” in Dari.)
figure is 388 more than the 84,971 authorized by the Ministry of Defense’s (MoD)
most recent tashkil. However, the number of assigned troops does not neces-
                                                                                                                                     Source: GAO, GAO-08-661, “Afghanistan Security,” 6/2008, p. 18.
sarily equal the number of troops present for duty, as shown in the example in
Figure 3.18. Troops who are absent without leave (AWOL) have a significant
impact on the percentage of troops available for duty, as shown in the example
in Figure 3.19.72


FIGURE 3.18                                                                                                                          FIGURE 3.19

                                                                                                                                     ANA PERSONNEL PRESENCE,
ANA PERSONNEL STRENGTH, SELECTED COMPONENTS,                                                                                         SELECTED COMPONENTS,
ON SEPTEMBER 30, 2010                                                                                                                ON SEPTEMBER 30, 2010 (PERCENT)


 205th Corps                                  12,227                                             5,566               17,793          205th Corps                  69                   20      11

 201st Corps                               10,904                                    4,041           14,945                          201st Corps                   73                    20       7

203rd Corps                             9,590                                    5,149              14,739                           203rd Corps                 65                 21        14

 215th Corps                       7,866                            4,218            12,084                                          215th Corps                 65                15        20

 209th Corps                 5,507                2,342        7,849                                                                 209th Corps                  70                    22        8

 207th Corps                 5,496               1,667 7,163                                                                         207th Corps                    77                   13 10

 SOF Division            4,323              2,572       6,895                                                                        SOF Division                63               12        25
 11th Capital                                                                                                                        11th Capital
     Division        2,845        *     3,891                                                                                            Division                  73                    20       7

                0                        5,000                      10,000                      15,000                      20,000                  0       20        40     60         80        100

                                            Present for Duty           Assigned but Not Present for Duty                                                  PDY              AWOL               Other

Note: Assigned but Not Present for Duty includes medical, training, or authorized leave, as well as AWOL (absent without leave).     Notes: Numbers affected by rounding. PDY = present for
* Number assigned but not present for duty = 1,046.                                                                                  duty; AWOL = absent without leave. Other = medical, training,
                                                                                                                                     or authorized leave.
Source: ISAF-IJC, ANA PERSTAT, 9/30/2010.
                                                                                                                                     Source: ISAF-IJC, ANA PERSTAT, 9/30/2010.




              REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2010                              65
                                                             SECURITY




                                                             ANA Training
                                                             During this quarter, 22,657 ANA personnel graduated from a wide range of train-
                                                             ing programs, according to NTM-A/CSTC-A. Of that number, 1,616 graduated
                                                             from non-commissioned officer (NCO) development courses and 1,422 gradu-
                                                             ated from courses designed to enhance the skills of ANA officers. The majority
                                                             of graduates, 15,384, graduated from basic warrior training courses, as shown
                                                             in Figure 3.20. As part of basic warrior training, soldiers receive instruction in
                                                             marksmanship as well as in urban military, checkpoint, counter-insurgency,
                                                             and counter-IED operations, in preparation for deployment as part of an infan-
                                                             try unit. Courses are conducted regionally and at the Kabul Military Training
                                                             Center. Notably, the Mujahedeen Integration Course, an eight-week course
                                                             designed to integrate former officers of the mujahedeen into the ANA, graduated
                                                             326 officers.73
                                                                This quarter, the Combined Air Power Transition Force Command was
                                                             renamed the NATO Air Training Command - Afghanistan (NATC-A), signaling a
                                                             change from a predominantly U.S.-led mission to a broader NATO effort to train
                                                             the 3,900-strong Afghan Air Force (AAF).74 On September 8, a team of 10 advi-
                                                             sors from the Croatian Air Force joined the NATC-A to mentor the AAF on the
                                                             operation and maintenance of the Mi-17 helicopter. The other NATC-A partners
                                                             are Canada, the Czech Republic, Hungary, the United Kingdom, and the United
                                                             States. In addition to the Mi-17, Afghan aircrews have been training with Czech,
                                                             Hungarian, and U.S. personnel on the AAF’s primary attack helicopter gunship,
On August 18, in their first operational                     the Mi-35.75
mission together, Afghan Mi-35 and U.S.
Army (3rd Combat Aviation Brigade) Apache
helicopter aircrews were diverted from a                     FIGURE 3.20
routine patrol to answer a distress call
from a convoy under attack by insurgents.                    ANA TRAINING GRADUATES BY PROGRAM
Although no ordnance was fired, NTM-A
reported that the combined show of air                             Total Graduates: 22,657                                                        Other Training Programs: 7,273
power caused the insurgents to break off
their attack and flee the area.
                                                                                                                          1-Uniform Course                                          1,695
Source: NTM-A, “Afghan Mi-25s Begin Operations with NATO,”
8/20/2010, accessed online 9/15/2010.                                                                                    NCO Development                                           1,616
                                                                   Basic             Other
                                                                   Warrior           Training                          Officer Development                                   1,422
                                                                   Training          Programs
                                                                   15,384            7,273                   Up-Armored HMMWV Training                                   1,135

                                                                                                                Advanced Combat Training                          880

                                                                                                                 Other Specialized Training                525

                                                                                                                                              0         500      1,000     1,500

                                                             Notes: Graduates as of 9/30/2010. HMMWV = high-mobility, multi-purpose wheeled vehicle.
                                                             Source: NTM-A/CSTC-A, response to SIGAR data call, 10/4/2010.




                                                                 66                       SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                      SECURITY




Women in the ANA
According to CSTC-A, 299 women are serving in the ANA (195 officers and 104
NCOs), as of September 30, 2010. The ANA’s stated policy is to recruit enough
female personnel to make up to 10% of its projected end strength. In addition, the
policy requires National Afghan Volunteer Centers to focus recruiting efforts on
the local female populace. The policy also requires the ANA to create advertising
and allocate funds to support recruitment of women throughout Afghanistan.76
   On September 23, 2010, in a ceremony at the Kabul Military Training Center,
29 female ANA officers graduated from Officer Candidate School. Although they
are not the ANA’s first female officers, they were the first to graduate from the
20-week course, in which U.S. and ANA officers mentor and train candidates on
basic military skills and leadership in preparation for placement as finance or
logistics officers.77

ANA Infrastructure
This quarter, 16 new ANA infrastructure projects were awarded (worth
$311.1 million), 46 were ongoing ($784.5 million), and 8 were completed
($105.9 million), according to CSTC-A. These projects include buildings (bar-
racks, headquarters, training buildings and ranges, administrative spaces,
warehouses and storage buildings, maintenance facilities, etc.) and permanent
equipment necessary for the support, redeployment, and operations of the
ANA.78 SIGAR is examining the ANA’s planning for infrastructure and facilities
as part of an ongoing audit.




Twenty-nine ANA 2nd lieutenants graduated from Officer Candidate School at the Kabul
Military Training Center on September 23. They are the first female graduates of the program.
(NTM-A photo, SSgt Rachel Martinez)




         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2010                67
                                                                 SECURITY




TABLE 3.2                                                        FIGURE 3.21


ANA RADIOS AND VEHICLES FIELDED                                  ANA WEAPONS FIELDED, JULY 31–SEPTEMBER 19, 2010
Vehicles
Light and medium tactical vehicles                    1,041             Weapons Fielded: 6,607                                                          Other Weapon Systems: 875
Up-armored HMMWVsa                                       154                                        M249
Radios                                                                                              Machine Gun
                                                                                                    888                     M203A2 Grenade                                             366
VHF radiosb                                           2,254                                                                       Launcher
HF radiosc                                               187                                                                              M240
                                                                                                        Other Weapon                                                       215
                                                                       M16A4 Rifle                                                  Machine Gun
a. Up-armored HMMWVs include M1151, M1152, and                                                          Systems
M1152 ambulance models.                                                4,844
b. Very High Frequency (VHF) radios include various configura-                                          875                      M24 Sniper Rifle                    178
tions of the PRC-1077 and HH7700 radio systems.
c. High Frequency (HF) radios include various configurations
of the RT-7000 and PRC-1099 radio systems.                                                                                   M2 Machine Gun                    116
Source: CSTC-A, response to SIGAR data call, 10/4/2010.

                                                                                                                                                    0       100      200         300   400


                                                                 Note: These weapons were transferred to ANA forces from 7/31/2010 through 9/19/2010.
                                                                 Source: NTM-A/CSTC-A, response to SIGAR data call, 10/4/2010.



                                                                 ANA Equipment
                                                                 From July 1 to September 19, 2010, the ANA fielded 6,607 weapons, according
                                                                 to CSTC-A.79 Figure 3.21 shows that most of the weapons fielded—4,884—were
                                                                 the U.S.-made M16A4 assault rifle. The ANA also fielded 1,195 vehicles and 2,441
                                                                 radios this quarter, as shown in Table 3.2.80 In addition, the AAF added two Mi-17
                                                                 transport helicopters and two C-17 transport aircraft to its inventory, bringing its
                                                                 fleet to the following numbers:81
Afghan Air Force Mi-35s launch from an                            • 27 Mi-17 and 9 Mi-35 helicopters
airport in Kabul; an Mi-17 transport lands                        • 1 An-26, 5 An-32, and 7 C-27 transports
in the background. (U.S. Air Force photo,
                                                                  • 3 L-39 jets
TSgt Parker Gyokeres)
                                                                 SIGAR is examing efforts to develop the ANA’s logistical capabilities as part of an
                                                                 ongoing audit.

                                                                 International Support for the Ministry of Defense
                                                                 According to DoD, ISAF continues to provide advisory support to the MoD to
                                                                 develop the systems and institutions required to build the ANA into a larger,
                                                                 more professional army. Approximately 272 military, civilian, and contractor per-
                                                                 sonnel from the United States and Canada are involved in building institutional
                                                                 capacity and supporting the development of the management and operational
                                                                 systems that enable the MoD to plan, program, manage, and sustain the ANA.
                                                                 DoD noted that this development is achieved by advising and engaging key
                                                                 leaders. In addition, advisors work with the MoD to develop inter-ministerial coor-
                                                                 dination, advisory councils, functional boards, and the Ministerial Development
                                                                 Board. These entities, in turn, develop capacity in four areas: horizontal integra-
                                                                 tion and strategy management, operational support, personnel management,
                                                                 and national logistics.82




                                                                     68                       SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                                        SECURITY




AFGHAN NATIONAL POLICE
The ANP—which includes the Afghan Uniform Police (AUP), the Afghan Border
Police (ABP), and the Afghan National Civil Order Police (ANCOP)—is expected
to reach its goal of 134,000 assigned personnel by October 2011, according to
CSTC-A.83 As of September 21, 2010, the ANP had an authorized strength of
122,000 personnel (including MoI headquarters staff); its total strength was
                                                                                                                                                  FIGURE 3.22
128,613. Table 3.3 shows that of the assigned personnel (including MoI headquar-
ters staff), 120,504 filled authorized or tashkil positions—an increase of 14,631                                                                 ANP STRENGTH: GAPS BETWEEN
since June 20, 2010—and 8,109 filled non-tashkil positions, including 829 person-                                                                 AUTHORIZED AND ASSIGNED LEVELS,
nel assigned to the Afghan Public Protection Force.84 In an October personnel                                                                     AS OF OCTOBER 5, 2010 (PERCENT)
report, the Ministry of Interior (MoI) listed 56 non-tashkil police units.85 As part
of an ongoing audit of the ANP’s personnel management processes and systems,                                                                       10           +7
SIGAR is working to identify these 56 non-tashkil units.
   Although the ANP’s total strength surpassed its authorized strength this                                                                         0
quarter, the assigned strengths of the ABP and the ANCOP were below their
authorized staffing levels. The ABP’s total strength was nearly 90% of its autho-                                                                 -10
                                                                                                                                                                                  -10
rized strength (18,529 assigned vs. 20,689 authorized). However, Figure 3.22
shows that the total strength of the ANCOP was 30% below its authorized                                                                           -20

strength (7,890 assigned, 11,276 authorized).86
                                                                                                                                                  -30
   Attrition and recruitment rates continue to affect progress toward ANP force                                                                                                                       -30
strength, according to ISAF. From September 2009 through August 2010, the                                                                                      AUP                ABP              ANCOP
ANP had an average force strength of 102,580. During this period, the ANP’s
loss report show a total shortfall of 16,621 personnel—an attrition rate of 16.2%                                                                 Notes: Percentages affected by rounding. AUP = Afghan
                                                                                                                                                  Uniform Police. ABP = Afghan Border Police. ANCOP = Afghan
(12.3% for the AUP, 27.4% for the ABP, and 59.9% for the ANCOP). Attrition                                                                        National Civil Order Police.
numbers include personnel who had been killed in action or injured, were absent                                                                   Source: ISAF, PERSTAT, 10/4/2010.

or AWOL, had disappeared, or had been separated from service, retired, or
captured.87 Unlike the U.S. military, the ANP considers personnel to be “absent
without leave” after 21 continuous days of failing to report for duty; those who
fail to report for shorter periods are considered merely “absent.” From October
2009 through August 2010, the ANP recruited 34,600 personnel, surpassing its


TABLE 3.3


ANP FORCE STRENGTH, AS OF SEPTEMBER 21, 2010
                                                             Authorized                    Assigned to                        Change Since                    Assigned to                                Total
                                                               (Tashkil)               Tashkil Positions                       Last Quarter           Non-Tashkil Positions                 Assigned Strength
ANP Total                                                       122,000                          120,504                            +14,631                             8,109                           128,613
Breakdown By ANP Components
AUP                                                              70,503                           75,608                                    —                                 0                                 —
ABP                                                              20,689                           18,529                                    —                                 0                                 —
ANCOP                                                            11,276                             7,890a                                  —                                 0                                 —
Other Units                                                      19,532                           18,477b                                   —                           8,109c                                  —
Note: — = not available. a. Includes 1,597 in training. b. Includes personnel assigned to MoI headquarters, anti-crime, training, counter-narcotics, logistics, medical, fire, and customs units. c. Includes 829
in the Afghan Public Protection Force and 7,280 assigned to unspecified units.
Sources: ISAF, PERSTAT, 10/4/2010; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.




              REPORT TO THE UNITED STATES CONGRESS                           I   OCTOBER 30, 2010                                69
                                                             SECURITY




                                                             stated cumulative goal of 24,466 for that period. Figure 3.23 shows that the
                                                             ANCOP was the only component to fall short of its recruitment goal.88
                                                                On September 26, NTM-A’s Commanding General for Police stated that the
                                                             operations of ANP’s counter-narcotics and counter-terrorism units now meet
                                                             international standards. During the six months preceding the Commanding
                                                             General’s assessment, the units arrested 2,800 individuals for terrorist activities,
                                                             seized 2,350 weapons, and neutralized 3,300 IEDs and bombs.89

FIGURE 3.23
                                                             ANP Local Initiatives
ANP RECRUITMENT: CUMULATIVE,                                    This quarter, President Karzai established the Afghan Local Police (ALP) pro-
OCTOBER 2009–AUGUST 2010 (THOUSANDS)                         gram to provide security, enable development, and foster governance in villages
                                                             throughout Afghanistan. As of September 30, the GIRoA and ISAF had estab-
25                                                           lished 8 ALP sites—located to ensure balanced ethnic, tribal, and geographic
              22.1
                                                             representation—and are planning at least another 60 sites.90
20                                                              The ALP program focuses on communities that have resisted insurgent
       13.8
                                                             groups, especially in areas with only a limited ANSF and ISAF presence.
15
                                                             Different from militias, ALP units are small, defensive police forces supervised
10                                                           by local shuras. They are based on a traditional Afghan approach to village
                                         7.4
                        6.1 6.4                 6.1          self-defense and security. According to DoD, the ALP program differs from its
 5                                                           predecessors, including the Community Defense Initiative and the Local Defense
 0
                                                             Initiative, in that it falls under the command and control of the MoI. In addi-
          AUP               ABP             ANCOP            tion, the GIRoA has established senior-level committees of officials from the
                                                             MoD, MoI, and other ministries to oversee the ALP program, ensure its imple-
                     Goal          Actual                    mentation, and identify ALP sites. ANA Special Forces, with ANP support, have
Notes: Numbers as reported in an ANP roll-up. AUP = Afghan   deployed to a growing number of ALP sites where embedded Afghan and U.S.
Uniform Police; ABP = Afghan Border Police; ANCOP =
Afghan National Civil Order Police.                          personnel help villagers with security, development, and governance, according
Source: ISAF, ANP Recruitment 1389, 8/2010.                  to DoD.91
                                                                DoD noted that the ALP program is producing positive results. For example,
                                                             in such areas as Arghandab district in Kandahar, school openings and improved
                                                             economic conditions suggest that security has improved for villagers at ALP
                                                             sites. In addition, villagers have reported insurgent movements and the locations
                                                             of IEDs and weapons caches to local forces. DoD noted that with GIRoA and
                                                             ISAF support, villagers in Gizab district in Daykundi revolted against the Taliban
                                                             last April. By September, resistance had spread to other villages in Uruzgan and
                                                             Daykundi. DoD identified a number of remaining challenges, including Taliban
                                                             intimidation of ALP members, targeted assassinations, and the use of IEDs.
                                                             These challenges require the ANSF and ISAF to continue their efforts to help the
                                                             ALP defend their communities.92

                                                             ANP Training
                                                             This quarter, NTM-A/CSTC-A reported that 7,476 ANP personnel graduated from
                                                             training courses: 4,589 in the Afghan Uniform Police (AUP), 1,431 in the ABP, and
                                                             1,456 in the ANCOP. NTM-A/CSTC-A noted that ANCOP graduates were assigned
                                                             to brigades or ANCOP headquarters; however, 209 were reported AWOL.93




                                                               70                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          SECURITY




An ANP student studies logistics at the Ministry of Interior in August. The Ministry is
providing the first-ever computer-based logistics training for ANP personnel. (U.S. Air Force
photo, SSgt Matt Davis)




ANP Literacy
The overall literacy rate among ANP personnel stands at 4.5%, according to
NTM-A/CSTC-A. Current goals for achieving literacy in the force include increas-
ing the number of personnel in literacy training to 20,000 by December 2010 and
to 40,000 by July 2011. The overall goal is to have all ANP personnel able to read
at a third-grade level, according to NTM-A/CSTC-A.94 At the time this report was
published, SIGAR was in the process of determining what standard was used to
define “third-grade level” and what metrics would be used to gauge success.
   Last quarter, NTM-A/CSTC-A fielded literacy program instructors to ANCOP
Battalion and Brigade Headquarters after random tests found that only about 6%
of ANCOP personnel were literate. In July 2010, placement tests administered to
242 ANCOP personnel resulted in 12 passing grades, putting the literacy rate for
the ANCOP at about 5%.95
   The ANCOP is the ANP’s elite police unit; its personnel are expected to be well-
trained, able to operate independently, and literate. This unit has been essential to
the operation of the MoI’s Focused District Development program, which uses the
ANCOP to hold police districts temporarily while the districts’ AUP units are sent
elsewhere for training and equipping. ANCOP forces have also played key roles in
ISAF operations in the southern regions of the country.96
   This quarter, NTM-A/CSTC-A applied pressure on the ANCOP command to
provide literacy testing and training at more locations where ANCOP personnel




          REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2010                 71
                                                              SECURITY




                                                              are serving. Although literacy instructors were fielded, progress has been slow,
                                                              according to NTM-A/CSTC-A. In August, 592 ANCOP personnel were enrolled in
                                                              literacy training at 10 locations; as of early October, 39 had completed the train-
                                                              ing, attaining a reported third-grade reading level. Starting in November, ANCOP
                                                              NCO recruits are to receive intensive literacy instruction, which is expected to
                                                              result in 150 literate personnel per 6-week cycle.97

                                                              Women in the ANP
                                                              As of October 4, 2010, according to CSTC-A, 1,191 women served in the ANP:98
                                                               • 176 officers (including 3 general officers)
                                                               • 417 NCOs
                                                               • 336 patrolwomen
                                                               • 262 civilians
  Pseudo-Foreign Military Sales: an                           A new policy for recruiting women into the ANP awaits review by an MoI work-
  adaptation of the Foreign Military Sales                    ing group. If approved, the policy would protect women from discrimination and
  Program, DoD’s government-to-government                     afford them an equal opportunity to serve in all ranks and branches of the ANP.
  method for selling U.S. defense equipment,                  The MoI’s goal is to have 5,000 women in the ANP by 2014.99
  services, and training. As in the traditional
  FMS, pseudo-FMS procurements are                            ANP Infrastructure
  overseen by the Defense Security
                                                              This quarter, 21 new infrastructure projects were awarded (valued at $82.2 mil-
  Cooperation Agency (DSCA). In contrast
                                                              lion), 227 were ongoing ($718.7 million), and 27 were completed ($68.5 million),
  to traditional FMS procurements, DoD
  purchases weapons to train and equip the                    according to NTM-A/CSTC-A.100 SIGAR is examining the ANP’s planning for infra-
  ANSF primarily using funds appropriated                     structure and facilities as part of an ongoing audit.
  by the Congress for the Afghanistan
  Security Forces Fund.                                       ANP Equipment
                                                              From July 1 to September 19, 2010, the ANP fielded 6,419 weapons, most of
  Cross-leveling: at the strategic and                        which were AK-47 assault rifles, as shown in Figure 3.24.101 According to CSTC-A,
  operational levels in a theater, the process                the ANP also fielded 1,180 vehicles and 1,181 radios, as shown in Table 3.4. These
  of diverting materiel from one military                     numbers are down from the 1,806 vehicles and 1,650 radios fielded last quar-
  element to meet the higher priority of
                                                              ter.102 All equipment fielded by the ANP this quarter came from the United States
  another, within a commander’s logistical
                                                              through the pseudo-Foreign Military Sales (FMS) program or from cross-leveling
  authority. Cross-leveling plans must include
  specific reimbursement procedures.
                                                              between the ANA, ANP, and the ministries.103

                                                              International Support for the Ministry of Interior
Sources: GAO-09-267, “Afghanistan Weapons Accountability,”
accessed online 10/14/2010; DSCA, “Foreign Military Sales,”
                                                              More than 200 advisors from the United States and the international community
accessed online 10/16/2010. DoD, “Dictionary of Military      are helping the MoI build its organizational capacity and develop quality leaders,
Terms,” accessed online 7/12/2010.
                                                              according to DoD. These advisors help the MoI develop national government
                                                              coordination abilities by developing relationships and processes to deal with
                                                              the other ministries, the Office of the National Security Council, the National
                                                              Assembly, and the president. DoD noted that the recently appointed Minister of
                                                              Interior has developed six priorities:104




                                                                72                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                          SECURITY




FIGURE 3.24                                                                                                                TABLE 3.4

ANP WEAPONS FIELDED, JULY 31–SEPTEMBER 19, 2010                                                                            ANP RADIOS AND VEHICLES FIELDED
                                                                                                                           Vehicles
        Total Weapons: 6,419                                                        Other Weapon Systems: 800              Light and medium tactical vehicles                        988
                                                                                                                           Up-armored HMMWVa                                         192
                                                                                                                           Radios
                    9MM                                         RPG-7 Grenade                                        312   VHF radiosb                                            1,128
                    Handgun                                          Launcher
                    1,274                                                                                                  HF radiosc                                                 53
                                       Other Weapon         PKM Machine Gun                              207
                                       Systems                                                                             a. Up-armored HMMWVs include M1151, M1152, and M1152
        AK-47                                                                                                              ambulance models.
                                       800                 GP-25/30 Grenade                     144
        Assault Rifle                                              Launcher
                                                                                                                           b. Very High Frequency (VHF) radios include various configura-
                                                                                                                           tions of Motorola or ICOM radio systems.
        4,345                                                                                                              c. High Frequency (HF) radios include various configurations of
                                                            RPK Machine Gun                    137                         CODAN radio systems.

                                                                                                                           Source: CSTC-A, response to SIGAR data call, 10/4/2010.
                                                                                0        100       200         300


Note: These weapons were transferred to ANP forces from 7/31/2010 through 9/19/2010.
Source: NTM-A/CSTC-A, response to SIGAR data call, 10/4/2010.




•   training and education
•   developing leadership
•   fighting corruption
•   promoting quality living and working conditions
•   reviewing and reforming the tashkil
•   developing a recognition and discipline system
   As part of an effort to increase accountability within the MoI, the Minister
recently re-assigned 19 key ministerial appointees, according to DoD. The
Minister stated that he intends to take similar action at the regional, provincial,
and district levels.105

U.S. FORCES
As of September 30, 2010, according to CENTCOM, 103,727 U.S. forces were
serving in Afghanistan. These forces were assigned as follows:106
• 79,985 assigned to ISAF
• 2,756 assigned to NTM-A/CSTC-A
• 9,135 assigned to USFOR-A
• 11,851 other (unspecified)
   As of October 18, 2010, DoD reported 1,237 U.S. military fatalities in
Afghanistan since the beginning of Operation Enduring Freedom.107 Of that
number, 1,010 were killed in action and 227 died as a result of non-hostile
incidents. In addition, 4,529 were wounded in action; an additional 4,176
were wounded but able to return to duty within 72 hours.108




            REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2010                        73
                                                 QUARTERLY HIGHLIGHT




COMMANDER’S UNIT
ASSESSMENT TOOL
Over the past year, the ISAF Joint Command (IJC) has
changed the system it had been using to gauge the
readiness of the ANSF, as noted in SIGAR’s July 2010
quarterly report. In late April 2010, IJC put in place a
unit-level assessment system called the Commander’s
Unit Assessment Tool (CUAT). It replaces the Capability
Milestone (CM) rating system, which had been used
since 2005 to measure the development of ANSF
capabilities against end-state goals.
   From October 2009 to May 2010, SIGAR reviewed
the CM rating system and found that it had not
provided reliable or consistent assessments of ANSF
capabilities. SIGAR made 10 recommendations to IJC
to achieve the following:109
•  improve the measurement, validation, and report-
   ing of assessment results
•  increase visibility into ANP capabilities
•  counteract disincentives to ANSF success that
   were found in the CM rating system

   The CUAT is used to assess fielded forces, including
ANA units from the command to the kandak (battalion)                                     personnel, maintenance, communications, and training
level, and ANP units down to the district and precinct                                   and education.111 The CUAT system uses a six-week
level.110 According to ISAF, it includes ratings on leader-                              assessment cycle to evaluate the various components
ship, operations, intelligence, logistics, equipment,                                    of the ANSF. In October, IJC reported to SIGAR that
                                                                                         implementation of the CUAT has improved the ANSF
                                                                                         assessment process in several ways, including more
                                                                                         numerous and higher-quality reports on the operational
        “You have to be very careful...                                                  effectiveness of the ANSF.112
       to accelerate the development...                                                      The CUAT’s improvements over the CM rating system
    of host-nation forces without rushing                                                demonstrate the significant impact of SIGAR’s recom-
    to failure because you go so fast that                                               mendations on this key metric for assessing progress
                                                                                         in military assistance efforts. For example, SIGAR found
     you jettison quality along the way.                                                 that CM assessments depended too heavily on quan-
            You’re trying to achieve                                                     titative inputs that sometimes prevented an accurate
             quantity and quality.”                                                      portrayal of the ANSF’s operational capability.113 Like
                                   —General David Petraeus,                              the CM rating system, the CUAT assesses quantita-
                                                                                         tive readiness to ensure that the ANSF is properly
                               Commander, ISAF and USFOR-A
                                                                                         staffed, equipped, and trained; however, the new
Source: NTM-A/CSTC-A, “ANSF: Focusing on Quantity and Quality,” 9/17/2010, accessed      system enables commanders to provide a more robust
online 10/21/2010.
                                                                                         assessment of qualitative criteria, such as leadership,



                                                        74                        SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                    QUARTERLY HIGHLIGHT




ANA soldiers stand in formation during a graduation ceremony at the Ghazi Military Training Center in Kabul on September 6, 2010.
This quarter, the ISAF Joint Command continued to improve the way it assesses the capacity and readiness of ANSF forces.
(ISAF photo, SSgt Joseph Swafford)


operational performance, and intelligence. One of the                   During its audit of the CM rating system, SIGAR
hallmarks of the CUAT is the commander’s overall                     found that ANSF units that achieved a top rating
assessment, which requires evaluators to provide sub-                (CM1) were unable to sustain their gains. These units
jective assessments in a narrative format.114                        often regressed significantly during the months fol-
    The CUAT also improves on the measurement                        lowing their CM1 rating. SIGAR found several factors
of operational capabilities in terms of personnel                    at work, including attrition, reassignments, and lack
strength. In its evaluation of the CM rating system,                 of sustained mentoring. Moreover, SIGAR found that
SIGAR found that the methods used to assess ANSF                     the CM system created disincentives for ANSF units
personnel levels resulted in overstatements of unit                  to progress toward a CM1 rating because the result
capabilities. Personnel figures used in the CM rating                was either a reduction of ISAF mentor support for ANA
system were based on measurements of the number                      units or a complete withdrawal of support for ANP
of personnel assigned to each unit. SIGAR found                      units.117 In September, IJC reported that it is coor-
that those numbers did not account for substantial                   dinating with the GIRoA to explore the feasibility of
personnel absences and did not reflect the number of                 implementing a positive incentive program to reward
personnel present for duty (PDY).115 According to the                ANSF components that achieve top-level operational
IJC, the CUAT collects PDY information for ANA units                 effectiveness and become capable of operating inde-
partnered with ISAF teams. For unpartnered units, it                 pendently without ISAF support.118
reports an average PDY percentage.116



         REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2010               75
TITLE OF THE SECTION




 76    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




GOVERNANCE
As of September 30, 2010, the United States has provided more than $16.15
billion to support governance and development in Afghanistan.119 This quarter,
the Government of the Islamic Republic of Afghanistan (GIRoA) and its inter-
national partners began to work toward the goals outlined in the Prioritization
and Implementation Plan that the GIRoA presented and endorsed at the Kabul
Conference in July 2010. The plan reiterated the GIRoA’s commitments to good
governance set forth in the 2008 Afghanistan National Development Strategy
(ANDS): to “strengthen democratic processes and institutions, human rights, the
rule of law, delivery of public services, and government accountability.”120
   This section focuses on U.S., international, and GIRoA efforts that improve
the practices of good governance and rule of law, including elections and elec-
tion reform, local governance, public administration, justice systems, and human
rights. This section also contains a quarterly highlight on reintegration.

SEPTEMBER 2010 ELECTIONS
On September 18, 2010, the GIRoA held elections for the 249 seats in the Wolesi       To prevent voters from casting more
Jirga, the lower house of the National Assembly.121 As this report went to press in   than one vote, the Independent Election
late October, the Independent Election Commission (IEC) had not released the          Commission (IEC) provided each polling
final election results.122 The results are supposed to be announced on October 30,    center with two bottles of indelible ink.
2010, according to the IEC elections calendar.123                                     Each voter dipped one finger in the ink to
                                                                                      indicate that he or she had voted. According
   These elections were particularly significant, according to the U.S.
                                                                                      to the IEC, the ink stains the voter’s finger
Department of State (DoS), given that the Wolesi Jirga has increasingly been
                                                                                      for 72–96 hours but remains visible on the
exercising its power over the Afghan Office of the President. One example of          fingernail and cuticle for 2–4 weeks. Each
this increased power lies in the Wolesi Jirga’s continuing rejections of President    polling center was asked to test the ink on
Karzai’s cabinet nominees. Since January 2010, President Karzai has submitted         a foreign national, so as not to disenfran-
several lists of nominees to the lower house for approval. As of September 30,        chise a potential voter.
2010, the President had not received approval for 7 of the 25 ministers in his
                                                                                      Source: IEC, “The IEC Press Release with Respect to Display
cabinet.124                                                                           of Indelible Ink,” 9/14/2010.
   Security and weak government institutions are still obstacles to orderly
elections, according to DoS.125 On October 21, 2010, the head of the IEC
stressed that some winners might not be permitted to enter the National
Assembly due to their suspected participation in election fraud.126 The IEC
reported 224 candidates to the Electoral Complaints Commission (ECC) under
suspicion of electoral fraud. Although initial voter turnout was estimated at
5 million, the IEC discarded approximately 1.3 million votes due to fraud, as



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          77
GOVERNANCE




FIGURE 3.25

VOTES CAST AND VOTES DISCARDED (MILLIONS)

                                              Votes Cast: 5.0




                                                                               Votes Discarded: 1.3

Note: Numbers affected by rounding.
Source: UNAMA, “Featured News,” 10/21/2010.




shown in Figure 3.25. The IEC opened 5,510 polling centers for Election Day,
but discarded the votes of 2,543 polling centers under suspicions of fraud.127
Violence also marred the buildup to and conduct of the elections. For exam-
ple, four male candidates and five men who were campaigning for a female
candidate had been killed as of August 31, 2010.128

Election Funding
The operating budget for the elections was $149.6 million; however, the total cost
of the elections cannot be assessed until the results are final, according to DoS.
Funding for the operating budget was provided by the United States and interna-
tional donors through the United Nations Development Programme (UNDP).129
   As of September 30, 2010, the United States had provided approximately
$180.9 million for elections in Afghanistan from 2008 to 2010. This funding was
distributed to three programs:130
• the UNDP Enhancing Legal and Electoral Capacity for Tomorrow (ELECT)
    program to support election operations (estimated budget: $55 million in
    direct funding to cover the 2009 and 2010 elections)
• the Support for Increased Electoral Participation in Afghanistan through the
    Consortium for Electoral and Political Processes Support mechanism (esti-
    mated budget: $58.5 million from September 2008 to June 2011)
• the Support to the Elections Process program, which provides additional
    capacity-building and expert advice to Afghan electoral institutions through
    the International Foundation for Elections Systems (estimated budget:
    $67.4 million from June 2008 to June 2011)

Election Reform
SIGAR has issued two reports on elections—one in July 2009 and one this
quarter on September 9, 2010.131 In the recent report, SIGAR reviewed Afghan
elections processes in 2004, 2005, and 2009 and identified 16 significant issues
that hinder successful elections. The issues fall in two categories, as shown in
Table 3.5: operational issues that make electoral processes vulnerable to fraud



    78                        SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                                                  GOVERNANCE




TABLE 3.5

ELECTORAL ISSUES IDENTIFIED IN SIGAR REPORT ON LESSONS LEARNED
Operational Issue                                                      Long-Term Issue
Identifying polling stations                                           Improving voter registration
Controlling printed ballots                                            Vetting candidates
Enabling candidate agents and election observers                       Creating independent electoral organizations
Protecting ballot chain of custody                                     Changing the single non-transferable vote
Voting more quickly                                                    Reducing the number of elections
Tallying votes more quickly and transparently                          Preparing for district and municipal elections
Making results forms tamper-resistant
Tabulating votes
Lodging complaints
Improving coordination among parties
Source: SIGAR, Audit 10-16, “Lessons Learned in Preparing and Conducting Elections in Afghanistan,” 9/9/2010, p. i.



and other problems, and long-term issues that will require electoral reforms and
political will by the GIRoA.132
   According to DoS, the new IEC leadership has implemented elections reforms
that are expected to strengthen transparency, improve the electoral process, and
lessen the potential for fraud.133 DoS noted that the IEC took full responsibility
for elections preparation and carried out the following activities:134
 • coordinated with the Afghan National Security Forces to determine which
   polling centers needed to be closed for security reasons
 • publicized the list of open polling centers a month before the elections
 • conducted a public awareness campaign
 • devised and implemented the plan by which elections materials would be
   transported to and from polling centers




Poll workers in Herat prepare to count votes on Election Day. The Independent Election
Commission took full responsibility for the preparation and conduct of the elections.
(UNAMA photo)




              REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2010                          79
                                                                GOVERNANCE




                                                                    The ECC has also participated in elections reform initiatives. According to
                                                                the UN Secretary-General, the ECC has increasingly decentralized its responsi-
                                                                bilities by establishing provincial offices. The UN reported that provincial ECC
                                                                offices adjudicated all 2010 election complaints; the central ECC office focused
                                                                its efforts on appeals. The UNDP and the International Foundation for Electoral
                                                                Systems are supporting the ECC’s decentralization efforts.135

                                                                PUBLIC ADMINISTRATION DEVELOPMENTS
                                                                In January 2010, the United States and the international community agreed to
                                                                progressively increase the share of reconstruction dollars provided directly to
                                                                GIRoA ministries. Many U.S. projects have been conducted without the involve-
The concept of checks and balances in
                                                                ment of the GIRoA, effectively bypassing Afghanistan’s public administration.
government is relatively new in Afghanistan,
according to DoS. Although the National                         Going forward, the United States intends to provide up to 50% of U.S. recon-
Assembly has begun to assert authority more                     struction funding directly. The increase will take place over two years and is
aggressively, the Office of the President                       contingent on the GIRoA’s ability to reduce corruption and improve govern-
of Afghanistan remains the most powerful                        ment capacity.136 For more information about the assessment process, see the
branch of the GIRoA. The office includes the                    “Economic and Social Development” section of this report.
president and four departments:                                     This quarter, there were several developments in the executive and legislative
• Chief of Staff                                                branches of the GIRoA. According to DoS, the growing strength of the National
• National Security Council                                     Assembly is demonstrated by the Wolesi Jirga’s repeated rejections of proposed mem-
• Office of Adminstrative Affairs                               bers of President Karzai’s cabinet. President Karzai submitted his first round of cabinet
• Office of the Spokesperson for the
                                                                nominees on December 19, 2009.137 As of September 30, 2010, however, the cabinet
  President
                                                                still had temporary members for seven ministries: Transportation, Higher Education,
The head of each department is appointed
                                                                Telecommunications, Women’s Affairs, Energy and Water, Urban Development, and
by the president and must be approved by
the National Assembly. According to the                         Public Health. DoS also noted that no new legislation has passed since July 2010
Office of the President, each department                        because the National Assembly has not been in session since that time.138
has the authority to propose acts and regu-                         Following the arrest of a member of the Karzai administration on corruption
lations to improve how its office functions.                    charges in August 2010, President Karzai ordered an investigation of the two
                                                                anti-corruption bodies responsible for the arrest—the Major Crimes Task Force
Sources: DoS, response to SIGAR data call, 10/8/2010;
GIRoA Office of the President, “Departments,” accessed online   and the Sensitive Investigative Unit. After meeting with Senator John Kerry, the
9/16/2010.
                                                                president agreed that the two bodies should remain independent and free to
                                                                pursue anti-corruption issues without fear of chastisement.139
                                                                    In a joint statement issued with the President of Pakistan in September,
                                                                President Karzai reiterated his dedication to promoting peace, security, and
                                                                development in the region.140 In that spirit, President Karzai participated in
                                                                several meetings on regional cooperation this quarter. For instance, on August 5,
                                                                2010, President Karzai took part in a trilateral summit meeting with the presi-
                                                                dents of Iran and Tajikistan. According to the UN Secretary-General, the leaders
                                                                discussed improvements to joint strategic projects, including the construction
                                                                of railways, roads, power stations, and transmission lines. They also established
                                                                joint committees to create short-, medium-, and long-term strategies for coopera-
                                                                tion between the three nations.141




                                                                  80                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




  On August 18, 2010, President Karzai met with the president of the Russian
Federation at a joint summit with the presidents of Tajikistan and Pakistan. That
meeting focused on advancing regional economic development and stability.142

U.S. Support for Capacity Development
To help the GIRoA develop its capacity, U.S. civilian support in Afghanistan has
grown substantially this year. For example, according to a SIGAR audit released
this quarter, there were 418 U.S. civilians serving as part of the U.S. Mission as of
September 9, 2010. The United States plans to increase that number to approxi-
mately 1,500 by January 2012.143 For details on the audit, see Section 2 of this
report.
   The United States assists the GIRoA in developing its capacity through programs
like the Performance-Based Governor’s Fund and Municipal Governance Program.
Both of these programs provide finances to enhance local government services.144

Performance-Based Governor’s Fund
The Performance-Based Governor’s Fund provides provincial governors with
money needed to carry out local government services, according to the U.S.
Agency for International Development (USAID).145 Governors may spend these
funds only on six categories of services:146
 • vehicles and equipment
 • travel and transportation
 • community outreach
 • information technology and communications
 • capacity building
 • repair and maintenance of public facilities
The governors’ successful use of funding is expected to enable them to commu-
nicate more effectively and regularly with their constituents.147
   As of August 20, 2010, USAID noted that provincial governors had received
(and spent) more than $3.6 million through the Performance-Based Governor’s
Fund. Nearly $1.9 million of that was spent from June 21 to August 20, 2010.148
   Provincial governors do not receive funding directly; instead, USAID’s con-
tracting partner for this project receives and spends the funds as budgeted and
directed by the governors. As of October 4, 2010, all 34 governors were tak-
ing part in this program. The continued availability of funds to each governor
depends on the progress he or she makes. According to USAID, governors are
evaluated on their uses of funds using five measures:149
 • quality of programming
 • equity of benefit sharing
 • consultation
 • accountability and transparency
 • improved budget practices




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            81
GOVERNANCE




Afghanistan Municipal Governance Program
According to USAID, municipalities in every province need better municipal
services, particularly the capitals of the smaller and less populated provinces.150
The Afghanistan Municipal Governance Program, managed by USAID, assists
the GIRoA in building capacity and resources at the municipal level in every
province. The program’s goal is to improve the municipal government’s ability to
provide these essential public services:151
• water and power management
• sanitation
• safe roads
• parks
• solid waste management
• ditch cleaning
• youth activities
• parks and urban greenery
    As noted in SIGAR’s July 2010 quarterly report, the original municipal gover-
nance program has expired; new contracts for updated programming were signed
in June 2010.152 (Since then, 13 of the 14 municipalities in Regional Command
(RC) East and 1 municipality in RC-South have begun receiving services, as
shown in Figure 3.26). One additional municipality, Lashkar Gah, is receiving
operational support as the program prepares to launch there. USAID estimated
that the program will cost $252.7 million. As of October 21, 2010, USAID had com-
mitted $12 million for the project and obligated nearly $24.4 million.153
    According to USAID, functional audits are being conducted in each municipal-
ity to assess capabilities and system structures. In addition, public opinion surveys
have been conducted in RC-East to identify priority services. As a result of these
surveys, a number of projects have been initiated, including the following:154
 • construction of drainage ditches in Asadabad
 • repairs to walkways in a highly trafficked area near Nangarhar High School
    in Jalalabad
 • construction of a median along the Ada Kandahar Road in Ghazni
 • construction of culverts along the main road in the city center in Sharana
   Security poses the largest challenge to the success of the municipal gover-
nance program, according to USAID. In Parun, the only major municipality in
RC-East that does not receive program services, security threats have delayed
the collection of data for assessing the municipality’s needs. USAID noted that
because Parun cannot be reached by roadway, workers must rely in part on mili-
tary air support to get to the city.155
   An additional challenge may arise if the President does not approve the new
staffing structure for the new municipal civil service. According to USAID, if this
structure is not approved in a timely fashion, the program as a whole may suffer
delays. Any delay in approving the staffing structure delays the placement of
permanent staff.156




  82                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                 GOVERNANCE




FIGURE 3.26

MUNICIPAL GOVERNANCE PROGRAM: SUPPORT RECIPIENTS




                                                                           Bazarak
                                                                           PANJSHIR
                                                                   Charikar
                                                                   PARWAN              Mahmudi Raqi
                                                          Bamyan                       KAPISA
                                                          BAMYAN                                    Asadabad
                                                                            Mehterlam               KUNAR
                                                            Maydan Shahr    LAGHMAN
                                                                                              Jalalabad
                                                                WARDAK                        NANGARHAR
                                                                                   Puli Alam
                                                                                   LOGAR
                                                                Ghazni                              Gardez
                                                               GHAZNI                    Khowst     PAKTIYA
                                                                             Sharana KHOWST
                                                                             PAKTIKA




                     Lashkar Gah                  Kandahar City
                       HELMAND                    KANDAHAR
                                                                                          Municipalities Receiving Municipal
                                                                                          Governance Program support




Note: Lashkar Gah in Helmand is receiving operational support in preparation to launch the program.
Source: USAID, response to SIGAR data call, 10/4/2010.




ENHANCING LOCAL GOVERNANCE
The United States supports local governance through local reconstruction teams                                                 The IDLG was formed in 2007 to monitor the
called Provincial Reconstruction Teams (PRTs) and District Support Teams                                                       selection and performance of provincial and
(DSTs). As noted in SIGAR’s July 2010 quarterly report, 27 PRTs operate in                                                     district governors—a responsibility previ-
Afghanistan. The United States is the lead nation for 13 of them; the rest are led                                             ously held by the Ministry of Interior.
by coalition partners.157 U.S. civilians on these teams work with the Independent                                              Source: CRS, “Afghanistan: Post-Taliban Governance, Security,
                                                                                                                               and U.S. Policy,” 7/21/2010, pp. 19–20.
Directorate of Local Governance (IDLG) to implement district development
initiatives. Many of these initiatives focus on providing government services in
districts in the south, where counter-insurgency operations continue.158
   As part of the Prioritization and Implementation Plan of 2010, the GIRoA
stated its intention to transition PRTs and DSTs into Provincial Support Teams
(PSTs) starting in July 2011.159 According to DoS, however, the United States is
focused only on transferring PRTs from military leadership to civilian leader-
ship.160 DoS emphasized that the current PRT structure is expected to become
obsolete as the Afghan National Security Forces take more responsibility for



             REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2010                             83
                                                             GOVERNANCE




                                                             FIGURE 3.27

                                                             PRT, DST, AND SUPPORT PERSONNEL BY REGIONAL COMMAND




                                                                                                                           RC-NORTH
                                                                                                                           TOTAL PERSONNEL:

                                                                                                                               22

                                                                               RC-WEST
                                                                             TOTAL PERSONNEL:                                     RC-EAST
                                                                                  21                                           TOTAL PERSONNEL:

                                                                                                                                   154

                                                                                                         RC-SOUTH
                                                                                                        TOTAL PERSONNEL:

                                                                                                            79
                                                                           RC-SOUTHWEST
                                                                             TOTAL PERSONNEL:

                                                                                 37


                                                             Note: RC = Regional Command.
                                                             Source: DoS, response to SIGAR data call, 10/4/2010.



                                                             security and as GIRoA institutions, non-governmental organizations, and private-
                                                             sector companies play greater roles in economic development.161
                                                                As of September 2010, a total of 316 U.S. civilians were working in PRTs,
                                                             DSTs, and provincial task forces. That number is expected to continue to rise
                                                             through FY 2011, according to DoS.162 Figure 3.27 shows the distribution of these
                                                             U.S. civilian personnel by Regional Command.
  Shuras and jirgas: councils of village
  leaders and elders. Shura is a Dari word
  derived from the Arabic word “to consult,”                 JUDICIAL REFORM AND RULE OF LAW
  and Jirga is a Pashtu word, derived from                   As introduced in the Prioritization and Implementation Plan, the National
  the Turkish word for “circle.” These councils              Program for Law and Justice for All will focus efforts on the aspects of the legal
  are traditionally gathered to resolve a spe-               system that have the greatest effect on the average Afghan citizen. The program
  cific dispute between individuals, families,               will provide legal aid, revise laws, and simplify the operations of the Afghan
  villages, or tribes.                                       court system.163
                                                                The program will also encourage coordination and cooperation between the
                                                             formal and informal justice systems.164 The informal justice system includes both
Source: USIP, “The Clash of Two Goods: State and Non-State
Dispute Resolution in Afghanistan,” 12/2006, p. 7.           shuras and jirgas; these councils, which settle disputes at the local level, operate




                                                                84                          SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




outside the formal court system. The United States plans to support coordination
with the informal justice system through a USAID program that will re-establish
informal justice systems in areas that have been cleared of insurgents.165
   In December 2009, SIGAR issued an audit report on safety and security for
Afghan officials in the judicial system. SIGAR found that U.S. judicial security
assistance lacked key elements of a strategic approach and, at times, lacked
coordination. SIGAR also noted that Afghan judicial officers face extreme risk in
performing their duties.166

Court System
The Afghan court system consists of intertwined ministries and government
offices that play different roles in the criminal justice system, including the
Ministry of Interior, the Attorney General’s Office, the Supreme Court, and the
Ministry of Justice.167
   As of September 30, 2010, the Afghan Independent Bar Association had                  The Afghan Constitution requires that
1,113 defense attorneys on record—a 14% increase over last quarter.168 Despite           no law contradict Islamic law—an edict
this increase, according to the DoS Bureau of International Narcotics and Law            that creates contradictions within the
Enforcement Affairs (INL), the Bar Association is concerned about recruitment            Constitution. Islamic law depends on
of defense attorneys because lawyers hold a low status in Afghan society. The            Sharia (“path” in Arabic) law. Sharia laws
U.S. Justice Sector Support Program (JSSP) has recommended roundtables to                are derived from the Quran, the word of
                                                                                         Islamic scholars, and the Hadith, which
discuss how the profession might be made more appealing to Afghans. These
                                                                                         contains a history of the life and teachings
roundtables are expected to include law and Sharia students, law school faculty,
                                                                                         of Mohammad.
Bar Association representatives, and active defense attorneys.169
   As of September 30, 2010, there were 2,347 prosecutors working within the             Source: NATO, “Civil-Military Fusion Centre: Women, Afghan
                                                                                         Law, and Sharia,” 8/2010, p. 5.
Attorney General’s Office. According to INL, at least 300 prosecutor positions
are located in the provinces; however, because these positions have low pay and
high security risk, it is difficult to keep the positions filled. There are 133 female
prosecutors in Afghanistan—92 in Kabul and 41 in the provinces.170
   An additional expansion of prosecutorial staff is expected in February or
March 2011, according to INL. The expansion will focus on staffing two new
courts in Kabul: an additional Anti-Corruption Tribunal will have 3 to 5 prosecu-
tors, and a court focused on violence against women will have 11.171
   The UN Office on Drugs and Crime (UNODC) is helping the Attorney General’s
Office implement its Code of Ethics and Professional Standards for prosecutors.172
The code contains 28 articles that mandate standards for performance in prosecu-
tor offices.173
   INL supports the Afghan court system by providing U.S. legal advisors as
mentors for prosecutors and defense attorneys. The mentors do not interact
directly with the courts; instead, they act in an advisory role, providing legal
training, advice, and assistance to the attorneys as needed. As of September 30,
2010, INL had four legal advisors in each of five provinces: Balkh, Herat, Kunduz,
Nangarhar, and Paktiya. All other INL legal advisors are based in Kabul.174




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            85
                                                               GOVERNANCE




                                                               U.S. Justice Sector Support Program
                                                               Operating under INL, the JSSP aims to develop the capacity of the Afghan
                                                               criminal justice system by working with Afghan justice professionals, including
                                                               prosecutors. The JSSP also supports the criminal defense system by encour-
                                                               aging coordination between defense attorneys and other professionals in the
                                                               justice system.175
                                                                  Each quarter, the JSSP holds provincial training conferences for members of
                                                               the Afghan justice system. From July to September 2010, the JSSP held three
                                                               conferences, in Helmand, Laghman, and Badghis. Upcoming conferences are
                                                               planned for Logar, Wardak, and Uruzgan.176 The JSSP conducted additional train-
                                                               ing in five provinces, as detailed in Table 3.6.
                                                                  This quarter, the JSSP added to the number of Afghan legal advisors in the
                                                               program, growing from 38 in June to 62 in September, according to INL. An
                                                               additional 30 American JSSP lawyers were awaiting security clearances and pre-
                                                               paring to deploy, as of September 30, 2010. Recruitment of Afghan and American
                                                               attorneys is expected to continue through the next quarter. INL noted that these
                                                               numbers do not include JSSP staff members who assist with program manage-
                                                               ment, regional support, information technology, procurement, and security.177

                                                               Corrections System and Prison Reform
                                                               According to INL, the Afghan corrections system continues to suffer from a
                                                               crumbling infrastructure, illiterate staff, high rates of staff attrition, underfund-
                                                               ing, political interference in prison administration, a wide range of national
                                                               security threats, overcrowding, and a high rate of prisoner population growth.
                                                               As law enforcement and justice systems improve, Afghan prisons can expect a
                                                               greater influx of prisoners in their facilities, burdening a system that is already
                                                               overcrowded.178 Consequently, the GIRoA is exploring alternative corrections
                                                               approaches. In its Prioritization and Implementation Plan, the GIRoA set two
                                                               six-month goals for Afghan prisons and juvenile detention centers:179
                                                                • improve alternative correctional sanctions, including community service
                                                                • design and implement vocational programming for inmates
TABLE 3.6


ADDITIONAL TRAINING CONDUCTED BY THE JSSP, JULY–SEPTEMBER 2010
Training                                                                                                          Location                               Date
Legal training focused on the penal code and the elements of a crime.                                             Balkh                            8/15/2010
Report writing for Corrections Investigation Department officers. The officers were trained in basic police       Kunduz                            8/18/2010
reporting skills, including obtaining and reporting factual information, obtaining and recording witness          and Takhar                   8/24–8/25/2010
statements, and constructing complete and factual crime scene narratives.
Seminar on advanced criminal procedure under Afghan law. The seminar was attended by 7 judges, 10                 Nangarhar                    7/17–7/31/2010
prosecutors, and 8 police officers.
Seminars on the Law on the Elimination of Violence Against Women. These seminars reflect the JSSP’s               Kunduz                            8/1/2010
increased focus on gender justice issues.                                                                                                           8/8/2010
Source: INL, response to SIGAR data call, 10/4/2010.




                                                                   86                       SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




   Alternatives to incarceration are crucial to the management of prison popula-
tions, according to INL; they are also consistent with international standards
for correctional systems. INL noted that the increased use of parole and work
release programs may also motivate detainees and prisoners to demonstrate
good behavior in prison.180
   One such incentive that INL identified is vocational programming. Through the         Weak services continue to plague
Afghan prisoner classification system, prison staff can assess the eligibility of each   incarceration facilities for juveniles,
inmate for participation and examine any risks associated with allowing the inmate       according to INL. Juveniles range from
to participate. Vocational programming provides prisoners with work opportunities        age 12 to 17; most are imprisoned for
that emphasize the development of job skills and work ethics. It is also self-sustain-   theft, but the spectrum of offenses
                                                                                         includes murder. Most facilities offer
ing: the prisoners earn the funds that keep the program operating.181
                                                                                         insufficient academic and vocational
   U.S. support for vocational programming comes from the INL-funded
                                                                                         programming, mental health services,
Corrections System Support Program (CSSP). The CSSP provides the Afghan                  and recreational opportunities. The
Central Prison Directorate with subject matter experts in correctional sys-              Afghan Central Prison Directorate does
tems. These experts mentor, train, and advise Afghan prison administrators,              not track the average length of juvenile
mid-level managers, and line staff. CSSP advisors are working with the GIRoA             detainment in these facilities.
to build a safe, secure, and humane Afghan corrections system through
                                                                                         Source: INL, response to SIGAR data call, 10/4/2010.
capacity building initiatives, basic and specialized training, and development
and implementation of standard operating procedures. The CSSP also assists
the GIRoA in developing vocational programming within prison industries.
Current programming includes carpet weaving, tinsmith work, tailoring, and
basic computer skills.182
   INL also funds prison construction projects, including the complete
renovation of the Pol-i-Charkhi Prison in Kabul. That renovation included the
prison’s industry building, where prisoners receive vocational training and
participate in prison industries programs. The building was scheduled for
completion in mid-October 2010. As of October 18, 2010, INL had awarded
contracts to Afghan companies for the construction of prison facilities in
Baghlan and Wardak.183

HUMAN RIGHTS
On September 20, 2010, the Afghanistan Independent Human Rights Commission
issued a statement in honor of International Peace Day. In the statement, the
commission urged all parties involved in the armed conflict to observe the
human rights of all Afghans.184 This section provides updated information on
specific human rights issues in Afghanistan related to displaced citizens, ethnic
and religious minorities, and gender equity.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            87
                                                                     GOVERNANCE




FIGURE 3.28

DISPLACEMENTS CAUSED BY MAJOR EVENTS, 1978–2010


                          1980                                               1990                                    2000                                      2010


                1978–1988                                               1989–1995                     1996–2001        2001          2004–2010
                Saur Revolution                                         Soviet withdrawal and         Taliban rule     Fall of the   Increased international
                                                                        mujahedeen power struggle                      Taliban       military presence


Note: Refugees and internally displaced persons began to return home in 2002 when the GIRoA came into power.
Source: CIVIC, “Civil-Military Fusion Centre: Internally Displaced Persons,” 9/8/2010.




                                                                     Displaced Afghans
                                                                     Displacement is not a new problem for Afghanistan, as shown in Figure 3.28.
                                                                     As of September 30, 2010, nearly 298,000 Afghans (approximately 49,000 fami-
                                                                     lies) had been displaced within the country. According to DoS, 104,000 of them
                                                                     were forced to leave their homes between July 2009 and August 2010.185 In addi-
                                                                     tion to violence, Afghans can be displaced by drought, other natural disasters,
                                                                     and land and resources disputes.186
                                                                        In the Prioritization and Implementation Plan, the GIRoA established several
                                                                     goals related to displaced Afghans. For instance, in its efforts to expand regional
                                                                     cooperation, the GIRoA plans to implement an agreement with Iran and Pakistan
                                                                     aimed at ensuring the safe return of all Afghan refugees living in those countries.
FIGURE 3.29                                                          In addition, the plan reiterates the importance of fulfilling the goals set forth in
                                                                     the ANDS in 2008 regarding displaced persons:187
AFGHAN POPULATION
                                                                      • Strengthen the capacity of the Afghan ministries that deal with repatriation
By Ethnicity (PERCENT)
                                                                         and encourage them to coordinate with their counterparts in the region.
                                                                      • Encourage the return of Afghan refugees by promoting job opportunities and
               Hazara                       Uzbek                        the provision of basic needs, such as land, water, electricity, shelter, health
               9                            9                            care, and education.

                                                Aimak
                                                4
                                                                     Minorities
              Pashtun                                                Afghanistan is a multi-ethnic society. Pashtuns make up the largest ethnic group
              42                    Tajik                            at 42% of the population, according to DoS. Tajik and Hazara make up the next
                                    27                               largest groups, as shown in Figure 3.29. DoS noted that Hazara have reported
                                                                     continuing discrimination; for example, they are often asked to pay additional
                                                                     bribes at border crossings while Pashtuns pass through freely.188
                                                Turkmen
                                                3                       Although there are no laws preventing minority groups from participating
              Other              Baloch
              4                  2
                                                                     in political life, many groups have stated that they do not have equal access to
                                                                     government positions in the provinces where they are a minority.189 In the Wolesi
Source: DoS, response to SIGAR data call, 10/8/2010.                 Jirga, 10 seats are reserved for representatives from the Kuchi—a small, nomadic




                                                                         88                     SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




tribe. Some National Assembly members have objected to the Kuchi seats, argu-
ing that the Kuchi should not have greater representation than other minority
groups because that would conflict with the Afghan Constitution, which states
that all Afghans should be treated equally.190

Religious Freedom
Tolerance for religious minorities deteriorated this quarter, according to DoS.
Manifestations of intolerance included inflammatory public statements made
by members of the National Assembly, television programming that attacked
religious minorities, and general harassment and violence. Shia Muslims (19% of
the population) continued to face discrimination from the Sunni majority (80% of
the population) this quarter.191
   DoS noted that the GIRoA attempts to support religious tolerance indirectly
by supporting religiously diverse (Sunni and Shia) judicial, constitutional, and
human rights commissions. Although there are no legal obligations to represent
religious minorities in government, approximately 35% of National Assembly
seats are occupied by Shia Muslims, according to DoS.192 Also this quarter, the
Ministry of Women’s Affairs and the Ministry of Hajj and Islamic Affairs worked
together to provide women with the opportunity to visit mosques.193

Gender Equity
In the Prioritization and Implementation Plan, the GIRoA included support for
the National Action Plan for the Women of Afghanistan (NAPWA) through the             National Action Plan for the Women of
Capacity Development to Accelerate NAPWA Implementation Program. This                 Afghanistan (NAPWA): a 10-year plan to
program will work to achieve the gender equity goals laid out in the NAPWA. It        assist the GIRoA in strengthening
will focus on mainstreaming the commitments and goals of the NAPWA into the           gender equity. The Afghan Constitution
policies, planning documents, program budgets, and monitoring and evaluation          and the Afghanistan National Development
processes of all relevant government organizations.194                                Strategy cite the NAPWA as the primary
   Many women in Afghanistan fear that the reintegration and reconciliation           document that outlines the goals of
process will affect their rights, according to a NATO publication. The groups         gender equity.
involved in reintegration—the Taliban and other insurgent organizations—are
well known for their anti-women’s rights stances. In the past, President Karzai’s
                                                                                    Source: UNIFEM, “The National Action Plan for the Women of
administration has sacrificed women’s rights to satisfy religious factions. For     Afghanistan,” accessed online 9/17/2010.

example, in March 2009, President Karzai signed the Shia Personal Status Law,
which required that women ask permission before leaving their homes. And, in
April 2010, the Minister of Economy told female leaders that women would have
to sacrifice their interests for the sake of the reconciliation effort.195
   U.S. Secretary of State Hillary Clinton has repeatedly pledged support for
women’s rights in Afghanistan; however, Afghan women fear that the pressure
to achieve peace will outweigh the importance of gender equity. Only 8 women
have been appointed to the High Peace Council (of 70 members), adding to their
concerns that women’s voices are not a priority in the reintegration process.196




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010         89
                                                    QUARTERLY HIGHLIGHT




REINTEGRATION                                                                           •    The GIRoA must develop and implement processes
                                                                                             to transfer donor funds to provincial and district
Reintegration is highlighted in both the GIRoA and the                                       levels.
U.S. strategies. Discussed in depth at the London                                        •   The High Peace Council and the Joint Secretariat
Conference in January and the Consultative Peace                                             must finish hiring staff for reintegration
Jirga in June, reintegration programming is a sig-                                           programming.
nificant component of the GIRoA’s Prioritization and                                     •   Provincial and district reintegration committees
Implementation Plan. To encourage insurgents to rejoin                                       must be put in place.
mainstream Afghan society, the GIRoA is working to
                                                                                           As of September 30, 2010, the High Peace
establish the Afghanistan Peace and Reintegration
                                                                                        Council and the Joint Secretariat were still hiring
Program (APRP), with the following goals:197
                                                                                        staff, according to the Office of the U.S. Secretary of
•   Support regional and international cooperation.
                                                                                        Defense. The GIRoA and the international community
•   Create political and judicial conditions that support
                                                                                        were negotiating memorandums of understanding to
    peace and reconciliation.
                                                                                        fund the APRP. 201
•   Encourage combatant soldiers and their command-
                                                                                           Although the GIRoA is still developing formal
    ers to renounce violence and join in peace-building
                                                                                        processes, some elements of the APRP are already
    efforts.
                                                                                        being implemented.202 For example, DoS noted that
   The GIRoA anticipates that the program will reinte-                                  the governor of Helmand province is instituting a
grate thousands of former combatants. Over the next                                     framework for the APRP. 203 In addition, the GIRoA has
five years, the program will focus on stabilizing 4,000                                 formed temporary shuras to address community-level
communities in 220 districts.198                                                        reintegration. These shuras will be replaced by more
   On September 4, 2010, the GIRoA established the                                      formal provincial and district reintegration committees
High Peace Council to lead the APRP, with support                                       when the APRP becomes fully operational.204
from provincial and district governors, local government                                   According to the Prioritization and Implementation
institutions, and political, tribal, and religious leaders.199                          Plan, Afghan women, civil society organizations, and
DoD is planning to launch the Afghanistan Reintegration                                 other groups will monitor the discussions and deci-
Program (ARP) to support APRP initiatives. According                                    sions of the High Peace Council regarding each for-
to the Office of the Secretary of Defense, before any                                   mer combatant.205 The UN Secretary-General reported
reintegration programming can become fully operational,                                 that the UN Special Representative to Afghanistan
several objectives must be met:200                                                      will likely co-chair the Special Peace and Reintegration
•  The international community and the GIRoA must                                       Subcommittee, which will coordinate all major donor
                                                                                        contributions to the program.206
   reach an agreement about funding for reintegration.


    THE AFGHANISTAN PEACE AND REINTEGRATION PROGRAM HAS THREE PHASES:
    1: Social Outreach, Confidence-Building, and Negotiation—Provincial and district leaders spread information about the peace process
       to individuals and communities.
    2: Demobilization—Former insurgents who want to join the peace process go through social and political processing. Demobilization
       includes initial assessment, vetting, weapons management, and registration.
    3: Consolidation of Peace—Following a community-level assessment, the program will operate at the provincial, district, and community
       levels and will address the different needs in each community, including basic services, education, and technical or vocational training.

    Source: GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 40.




                                                           90                    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                     QUARTERLY HIGHLIGHT




                                                                      The UN Secretary-General reported that the review
                                                                      of this list was completed on July 30, 2010. The
                                                                      review committee determined that 443 of the 488
                                                                      names should remain on the list, 132 of which were
                                                                      associated with the Taliban. The committee decided
                                                                      to remove the other 45 individuals, 10 of whom had
                                                                      been associated with the Taliban in the past.210
                                                                         In addition, the committee determined that the
                                                                      names of three additional Afghans should be added
                                                                      to the list—all involved in raising funds for the
                                                                      Taliban. The UN Secretary-General reported that
                                                                      the decisions of the committee were generally well
                                                                      received by the Afghan public. However, a represen-
Insurgents in Badghis province surrender their weapons on
                                                                      tative from the Afghan Independent Human Rights
August 21 as part of the reintegration effort. (ISAF photo)
                                                                      Commission expressed concerns that removing
                                                                      names from the blacklist might result in immunity for
                                                                      those who have perpetrated war crimes.211

FUNDING FOR REINTEGRATION                                             RECONCILIATION
The GIRoA estimates that the reintegration effort
                                                                      Where reintegration efforts focus on lower-level
will cost approximately $784 million over five years,
                                                                      insurgents, reconciliation efforts focus on the leaders
according to DoS. The GIRoA has not yet determined
                                                                      of insurgency movements. In the Prioritization and
how much of that funding will come out of its bud-
                                                                      Implementation Plan, the GIRoA identified recon-
get. According to DoS, the United States plans to
                                                                      ciliation as an initiative that requires a “broader
provide $50 million directly to the GIRoA to finance
                                                                      approach” than reintegration. Potential support for
community recovery activities.207 In addition to
                                                                      reconciliation may address sanctuaries, outreach to
direct funding, DoD has pledged to support the ARP
                                                                      leadership, and removal from the UN sanction list.212
with up to $100 million from the National Defense
                                                                          According to DoS, reconciliation will likely be
Authorization Act for FY 2010. As of September 30,
                                                                      conducted through diplomatic channels, rather than
2010, the ARP had supported shuras on detainee
                                                                      through programs. The United States will support
release, a safehouse project, and a $286,442 train-
                                                                      reconciliation with insurgent leaders only if those
ing program in Baghlan. DoS noted that USAID has
                                                                      leaders agree to cease violent tactics, sever ties with
provided additional reintegration support outside the
                                                                      al-Qaeda and all extremist allies, and agree to abide
ARP in Helmand province, through its efforts focused
                                                                      by the Afghan Constitution.213
on agricultural assistance, training, and cash-for-work
programs. As of September 30, 2010, other inter-
national donors had pledged up to $190 million to
support Afghan-led reintegration.208
                                                                       “The [reintegration] program is based
UN REINTEGRATION EFFORTS                                                 on a broad strategic vision led by
As part of the resolution published at the conclusion                 Afghan men and women for a peaceful,
of the Consultative Peace Jirga in June 2010, the UN                   stable, and prosperous Afghanistan.”
agreed to review its sanction list (previously referred
                                                                                     —Prioritization and Implementation Plan
to as the terrorist blacklist) and remove members who
are no longer associated with terrorist networks.209                  Source: GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 39.




          REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2010                      91
TITLE OF THE SECTION




 92     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 ECONOMIC AND SOCIAL DEVELOPMENT
 Key economic and social developments in Afghanistan this quarter included
 the satisfactory harvest of cereal crops, an uptick in food prices, and a crisis of
 confidence in the banking system owing to allegations of corruption and mis-
 management at the nation’s largest private bank (Kabul Bank). Following the
 Kabul Conference in July 2010, several developments signaled an increase in
 regional energy and infrastructure cooperation, including the signing of an agree-
 ment by Turkmenistan, Afghanistan, Pakistan, and India to build the TAPI natural
 gas pipeline (named for the four countries).
    Also this quarter, the United States continued its efforts to strengthen the
 capacity of the Government of the Islamic Republic of Afghanistan (GIRoA)
 to regulate financial networks and to increase domestic revenue collection. In
 addition, the United States announced programs to enhance the development of
 Afghanistan’s free press and to spur private-sector development by strengthening
 mechanisms to resolve land disputes, historically a leading source of conflict.
    President Karzai’s ban on private security contractors (PSCs), however, may
 affect the ability of the United States and its development partners to implement
 these and other reconstruction projects. Although the United States supports the
 GIRoA’s efforts to properly regulate PSCs, it is continuing to address this issue
 with the GIRoA because of concerns about the ban’s effect on aid workers. For
 details on this issue, see Section 1.

 LEADING INDICATORS
 This quarter, economic developments were dominated by a jump in food prices
 and by allegations of significant losses at Kabul Bank due to fiduciary misconduct.

 Inflation
 Food prices rose this quarter for wheat, flour, sugar, and ghee (clarified butter).
 Wheat is a staple of the Afghan diet.214 After declining for two years, wheat prices
 started rising in most parts of Afghanistan in July and August 2010, as illustrated
 in Figure 3.30 on the following page.215 These increases followed the devastating
 floods in Pakistan, which ruined a significant portion of that country’s agricul-
 tural output.216 This development affects Afghanistan because it continues to rely
 on food imports from neighboring countries, especially Pakistan and Kazakhstan,
 to meet its domestic consumption needs.217




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           93
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.30

RETAIL WHEAT PRICES IN SELECTED MARKETS, AUGUST 2008–AUGUST 2010 (Af/KG)

40




30




20




10




 0
     Aug       Oct      Dec       Feb       Apr       Jun      Aug       Oct    Dec   Feb     Apr   Jun    Aug
     2008                                                     2009                                        2010

                                  Herat             Kabul            Kandahar         Jalalabad

Source: FAO/GIEWS, “Country Brief: Afghanistan,” 9/8/2010, p. 1.




   Similarly, from April to August, flour prices increased by an average of 51.4%,
sugar prices increased by an average of 37.5%, and ghee prices increased by an
average of 30.6%, according to a publication sponsored by the North Atlantic
Treaty Organization (NATO).218 In response to concern over rising food prices,
the Afghan Chamber of Commerce and Industry established a commission to
set food prices during Ramadan.219 The chairman announced that the Chamber
would continue to monitor prices beyond this period.220

Employment
No reliable data is available on employment. This challenge is one of several
addressed in a new program launched by the Ministry of Labor, Social Affairs,
Martyrs, and the Disabled and the International Labor Organization (ILO).
   In another employment-related development, the Commander of the
International Security Assistance Force issued guidance emphasizing the impor-
tance of the Afghan First program.

Decent Work Program
Signed in the days leading up to the Kabul Conference, a new agreement
between the ILO and the GIRoA will implement Afghanistan’s first-ever Decent
Work Program. The goals of the program are to increase employment through
labor market information and skills training, promote the adoption of interna-
tional labor standards, and build strong civil society organizations representing



     94                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 employers and workers.221 The program is scheduled to be implemented over the
 next five years. Among its objectives:222
 • production of yearly labor market reports on key employment indicators,
    including data on unemployment, underemployment, the demographics of
    the workforce, and wage levels
 • production of employment reports to assist the GIRoA in designing effective
    employment programs and policies
 • identification of key industries and sectors that employ women, along with
    action plans for implementation
 • increased skills training opportunities for men and women
 • strengthened Employment Service Centers, which match job seekers with
    employment opportunities
 • ratification of international labor standards and strengthening the capacity
    of the Ministry of Labor to implement these standards
 • establishment of minimum wages for skilled and unskilled labor
 • progressive elimination of child labor
 • development of industrial relations organizations that meet regularly and
    include representation of women (at least 20%)

 Creating Jobs Through Afghan First Procurement
 Afghan First is a key U.S. initiative to increase Afghan employment by encourag-
 ing procurement from Afghan-owned companies. This quarter, General Petraeus
 issued guidance reiterating the importance of Afghan First contracting to a suc-
 cessful counter-insurgency strategy.223 The guidance directs NATO, International
 Security Assistance Force (ISAF), and U.S. Forces - Afghanistan to use contract-
 ing to hire Afghans, buy Afghan products, and build Afghan capacity. It cites
 Kabul’s Milli Trading Company, which employs approximately 500 Afghans and
 produces approximately 2,400 boots per day for the Afghan National Security
 Forces (ANSF), as an example of contracting that creates jobs for Afghans.224
 As another example, the NATO Training Mission - Afghanistan has cited Afghan-
 owned Safi Apparel Corporation in Kabul, which employs 700 Afghans (50% of
 them women) and produces up to 100,000 uniforms for the ANSF per month.225

 Banking
 This quarter, the central bank of Afghanistan (Da Afghanistan Bank or DAB) took
 control of Kabul Bank amid allegations of fiduciary misconduct by Kabul Bank’s
 management. A NATO publication noted reports that the alleged misconduct may       At the request of Afghanistan’s central
 have involved shareholders who purchased real estate and made business invest-     bank, the U.S. Treasury deployed a quick-
 ments with bank assets, some of which generated significant losses. According      response team to Afghanistan to help
 to the U.S. Treasury (Treasury), the Afghan Central Bank is transferring Afghan    strengthen DAB’s capacity to respond to
 funds to Kabul Bank from reserves and accounts belonging to Kabul Bank and         the situation at Kabul Bank. According to
 the GIRoA. Following DAB’s actions, large-scale depositor withdrawals from         Treasury, no U.S. taxpayer dollars have been
                                                                                    or will be used to bail out Kabul Bank.
 Kabul Bank abated, according to the NATO publication.226 In October, SIGAR
                                                                                    Source: U.S. Treasury, response to SIGAR data call,
 announced a new audit to examine the status and development of the Afghan          10/4/2010.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010        95
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             banking sector; among other objectives, it will identify and assess systems and
                                                             policies regulating bulk cash flows in and out of Afghanistan.227
                                                                Kabul Bank is the repository for GIRoA funds that are used to pay teachers,
                                                             police, and other civil servants. In the short term, according to Treasury, the
                                                             United States does not anticipate any interruption in the payment of salaries to
                                                             the ANSF. Treasury noted, however, that it is essential that the GIRoA address
                                                             any instances of fraud or abuse at Kabul Bank in order to restore public trust
                                                             and international confidence in Afghanistan’s formal banking system.228
                                                                The situation at Kabul Bank has affected discussions by the International
                                                             Monetary Fund (IMF) about a new credit facility for Afghanistan. As noted
                                                             in SIGAR’s July 2010 quarterly report, an IMF delegation attended the Kabul
                                                             Conference and reached an agreement with the GIRoA for a new $125 million
                                                             economic growth program funded by the IMF’s Extended Credit Facility. The
                                                             new agreement was scheduled to go before the IMF Board for approval in early
                                                             September. However, because of the banking sector’s difficulties, Board discus-
                                                             sion of a new program has been delayed until December at the earliest.229
                                                                In an October 1 note about this new program, the IMF stated that although
                                                             the GIRoA’s performance under the previous arrangement had been successful
                                                             in many areas, it had not been flawless. In particular, the IMF cited the GIRoA’s
                                                             hesitancy to reform public enterprises and added that the recent “run on the
                                                             largest bank threatened Afghanistan’s nascent financial system and exposed
                                                             the country’s problems with governance and corruption.” The IMF identified
                                                             strengthening the banking system as one of the objectives of any new economic
                                                             growth program.230

                                                             Regulating Informal Cash Transactions
                                                             Afghanistan’s economy is primarily cash-based: fewer than 5% of Afghans hold
Combating Terrorist Financial Networks:                      bank accounts, according to Treasury. As a result, most Afghans conduct busi-
In July 2010, using Executive Order 13224,                   ness with cash through traditional money service providers, or Hawaladars. In
the U.S. government froze all U.S. assets                    fact, approximately 70–80% of Afghanistan’s financial flows pass through the
of three key leaders and financiers of the                   informal network of Hawaladars.231
Taliban and the Haqqani network and pro-                        To address the challenges of this mixed financial system, Treasury is providing
hibited U.S. persons from engaging in any
                                                             technical assistance to DAB to strengthen the regulatory and investigative capac-
financial transactions with them. The three
                                                             ity of its Supervision Department.232 A major focus of this effort is the Hawala
terrorist leaders—Gul Afgha Ishakzai, Amir
Abdullah, and Nasiruddin Haqqani—were                        system. U.S. advisors have also helped DAB establish a Financial Intelligence
also added to the UN Committee 1267                          Unit (known as FinTRACA) to detect and track money laundering, terrorist
Consolidated List. All UN member states                      financing, and other financial crimes. As a complement to the work of DAB and
are obliged to freeze the assets of, ban the                 FinTRACA, Treasury has also provided an advisor to the Major Crimes Task
travel of, and institute an arms embargo                     Force (MCTF) to establish a financial crimes investigative capability.233
against the individuals and entities named                      As part of this effort, FinTRACA has initiated a project to license Hawaladars.
on this list.                                                According to Treasury, this program has increased from 0% to 65% the number of
Sources: Treasury, response to SIGAR data call, 10/4/2010;   Hawaladars who file monthly reports on their financial activities to the GIRoA.234
UN, Security Council Committee Established Pursuant to
Resolution 1267 (1999) concerning Al-Qaida and the Taliban      FinTRACA also analyzes DAB currency auctions to identify purchases of large
and Associated Individuals, accessed online 10/10/2010.
                                                             volumes of currency and then compares the results with data from currency and
                                                             goods declaration forms collected by Afghan customs officials. Using this method,



                                                               96               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FinTRACA estimated that more than $1.3 billion in cash (in various currencies)          As of January 2009, approximately
 is transported annually from Afghanistan to Dubai, according to Treasury.235            70 licensed Hawaladars in Kabul were
 Treasury noted, however, that although FinTRACA has been able to estimate               not submitting reports as required by
 cash flows, there is no formal system in place to count the cash flows in and out       Afghanistan’s anti–money laundering law.
 of Kabul International Airport. A U.S. team of advisors, led by the Department          With technical support from U.S. advisors,
 of Homeland Security, has developed an action plan to formally track these cash         FinTRACA and the DAB Supervision
                                                                                         Department met with Hawaladars and
 flows. According to Treasury, the action plan has been given to the GIRoA but
                                                                                         designed new reporting forms. As a result,
 has yet to be implemented. Treasury further noted that large cash flows out of
                                                                                         more than 200 Hawaladars are now
 Afghanistan are not unusual, given that the country has a very large trade deficit.     licensed in Kabul and approximately 495
 Last year, total imports to Afghanistan were $8.8 billion, compared with exports        nationwide. They are working with the
 of $2.2 billion. The result was a trade deficit of $6.6 billion, or approximately 49%   GIRoA to identify unlicensed Hawaladars.
 of GDP, according to Treasury. The imported goods and services must be paid for         According to Treasury, an automated
 either through the formal banking system or with cash.236 See Section 2 for details     reporting system for Hawaladars has been
 on planned SIGAR investigations of cash transfers in and out of Kabul Airport.          developed and will be made mandatory
                                                                                         by next year.
 FISCAL SUSTAINABILITY                                                                   Source: Treasury, response to SIGAR data call, 9/29/2010.

 Increasing fiscal sustainability through enhanced revenue collection is a long-
 term goal of the U.S. Afghanistan and Pakistan Regional Stabilization Strategy.237
 To help implement this goal, Treasury’s Office of Technical Assistance has six
 staff members in Afghanistan working to strengthen the capacity of the Ministry
 of Finance (MoF) in financial management, budgeting, internal controls, and rev-
 enue collection.238 This quarter, U.S. advisors have been working with the MoF            Overflight fee: a fee charged to the
 and the Ministry of Transportation and Civil Aviation (MoTCA) to establish a              operators of aircraft that fly in a country’s
 basic revenue-collection system for parking, landing, and overflight fees at Kabul        airspace but do not take off or land in
 International Airport. According to Treasury, U.S. advisors identified 10 new fees        that country.
 related to domestic and international civil aviation that are not collected by the
 GIRoA. Treasury further noted that the U.S. Federal Aviation Administration
                                                                                         Source: U.S. House of Representatives, FAA Authorization Act
 will purchase and install a revenue management system at Kabul International            of 2009, 5/19/2009, p. 81.
 Airport that will automatically track all civil aviation activity and bill each cus-
 tomer. According to a Memorandum of Understanding, the MoF and MoTCA will
 exchange data and participate equally in assessing, billing, and collecting these
 fees. The new fee structure developed by the Federal Aviation Administration
 and Treasury will be presented to the ministries for adoption in the near future,
 according to Treasury.239

 ESSENTIAL SERVICES
 There was progress this quarter in regional energy cooperation, as well as in U.S.
 efforts to develop Afghanistan’s energy resources in Sherberghan and to attract
 private-sector investment. In the education sector, Afghan officials worked with
 U.S. technicians to identify the toxin responsible for the mass poisonings of
 Afghan school girls. And the Ministry of Public Health (MoPH) launched a polio
 vaccination campaign, partly in response to an outbreak in northern Afghanistan.
 The United States also announced a new initiative to create a mobile news and
 information service in Afghanistan to disseminate news more broadly.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010            97
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             Energy
                                                             In a significant development this quarter, ministers from Turkmenistan,
                                                             Afghanistan, Pakistan, and India signed a framework agreement for the
                                                             Turkmenistan-Afghanistan-Pakistan-India (TAPI) natural gas pipeline. The agree-
                                                             ment outlines plans for an approximately 1,800-km pipeline to supply natural gas
                                                             from Turkmenistan to Afghanistan, Pakistan, and India, as shown in Figure 3.31.
                                                             The Asian Development Bank has expressed interest in funding the project. Among
                                                             other benefits, the TAPI pipeline would generate income for the GIRoA from transit
                                                             and transmission fees for natural gas. The presidents of the four countries are
FIGURE 3.31                                                  scheduled to sign the TAPI framework agreement in December 2010, according to
                                                             the Minister of Mines.240
ROUTE OF THE PROPOSED TAPI
                                                                In a note of caution, a paper published by the Institute for the Analysis of Global
NATURAL GAS PIPELINE
                                                             Security cited major obstacles to the development of the pipeline. They include
                  UZBEKISTAN
                                                             security challenges in Afghanistan, disagreements about the extent of Turk-
                                      TAJIKISTAN
                                                    CHINA    menistan’s natural gas reserves, and competition from other planned pipelines in
 TURKMENISTAN
       Dauletabad
                                                             the region, including one that involves Iran. The Asian Development Bank has esti-
       Gas Field                                             mated that capital costs for the TAPI pipeline will be approximately $7.6 billion.241
                                                                In August, the Russian government announced it will invest in Afghan energy
          Herat
                                                    INDIA
                                                             infrastructure, including hydroelectric plants and natural gas wells.242 This invest-
                                                             ment will include refurbishing infrastructure built by the former Soviet Union
                     Kandahar
                                    PAKISTAN                 during its occupation of Afghanistan. As noted in SIGAR’s January 2010 quarterly
IRAN                                                         report, Afghanistan generated significant income in the 1980s from natural gas
                           Quetta       Multan
                                                   Fazilka   exports, including exports to Russia. Many natural gas wells in the country were
                                                             developed during the Soviet occupation and capped during the Soviet withdrawal.243
                                                                This quarter, the MoM made several announcements related to the develop-
Source: Canadian Centre for Policy Alternatives,
“A Pipeline Through a Troubled Land: Afghanistan,            ment potential of estimated oil and natural gas reserves in Sar-e-Pul province in
Canada, and the New Great Energy Game,” by John Foster,
Foreign Policy Series Vol. 3, No. 1, 6/19/2008, p. 5.        northern Afghanistan. In August, a Ministry spokesman announced the first drill-
                                                             ing for oil in Sar-e-Pul following the refurbishment of existing wells.244
                                                                The Ministry of Mines (MoM) also announced the discovery of an oil field
                                                             between Balkh and Sherberghan that is estimated to hold 1.8 billion barrels.
                                                             According to USAID, however, this announcement appeared to be based on a
                                                             review of Soviet-era data and is not a new discovery.245
                                                                In addition to oil, Sherberghan holds existing natural gas wells. The U.S. gov-
                                                             ernment is providing technical assistance to the MoM to create a plan to develop
                                                             these resources, according to USAID. The vice president of the Overseas Private
                                                             Investment Corporation (OPIC) traveled to Afghanistan this quarter to discuss a
                                                             proposal to develop a new 150–200 MW gas-fueled power plant in Sherberghan.246
                                                             The OPIC proposal, which is still in the planning phase, has three parts:247
                                                              • USAID would capitalize the Afghan Gas Company and assist in building
                                                                 capacity to supply natural gas to the project.
                                                              • Private investors, including the Aga Khan Foundation for Economic
                                                                 Development and two U.S. energy companies, would make equity invest-
                                                                 ments totaling $50 million and use OPIC loans of up to $250 million to build
                                                                 the plant. The power would be sold to the national electricity company (Da
                                                                 Afghanistan Breshna Sherkat, or DABS), under a long-term agreement.



                                                               98                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 • The Asian Development Bank would fill in gaps in the system of transmission
   lines and provide credit support to DABS.
    In a capacity-related development, USAID announced it will provide English-
 language training to Afghan engineers who work for DABS. USAID noted that its
 rehabilitation of the Naghlu Hydro Power Plant in Kabul included a new com-
 puterized control system that requires knowledge of written English to operate.
 The Sarobi Hydro Power Plant in Kabul went through a similar upgrade, and its
 engineers will also require English-language training. This reflects the conclu-
 sions of a January 2010 SIGAR audit of Afghanistan’s energy sector, which found
 that although U.S. efforts have increased the country’s energy supply, sustainabil-
 ity remains a challenge.248
    This quarter, U.S. Central Command (CENTCOM) said it made progress in
 implementing a transitional solution to the challenge of providing energy in
 Kandahar. CENTCOM has contracted for two 10 MW generators, the first of
 which is scheduled to go on line on December 1, 2010, at the Kandahar Industrial
 Park. The second is scheduled to go on line on February 1, 2011, on the western
 edge of Kandahar. The contract includes operation and maintenance costs, as
 well as fuel for 60 days. ISAF has requested the establishment of a $600 mil-
 lion Afghan Infrastructure Fund (AIF) using part of the appropriation for the
 Commander’s Emergency Response Program (CERP). CENTCOM endorsed this
 request and sent it to the Secretary of Defense for approval. CENTCOM noted
 that if the request is approved, the fuel costs for the transitional solution will be
 paid through the AIF; if not approved, CERP funding will be used.249

 Education
 USAID provided on-budget assistance to the Ministry of Education (MoE) of                                               What Afghan Children Learn in Primary
 $7 million in FY 2009 (8% of the MoE budget) and $5.7 million in FY 2010                                                School: The approved MoE curricula for
 (4% of the MoE budget), according to USAID. These funds were provided                                                   grades 1–6 includes math, language
 through an arrangement with the Danish International Development Agency                                                 studies (Dari and Pashtu), life skills,
 (DANIDA), which is part of the Ministry of Foreign Affairs of Denmark.250                                               history, social studies, science, and English,
                                                                                                                         as well as Dari and Pashtu taught as
     USAID also has a cost-sharing agreement with DANIDA to pay for printing
                                                                                                                         second languages.
 textbooks for Afghan school grades 1–6 in Dari and Pashtu. The estimated 2007–
                                                                                                                         Source: USAID, response to SIGAR data call, 10/4/2010.
 2011 cost of USAID’s contribution to this program is $25 million. The five-year
 agreement is scheduled to end on March 2, 2012.251 Table 3.7 shows the number
 of primary school textbooks funded by the United States and Denmark during the
 first three years of the agreement.

 TABLE 3.7


 AFGHAN TEXTBOOKS: USAID-DANIDA COST-SHARING AGREEMENT
               Number of Books (MILLIONS)         USAID Funding Share ($ MILLIONS)   DANIDA Funding Share ($ MILLIONS)
 Year 1                    23.66                                  4.53                                 5.11
 Year 2                    15.39                                  3.12                                 4.68
 Year 3                    40.67                                 10.02                                    9
 Source: USAID, response to SIGAR data call, 10/4/2010.




              REPORT TO THE UNITED STATES CONGRESS                   I   OCTOBER 30, 2010                     99
                                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                                         Girls wait in line to receive schoolbooks and supplies from the Afghan National Civil Order
                                                         Police in October. The United States and Denmark are funding the printing of textbooks for
                                                         grades 1–6 throughout Afghanistan. (ISAF photo, G.A. Volb)



                                                            USAID noted that the distribution of textbooks is the responsibility of the MoE,
                                                         which delivers the books to the provincial education directorates in provincial
                                                         capitals. The provincial education directorates, in turn, deliver the books to the
                                                         district education directorates. The Ministry of Defense has helped distribute
                                                         textbooks to insecure areas in southern and eastern Afghanistan, using Afghan
                                                         National Army convoys. According to USAID, approximately 19.2 million text-
                                                         books were distributed nationwide in solar year 1388 (2009/2010).252
                                                            An important element of the U.S. strategy in Afghanistan is supporting the
                                                         GIRoA’s goal of providing access to education for everyone, including girls. This
                                                         quarter, the challenges to achieving this goal were highlighted by the widely
                                                         reported mass poisonings of Afghan girls attending classes. One incident on
                                                         August 25, 2010, sickened more than 60 students and teachers. Another incident in
  Malathion: an organophosphate, which                   Kabul on August 28 left 48 girls and teachers in need of medical attention. Initial
  is a compound widely used in agricultural              speculation focused on mass hysteria and Ramadan fasting as potential causes
  pesticides to control insects.                         of the illnesses, but medical testing has confirmed that toxins were present in at
                                                         least one of the incidents, according to USAID. NATO/ISAF toxicologists examined
                                                         blood drawn from affected students and concluded that the exposure was inten-
Source: USAID, response to SIGAR data call, 10/4/2010.
                                                         tional and involved the use of agricultural pesticides, specifically malathion, at
                                                         levels that would not be possible through casual or even regular exposure. USAID
                                                         further noted that these types of attacks against girls have occurred regularly since
                                                         the fall of the Taliban. The MoPH confirmed to the Voice of America that there
                                                         were toxic levels of organophosphates in the blood of victims in 10 separate, simi-
                                                         lar incidents over the past two years.253
                                                            In response to continuing attacks against Afghan school children, the United
                                                         States and Afghanistan co-sponsored a resolution in the UN Human Rights




                                                           100                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Council, which was adopted unanimously. The resolution called on relevant UN
 agencies and international organizations to render assistance to the GIRoA to
 investigate all attacks against Afghan school children, including the poisonings of
 Afghan school girls.254

 Health Services
 The Ministry of Public Health (MoPH) is one of only two Afghan ministries
 certified by USAID to receive a host country contract. Under this arrangement,            Certification: a USAID process that
 the MoPH received $236 million from USAID to deliver health-care services over            determines the capacity of a ministry of
 a five-year period.255                                                                    a foreign government to manage procure-
     This quarter, the MoPH launched two major polio vaccination campaigns.                ment and account for USAID funds for
 According to the Global Polio Eradication Initiative, the northern provinces              a specific contract. It is not a general
 of Afghanistan have been relatively free of polio for the past ten years. In              certification of a ministry. Certification
 September, however, the organization reported a new case of polio in the Imam             is required before a foreign ministry can
 Sahib district of Kunduz province. Kunduz borders Tajikistan, which experienced           receive a host-country contract from
 a significant polio outbreak earlier this year. Further testing identified the border     USAID. To date, two GIRoA ministries
                                                                                           have been certified to receive a host-
 areas with Pakistan as probable sources for the outbreak, as well.256
                                                                                           country contract from USAID: the Ministry
     In response, the MoPH launched a three-day rapid response campaign to
                                                                                           of Public Health ($236 million for five
 vaccinate approximately 1.5 million children under the age of five in five north-
                                                                                           years) and the Ministry of Information and
 ern provinces (Kunduz, Badakhshan, Takhar, Baghlan, and Balkh). A UN news                 Communications Technology ($1 million
 agency noted that local health officials were also trying to vaccinate every person       for three years).
 crossing the Afghanistan-Tajikistan border. In addition, a nationwide polio vac-
 cination campaign was launched on October 3, 2010.257 The MoPH carried out
 these campaigns with the support of the Global Polio Eradication Initiative. This       Source: USAID, response to SIGAR data call, 9/14/2010.

 initiative is funded by the U.S. Centers for Disease Control, the World Health
 Organization, UNICEF, and other international organizations to which the United
 States is a major contributor, as well as other governments.258
     In August, the MoPH reported a cholera outbreak in the Nowa district of
 Ghazni province. The MoPH implemented an emergency response campaign that
 included distributing medical supplies and cholera kits; the ministry also trained
 local Afghan personnel from non-governmental organizations (NGOs) to identify
 and treat the disease. During the campaign, the Acting Minister of Public Health
 noted the shortage of trained health care professionals throughout the country.259
     This quarter, the United States announced it would address a key aspect of
 the medical skills gap with a commitment to spend $37 million over the next
 four years to train Afghan women in the health care professions.260 A World Bank
 survey on maternal health released this quarter underscored the need to expand
 the number of Afghan women health care professionals. The survey noted
 that although maternal mortality in Afghanistan fell from 1,600 to 1,400 deaths
 per 100,000, the overall rate is still too high. Of the 172 countries surveyed,
 Afghanistan had the highest estimated lifetime risk for maternal death (1 in 11)
 as extrapolated from 2008 data. The survey defined adult maternal risk as the
 probability that a 15-year-old female will eventually die from a maternal health–
 related cause.261




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           101
                                                             ECONOMIC AND SOCIAL DEVELOPMENT



TABLE 3.8


SELECTED HEALTH CARE ACTIVITIES, JULY–SEPTEMBER 2010
                                                                            Estimated
                                                                        Total Cost for
                                                           Start and   Life of Project
U.S. Program                                        Completion Dates       ($ MILLIONS)   Activities
Health Services Delivery Grant–Partnership           7/2008–7/2014             236.5      Transferred $9.8 million to local NGOs; finalized implementation plan for prison health
Contracts for Health–Ministry of Public Health                                            services, which is scheduled to be launched in October 2010.
Tuberculosis Control Assistance Program             10/2009–9/2010                5.2     Trained 21 female health workers in treatment strategies designed to improve TB care
(TB CAP)                                                                                  for women.
Communication for Behavior Change:                  2/2006–11/2011               34.7     Broadcast more than 1,350 radio spots and 1,125 television spots on birth spacing,
Expanding Access to Private-Sector Health                                                 safe water systems, and dehydration prevention; began production of a television series
Products and Services for Afghanistan                                                     on birth spacing; trained 454 private pharmacists in birth spacing and child survival.
(COMPRI-A)
Higher Education Project: Kabul Medical                  1/2007–2011              5.4     Launched Afghanistan Medical Education Community portal; developed research
University (KMU)                                                                          methodologies course for KMU faculty and students.
Technical Support to the Central and Provincial      7/2006–9/2011               83.6     Recruited and deployed provincial health advisors in Helmand and Wardak; designed
Ministries of Public Health                                                               evaluation for Family Planning program, which will be launched in October 2010.
Health Services Support Project                     7/2006–11/2011               78.9     Developed and received MoPH approval for community health nursing curriculum
                                                                                          and nursing education accreditation standards; conducted 4 emergency obstetric
                                                                                          and newborn trainings for 64 skilled birth attendants.
Construction of Health and Education Facilities      1/2008–1/2011               33.0     Signed subcontracts for 20-bed Khair Kot district hospital and 100-bed Gardez
                                                                                          district hospital.
Strengthening Pharmaceutical Systems                 5/2008–9/2012                4.5     Assessed regulatory mechanisms and systems for food and medicine products;
                                                                                          developed recommendations for strengthening medicine quality oversight.
Measure DHS: Afghanistan Mortality Study            5/2009–12/2011                3.5     Began fieldwork for this landmark study in May; as of 9/30/2010, had identified 76%
(maternal mortality study)                                                                of clusters to be sampled, surveyed 64% of clusters, and entered 54% of surveyed data
                                                                                          into a database; identified 28 additional field interviewers to work in insecure provinces.
Source: USAID, response to SIGAR data call, 10/4/2010.




                                                                USAID has a number of ongoing health care initiatives in Afghanistan.
                                                              Table 3.8 provides an update on program activities carried out this quarter
                                                              under selected initiatives.

                                                              Transportation
                                                              As noted in SIGAR’s April 2010 quarterly report, the U.S. government is helping
                                                              to build civil aviation capacity by supporting the training of Afghan air traffic
                                                              controllers. As of September 30, 2010, two controllers were in place at Kabul
                                                              International Airport. They received training at the Civil Aviation Training
                                                              College in Allahabad, India; the U.S. Federal Aviation Administration Academy
                                                              in Oklahoma City, Oklahoma; and the Ministry of Transport and Civil Aviation’s
                                                              training institute in Kabul. They began on-the-job training in 2009 under the guid-
                                                              ance of the International Civil Aviation Organization’s Technical Cooperation
                                                              Program. The contract for that training expired in September 2010, and ISAF has
                                                              hired a new contractor to provide the training.262
                                                                 Three more controllers were in training this quarter, according to USAID; they
                                                              are expected to finish their ratings by December 31, 2010. Nineteen more students
                                                              have begun refresher training at the Civil Aviation Training Institute in Kabul.263



                                                                102                       SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Media
 USAID has identified freedom of information as a key element in building a
 secure and stable Afghanistan. To help strengthen a free press in the coun-
 try, USAID has announced the $22 million Afghanistan Media Development
 and Empowerment Project (AMDEP).264 According to USAID, this project will
 address professional and technical gaps in media development. Key objectives
 include strengthening the professional skills of Afghan journalists, facilitating the
 distribution of content to the largest audience possible, strengthening the legal
 and regulatory communications framework, and building the capacity of the
 GIRoA to regulate media. This quarter, USAID published a grant solicitation for
 a project that would implement a key AMDEP goal, increasing the distribution of
 news content. The grant would support the building of an Afghan mobile phone
 news and information service, called Mobile Khabar.265
    The challenges facing independent journalists in Afghanistan were under-
 scored this quarter by the murder of Sayed Hamid Noori, a well-known Afghan
 journalist who was stabbed to death on September 5, 2010. Mr. Noori was a
 former news anchor for Radio Television Afghanistan and spokesperson for the
 speaker of the National Assembly.266

 INDUSTRY AND NATURAL RESOURCE DEVELOPMENT
 This section looks at major developments this quarter in agriculture, mineral
 resources, trade and the private sector. To complement the U.S. focus on agri-
 cultural development, SIGAR announced a new audit to identify the extent of
 U.S. and other donor assistance to Afghanistan’s agricultural sector, to assess the
 coordination of these efforts, and to identify further challenges.267

 Agriculture
 Weather plays a pivotal role in Afghan agriculture, as noted in SIGAR’s January
 2010 quarterly report; however, expanding access to improved seeds, fertilizer,
 and other inputs is also important. According to U.S. Ambassador Eikenberry,
 these inputs are key to bolstering food security by increasing the production of
 wheat, Afghanistan’s staple crop, which provides half of the country’s caloric
 needs. As part of U.S. efforts to strengthen this sector, USAID will provide
 13,000 metric tons of certified wheat seed varieties and 40,000 metric tons of
 basic fertilizer to 260,000 small commercial Afghan farmers this year.268
    Afghanistan’s 2010 wheat harvest is forecast to be 4.53 million tons,
 according to the Ministry of Agriculture, Irrigation, and Livestock (MAIL).
 This is 15% above average, the Ministry reported, although 11% lower than last
 year’s record. Winter wheat was harvested from May through June, and spring
 wheat was gathered this quarter.269 As noted in SIGAR’s July 2010 quarterly
 report, weather conditions were reasonably favorable in the key wheat-growing
 regions of Afghanistan this year, although flooding damaged some wheat and
 vegetable production in other parts of the country.
    The total 2010 cereal harvest—including rice, barley, and maize—is forecast
 to reach 5.9 million tons, according to the MAIL. This is greater than the



         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010           103
                                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                                            FIGURE 3.32

                                                            CEREAL IMPORTS, 2004/05–2009/10 (MILLION TONNES)


                                                             2004/05                                                  1.10

                                                             2005/06                                                          1.29

                                                             2006/07                                                        1.23

                                                             2007/08                                                               1.37

                                                             2008/09                                                                                                            2.58

                                                             2009/10                                                                                                           2.55

                                                                         0                0.50                1.00                 1.50              2.00               2.50

                                                            Notes: Numbers affected by rounding. Total includes rice in milled terms. Split years refer to individual crop marketing years.
                                                            Source: FAO/GIEWS, “Country Brief: Afghanistan,” 9/8/2010, p. 1.




Since 2002, the U.S. government has                         2005–2009 average (5.232 million tons), although 10% lower than last year’s
invested approximately $1.5 billion in                      record, according to the FAO.270
revitalizing Afghanistan’s once-vibrant                        Imports of cereals are expected to decline somewhat this year for a number
agricultural sector. Key goals include                      of reasons.271 The devastating flooding in Pakistan’s Peshawar valley destroyed
increasing agricultural productivity,                       one-fifth of that country’s irrigation infrastructure and ruined a significant
revitalizing the links between farmers and
                                                            portion of its agricultural output, according to Pakistan’s Prime Minister.272
markets, and increasing the number of
                                                            As a result, Pakistan is expected to ban the export of cereal grains, meat,
Afghans who generate income from higher-
value legal crops, such as fruits (grapes,
                                                            and other agricultural products into Afghanistan.273 In addition, unfavorable
pomegranates, apricots, apples, melons,                     weather conditions in Kazakhstan, Russia, and Ukraine have decreased wheat
etc.) and nuts.                                             production in those countries.274 On August 15, 2010, Russia announced a ban
Sources: U.S. Embassy Kabul, “Remarks by U.S. Ambassador
                                                            on wheat exports, according to the Famine Early Warning Systems Network.275
Karl W. Eikenberry at the MOU Signing Ceremony for the
2010 AVIPA Wheat Seed Distribution,” 10/5/2010; DoS,
                                                            Figure 3.32 shows that total cereal imports into Afghanistan are expected to
Afghanistan and Pakistan Regional Stabilization Strategy,   decline slightly this year compared with last year.
1/21/2010, p. 6.


                                                            Upgrading to Higher-Value Crops
                                                            This quarter, the MAIL reported a significant increase in the planting of fruit
                                                            trees.276 In addition, USAID reported increases in the farm-gate price of some
                                                            higher-value Afghan crops owing to improved storage, grading, packing, and
                                                            sorting techniques.277 The USAID Inspector General released an audit of the
                                                            expansion of USAID’s alternative development program to key poppy-growing
                                                            provinces in southwest Afghanistan, including Helmand, Uruzgan, Nimroz, and
                                                            Farah. It concluded that 11,000 Afghan farmers had been trained in new agricul-
                                                            tural practices as of December 2009; since its inception, the expanded program
                                                            has helped local farmers market and sell produce valued at $3.8 million.278
                                                               As noted in SIGAR’s April 2010 quarterly report, USAID awarded its largest
                                                            single NGO agricultural grant—approximately $30 million—to Roots of Peace,



                                                               104                          SPECIAL INSPECTOR GENERAL                     I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 to expand Afghanistan’s output of high-value agricultural products.279 As of
 September 30, 2010, Roots of Peace had disbursed $1.9 million of this grant,
 according to USAID. During this start-up phase, approximately 25% of this amount
 was invested in program inputs and supplies, including infrastructure and reha-
 bilitation, nurseries and nursery supplies, plant materials, trees, demonstration
 plots, marketing center operations, farm rehabilitation, workshops and training
 sessions, and contractor taxes. The remaining 75% was expended on personnel,
 benefits, travel, allowances, office and computer equipment, household furnish-
 ings, vehicles, freight, and overhead management costs. To begin implementing
 this project, 86 Afghans, 1 American, and 2 third-country nationals were hired.280
    According to USAID, so far the program has assisted 6,680 Afghan households
 in planting orchards, upgrading vineyards, planting vegetables, establishing
 kitchen gardens, and preparing for home egg production. As of September 30,
 2010, these were some of the specific outcomes:281
  • Approximately 425 hectares of orchards and vineyards were established;
     1,336 farmers planted high-value crops; 1,754 individuals received training.
  • Growers exported 6.9 net tons of higher-quality fresh grapes because of
     improved cold storage and packing techniques, increasing growers’ profits
     from $33 per ton to $327 per ton in Pakistan and $759 per ton in India.
  • Women in 325 households in Helmand, Bamyan, Paktika, and Nangarhar
     started building chicken coops and vegetable gardens.
  • Improved fruit-drying techniques and better links with exporters produced a
     significant increase in the farm-gate price of dried apricots. Afghan farmers
     received Af 400–450 per 7 kg, compared with Af 150–170 per 7 kg using tradi-
     tional methods; 10 metric tons of apricots were exported in August alone.
    Finally, DoD’s Task Force for Business and Stability Operations (TFBSO)
 in Afghanistan has completed an assessment of the raisin industry. Before the
 Soviet invasion, Afghanistan was one of the top three exporters of raisins in the
 world; since then, the infrastructure to process grapes into raisins for export has
 fallen into disrepair. The DoD assessment concluded that a new state-of-the-art
 processing facility could be constructed for under $2 million. The TFBSO has
 facilitated a joint venture between one of the largest U.S. raisin importers and
 an Afghan company, which will include a long-term investment, distribution, and
 technology agreement.282

 Mining                                                                                   Iron ore: a key ingredient in making steel.
 As noted in SIGAR’s June 2010 quarterly report, the U.S. government released             The re-tendering of the Hajigak mine co-
 estimates of Afghanistan’s mineral wealth as part of its efforts to attract private-     incided with the recent jump in worldwide
 sector investment. As a follow-up this quarter, the MoM re-opened the bidding            iron ore prices. Iron ore prices doubled
 to develop the Hajigak iron deposit.283 The Hajigak deposit is one of the largest        from 95.95 U.S. cents per dry metric ton
 undeveloped iron ore deposits in the world, according to the World Bank.284 In           in October 2009 to 203.32 cents per dry
 announcing the tender, the MoM noted that Soviet estimates placed the potential          metric ton in August 2010.
 of the deposit at approximately 1.8 billion tons of iron ore. The MoM presented
 details at an investment conference in September in New York City, sponsored by
                                                                                        Source: IMF, “Iron Ore Monthly Price, Oct. 2009–Aug. 2010,”
 USAID and the World Bank.285                                                           accessed online 10/2/2010.




          REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010         105
                                                    ECONOMIC AND SOCIAL DEVELOPMENT




                                                       Chinese companies are among the most significant international investors
                                                    in Afghanistan’s mineral resources. The Jiangxi Copper Co., whose parent
                                                    company is a state-owned enterprise, and the China Metallurgical Group Corp,
                                                    which is also a state-owned enterprise, were awarded the contract to develop
                                                    Afghanistan’s giant Aynak copper mine.286 As part of this contract, the China
                                                    Metallurgical Company signed an agreement with the MoM on September
                                                    22, 2010, to build a regional railway line to connect Kabul to Pakistan and
                                                    Uzbekistan.287 The MoM noted that this is part of a larger plan to connect
                                                    Afghanistan with ports in Iran and Pakistan.

                                                    Trade
                                                    On September 14, 2010, the Afghan Cabinet approved the text of the Afghanistan-
                                                    Pakistan Transit Trade Agreement. The next step, according to the Department
                                                    of State, was for Pakistan to finish a legal examination of the document and sub-
                                                    mit it to the Pakistan Cabinet for approval so that the two countries can officially
                                                    sign the implementation agreement. In a briefing for the press on October 7,
                                                    2010, a spokesman for the Prime Minister of Pakistan said the Pakistan Cabinet
                                                    had approved the agreement.288
                                                       In another trade-related development this quarter, efforts to expedite cross-
                                                    border transit made progress as the 75-km railroad from Mazar-e Sharif to the
                                                    border of Uzbekistan neared completion. Funded by the United States and Japan
                                                    through the Asian Development Bank, this new rail line will allow contain-
                                                    ers—which are sealed at the point of origin—to move across the Uzbek-Afghan
                                                    border without lengthy customs delays. According to ISAF, nearly half of all
                                                    Afghan imports travel through the border town of Hairatan on this route. Before
                                                    the rail line was built, a single bridge over a river was the only passage between
                                                    Uzbekistan and Afghanistan.289

                                                    Private-Sector Development
                                                    Lack of access to land is one of the key obstacles to private-sector development,
                                                    according to USAID. Private ownership of land in Afghanistan is not recognized
                                                    as valid without an officially registered deed. Because a significant portion of
                                                    land in Afghanistan is not registered and is held under informal arrangements,
                                                    the GIRoA can currently claim ownership of approximately 90% of the land. Land
  Cadastral survey: a comprehensive                 grievances are historically a leading driver of conflict, according to USAID.290
  measurement of the boundaries of real                To address these challenges, USAID funded the $56.3 million Land Titling and
  property, including boundaries, owner-            Economic Restructuring Initiative (LTERA).291 The outcomes of this 2004–2009
  ship and value. Cadastres are key tools in        project, according to USAID, included reorganizing 6.5 million land-titling docu-
  establishing property rights and resolving        ments in 21 provinces, streamlining property registration from 34 to 3 steps, and
  disputes over land ownership.                     developing cost-effective cadastral survey and mapping techniques.292
                                                       As a follow-up to LTERA, this quarter USAID announced the Land Reform in
                                                    Afghanistan (LARA) Project. Key goals include expanding informal dispute reso-
Source: World English Dictionary, accessed online
10/16/2010.                                         lution mechanisms regarding land use and ownership, and strengthening the land




                                                     106                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 management and planning capacity of the GIRoA. In keeping with its capacity-
 building focus, the project will provide technical assistance to the following
 ministries and entities: the MAIL, the newly formed Afghanistan Land Authority,
 the Ministry of Urban Development, the Afghan Geodesy and Cartography Head
 Office, the Independent Directorate for Local Government, the land registration
 functions of the Supreme Court, and Afghan municipalities.293
    USAID noted that the LARA project will not promote the privatization of rural
 agricultural land, much of which is claimed by the GIRoA. Instead, the project
 will promote the long-term leasing of uncontested government-owned land and
 other strategies to generate employment and encourage investment.294


 ASSESSING AFGHAN MINISTRIES
 At the Kabul Conference, the United States and other international donors reiter-
 ated their commitment to more closely align development projects with Afghan
 national priorities. As part of this effort, donors acknowledged in principle the
 GIRoA’s request to channel more development funds directly through the central
 government if reforms were made and corruption reduced.295
    The U.S. government and other international donors are developing an assess-
 ment process to determine the capacity of Afghan ministries to receive more
 assistance funding directly. The goal of this process is to assess a ministry’s
 capacity to manage funding and to identify gaps and weaknesses in a ministry’s
 capacity. Among other criteria, an assessment may look at a ministry’s organiza-
 tional structure, operational and accounting systems, procurement policy and
 procedures, and internal controls. An assessment will also recommend measures
 to address these risks. U.S. officials emphasize that the assessment process
 produces a snapshot of current capacity and does not certify that a ministry is
 accountable or transparent. In addition, an assessment does not guarantee that
 malfeasance will not occur. According to U.S. officials, several prerequisites are
 being addressed before the formal assessment process is put in place:296
 • agreement between all U.S. agencies and international donors on a common
    set of standards to assess GIRoA ministries and entities
 • thorough vetting of the consensus methodology
 • assurance that adequate mechanisms have been put in place to mitigate risk
   During meetings with SIGAR officials in Kabul, U.S. officials affirmed U.S.
 policy that Afghan ministries must show improved accountability and transpar-
 ency to receive direct assistance.297




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010        107
TITLE OF THE SECTION




 108    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




COUNTER-NARCOTICS
Since 2002, the U.S. government has appropriated more than $4.49 billion—
including $980.11 million for FY 2010—to support counter-narcotics efforts
in Afghanistan.298 This quarter, initiatives to counter the cultivation of poppy
focused on interdiction operations and alternative development. In September
2010, the United Nations Office on Drugs and Crime released its annual
Afghanistan Opium Survey. The survey revealed that the cultivation of poppy
remained stable at 123,000 hectares (ha)—the figure reported in 2009. The
production of opium decreased to 3,600 MT—a 48% decline from 2009—but still
generated a farm-gate income of $604 million for farmers. The decrease in
production was caused by a disease that affected major poppy-cultivating
provinces, including Helmand and Kandahar.299
   This quarter, efforts to support the objectives outlined in the new counter-
narcotics strategy focused primarily on interdiction operations and alternative
development. The following subsections provide details on these efforts.

INTERDICTION OPERATIONS
This quarter, the Afghan National Security Forces (ANSF) and the International
Security Assistance Force (ISAF) conducted 43 interdiction operations, accord-          Cordon and Search: an operation con-
ing to the U.S. Department of Defense. They involved partnered patrols, cordon          ducted to seal off an area to search for
and search activities, and detainee operations. As a result of these operations,        persons or things, including intelligence
the following drugs and drug-related materials were seized:300                          data.
 • 5,700 kg of heroin
 • 4,500 kg of processing chemicals
                                                                                      Source: U.S. Army, “Tactics in Counterinsurgency,” accessed
 • 1,705 kg of morphine                                                               online 10/19/2010.
 • 1,527 kg of opium
In addition, the ANSF and ISAF teams arrested 96 individuals suspected of
involvement in the illicit drug trade.301

ALTERNATIVE DEVELOPMENT PROGRAMMING
To assess the effectiveness of U.S. assistance to the Afghan agricultural sector,
SIGAR initiated an audit in October 2010. It will specifically identify and address
the following areas:302
• U.S. and donor assistance to Afghanistan’s agricultural sector through
   FY 2010




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          109
COUNTER-NARCOTICS




• the extent of coordination and safeguarding of U.S. agricultural assis-
  tance with other U.S. agencies, donors, and the Government of the Islamic
  Republic of Afghanistan (GIRoA)
• the effectiveness of U.S. agricultural assistance in achieving counter-
  insurgency objectives
• any challenges to the development of Afghanistan’s agricultural sector
   As noted in SIGAR’s April 2010 quarterly report, the new stabilization strategy
identifies agriculture as the fastest means to create licit jobs, which in turn will
slow the funding stream that poppy cultivation provides to the insurgency.303
According to the U.S. Agency for International Development (USAID), its work
in support of alternative development aims to create licit livelihoods for farmers
and others in “poppy-prone” areas by focusing on high-value crops and activi-
ties that support agricultural marketing. This work includes rehabilitating roads
to improve the movement of produce and goods, working with producer asso-
ciations and groups, and providing technical assistance to farmers and other
private-sector entities. USAID noted that external factors (such as security,
disease, and raw opium prices) hinder the measurement of program success. To
sustain achievements, it emphasized the need to coordinate with other programs
that focus on rule of law, governance, public information, and interdiction.304
   Two USAID programs primarily support agricultural alternatives in the poppy-
cultivating provinces in the south and west:305
 • Alternative Development Program Expansion South West (ADP SW)
 • Afghanistan Vouchers for Increased Production in Agriculture (AVIPA) Plus
According to USAID, the ADP SW program has a budgeted cost of $75 million.
The AVIPA Plus program had a budgeted cost of $300 million.306 The following
subsections provide details on these programs.

Alternative Development Program South West
On July 29, 2010, the USAID Office of Inspector General (OIG) released its report
of an audit of the ADP SW program, which launched in March 2008. The auditors
found that the project is making progress toward achieving its overall goal of
counteracting illicit poppy cultivation by providing alternative development pro-
grams and improved economic opportunities in these provinces. However, they
identified areas of concern about the sustainability of program gains, including
the following:307
 • lack of a follow-on program
 • access to markets and instability of cereal-crop prices
 • lack of water
   As noted in SIGAR’s April 2010 quarterly report, the ADP SW program is
slated to end in March 2011.308 The procurement of a five-year, approximately
$370 million follow-on program was cancelled on June 14, 2009, because ADP
SW program officials were concerned about who would administer the contract.
The U.S. Special Representative to Afghanistan and Pakistan would have
preferred that the GIRoA administer the program, but ADP SW program officials



 110                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                  COUNTER-NARCOTICS




were concerned about the GIRoA’s “incapacity to administer a U.S.-financed
Government of Afghanistan program.”309
   The USAID OIG audit pointed out that if farmers cannot access markets to sell
their crops, the risk that they will return to poppy cultivation is high. Roads in
the southern and western provinces are very insecure, posing a serious challenge
to farmers who try to reach markets. In some cases, as in Farah, farmers trying
to reach a market would be required to pay bribes at checkpoints that would cost
more than their crops would bring.310
   The sustainability of reductions in poppy cultivation, according to the
auditors, depends largely on the availability of water. They identified water avail-
ability as a shortcoming in Farah, where snowmelt replenishes watersheds and
aquifers but is typically sufficient for only one planting season, in early spring.
To address this challenge, program administrators are conducting groundwater
studies to identify areas where a summer planting season and alternative crops
could be introduced.311 In a related effort to improve water management systems,
the U.S. Afghanistan Water, Agriculture, and Technology Transfer project intro-
duced a system of farm-level water management through canal turnouts. The
turnouts are light, reinforced-concrete frames with leakproof lids installed in
concrete-covered brick channels that control the direction and flow of water.312
   Despite these challenges, the audit found that the ADP SW program has had
notable successes. They include the successful implementation of 45 cash-for-
work projects to rehabilitate roads, canals, and markets; assisting farmers with
sales of produce totaling nearly $3.8 million; and helping the Farah Farmer’s
Union identify business opportunities and developing the Farah Agricultural
Center.313

Afghanistan Vouchers for Increased Production in Agriculture Plus
According to USAID, AVIPA Plus program components support alternative devel-
opment efforts both by providing agricultural inputs and by training farmers in
rural areas who “likely” cultivated poppy in the past. However, USAID noted that
the program does not track whether the inputs have helped deter farmers from
cultivating poppy. Instead, USAID has concluded that the “additional income
derived from these inputs and training to improve agricultural techniques,
are ready alternatives to poppy that ‘likely’ help farmers decide against poppy
cultivation.”314
   From July 1 to the end of the program in August 2010, USAID distributed
11,954 vouchers to farmers in Helmand and Kandahar, primarily for seeds, such
as spinach, carrots, tomatoes, and radishes. USAID noted that irrigation pumps
were also distributed through the voucher program.315




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010          111
TITLE OF THE SECTION




112    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         ANTI-CORRUPTION




ANTI-CORRUPTION
The United States and the Government of the Islamic Republic of Afghanistan
(GIRoA) have not yet implemented comprehensive strategies to combat corrup-
tion in Afghanistan. A SIGAR audit released this quarter found that because the
United States has not yet finalized a U.S. anti-corruption strategy, the majority
of U.S. assistance has been provided without the benefit of cohesive guidance.316
In a separate effort, the GIRoA is working to launch a new Afghan National
Transparency and Accountability Program, announced in July 2010.317
   According to DoS, continuing challenges facing U.S. and GIRoA anti-
corruption efforts include limited political will, a weak central government,
senior-level corruption networks, and limited consequences upon arrest.318
The non-governmental organization Transparency International (TI) echoed that
concern in an open letter to the participants in the 2010 London Conference.
The letter emphasized the potential impact of corruption on Afghanistan; namely,
high levels of corruption undermine reconstruction efforts and threaten to
destroy the Afghan people’s trust in their government. TI also pointed out that
many Afghans are more concerned about corruption than security and employ-
ment. This is particularly true for the poorest Afghans.319
   Corruption is typically associated with fraudulent financial practices in
Afghanistan; however, TI has also identified other types of corruption prevalent
in Afghanistan:320
 • nepotism and cronyism
 • sexual exploitation and abuse
 • coercion and intimidation of humanitarian staff or aid recipients for
   personal, social, or political gain
 • manipulation of assessments
 • targeting and registration in favor of particular groups
 • diversion of assistance to non-target groups

U.S. ANTI-CORRUPTION STRATEGY
In an audit report published this quarter, SIGAR found that from 2002 to 2010, the
United States had provided nearly $55.7 billion in reconstruction funding with-
out having established a comprehensive U.S. strategy for fighting corruption in
Afghanistan.321 The United States had also provided relatively little assistance to
Afghan anti-corruption bodies that might assist in monitoring the proper use of
reconstruction funds.322



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010         113
                                                                ANTI-CORRUPTION




                                                                   According to the SIGAR audit, a multi-agency working group based at U.S.
                                                                Embassy Kabul has now drafted an anti-corruption strategy for the United
                                                                States in Afghanistan; however, as of the publication date of the audit report, the
                                                                Department of State (DoS) had not yet approved the strategy. If approved, the
                                                                strategy would provide guidance to U.S. agencies to help them improve transpar-
                                                                ency and accountability in Afghan institutions.323 For more information about the
                                                                audit and its findings, see Section 2 of this report.
                                                                   The most recent draft of the U.S. anti-corruption strategy addressed four
                                                                goals, designed to work in concert with international anti-corruption policies:324
                                                                 • Improve the transparency and accountability of GIRoA institutions to reduce
                                                                   corrupt practices.
                                                                 • Improve financial oversight.
                                                                 • Build judicial capacity to investigate, prosecute, punish, and remove corrupt
                                                                   officials from power.
                                                                 • Aid civil society organizations in educating and empowering the public to
                                                                   participate in transparent and accountable governance.
                                                                To reach those goals, the strategy requires cooperation between the United
                                                                States and other international bodies, including the United Kingdom’s
                                                                Department for International Development, the United Nations Development
                                                                Programme, and the World Bank. The strategy also links U.S. assistance efforts
                                                                with specific metrics that were established in coordination with the GIRoA. U.S.
                                                                operating principles encourage the GIRoA to take the lead in developing and
                                                                implementing its own anti-corruption strategy.325

                                                                U.S. SUPPORT FOR ANTI-CORRUPTION EFFORTS
                                                                Despite the lack of a U.S. strategy to combat corruption, U.S. agencies work-
                                                                ing in Afghanistan continued to provide a variety of assistance this quarter to
                                                                support the anti-corruption efforts of the GIRoA. For instance, the DoS Bureau
                                                                of International Narcotics and Law Enforcement Affairs (INL) supports the
  Financial intelligence unit: a specialized                    work of the Afghan Attorney General’s Office to monitor, investigate, pros-
  governmental agency created to combat                         ecute, and appeal corruption cases. The Department of Justice provides legal
  money laundering, terrorist financing,                        and law enforcement advisors who train and mentor Afghan counterparts, with
  and other financial crimes. An FIU is the                     assistance from the Federal Bureau of Investigation, the Drug Enforcement
  central agency responsible for obtaining                      Administration, and the U.S. Marshals Service.326
  information (for example, suspicious trans-                      The U.S. Department of the Treasury provides technical assistance to the
  action reports) from financial institutions,
                                                                Ministry of Finance to bolster public financial management to the GIRoA. In
  processing or analyzing the information,
                                                                addition, the Economic Crimes Team of the U.S. Treasury Office of Technical
  and then disseminating it to appropriate
  authorities.                                                  Assistance (OTA) assists the GIRoA by supporting Afghanistan’s financial intelli-
                                                                gence unit (FIU), which is called the Financial Transactions and Reports Analysis
                                                                Center of Afghanistan (FinTRACA). Additional U.S. agency support comes from
Source: GAO, “International Financial Crime: Treasury’s Roles   the Department of Homeland Security, the Department of Defense, and the U.S.
and Responsibilities Relating to Selected Provisions of the
USA PATRIOT Act,” 5/2006, p. 2.                                 Agency for International Development.327




                                                                 114               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        ANTI-CORRUPTION




GIRoA ANTI-CORRUPTION EFFORTS
The National Transparency and Accountability Program, introduced in the
GIRoA’s Prioritization and Implementation Plan, is aimed at improving the
transparency and accountability of procedures and controls. Projects under this
program will focus on building effective and independent oversight institutions
in Afghanistan while monitoring and evaluating the performance of GIRoA insti-
tutions and officials. Program goals include the following:328
 • Build effective and independent oversight institutions.
 • Monitor and evaluate the performance of GIRoA institutions and officials.
 • Facilitate systems and process reengineering of central and local government
    finance.
 • Create effective mechanisms to prevent corruption and the misuse of public
    office for private gain.
 • Reinforce the integrity of public and business-sector relationships.
 • Promote transparency and provide citizens with information in an easily
    accessible and understandable manner.
 • Increase political accountability.
To meet the goals of the program, the GIRoA has a number of oversight bodies
already in place, including the Anti-Corruption Unit (ACU), the Major Crimes
Task Force (MCTF), the High Office of Oversight (HOO), the Control and Audit
Office (CAO), and the Criminal Justice Task Force.

Anti-Corruption Unit
Since its establishment in 2008, the ACU has worked within the Attorney
General’s Office to investigate and prosecute corruption cases.329 In that time,
according to DoS, the ACU has prosecuted only one case in the Anti-Corruption
Tribunal: a brigadier received eight years in prison for embezzlement of funds
and narcotics-related crimes.330 DoS noted that the major challenge to prosecut-
ing senior-level officials is interference from other senior-level officials.331
   In consideration of these challenges, DoS identified actions that the GIRoA
could take to improve its ability to fight corruption:332
 • Add more qualified prosecutors to the ACU and MCTF, and increase their
   salaries.
 • Draft clear, detailed anti-corruption laws with specific sentencing guidelines
   so prosecutors will have fewer excuses to dismiss cases.
As of August 2010, the ACU had 51 prosecutors. According to DoS, this number
has increased, but no specific numbers were available as of September 30, 2010.
DoS emphasized that the Attorney General’s Office hired many prosecutors who
are unvetted and uneducated.333




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010        115
ANTI-CORRUPTION




Major Crimes Task Force
The MCTF’s criminal investigations focus on kidnappings, organized crime, and
public corruption. The MCTF Corruption Investigation Unit has been investigat-
ing mid- to high-level officials. According to DoS, the GIRoA views the MCTF
as a very capable task force; however, DoS also noted that the GIRoA is “threat-
ened” by the MCTF’s ability to make arrests.334 In a new anti-corruption audit
announced this quarter, SIGAR will examine U.S. efforts to strengthen the MCTF.
   Since its inception in November 2009, the MCTF has made 18 arrests;
4 produced convictions. According to DoS, 7 of the arrests were “significant.”
However, since the June 2010 arrest of Mohammad Zia Salehi, both the Ministry
of Interior and the Attorney General’s Office have prevented the MCTF from
arresting any high-level targets. DoS noted that the MCTF made three arrests that
have yet to go to trial; the Attorney General has transferred the cases out of the
ACU and into the military courts.335
   U.S. mentors for the MCTF come from the Federal Bureau of Investigation,
the Department of the Treasury, and the U.S. Army. International mentors from
the French Gendarmerie and the British Serious Organized Crime Agency
(SOCA) also assist the MCTF. These mentors do not take part in investigations
but advise MCTF staff on how to organize, coordinate, and operate a major
investigation. The MCTF also receives specialized training support from 16 U.S.
and international law enforcement personnel.336

High Office of Oversight
President Karzai established the HOO in 2008 to oversee the implementa-
tion of the GIRoA’s National Anti-Corruption Strategy. Following the January
2010 London Conference, President Karzai vowed to grant the organization
greater independence and authority; however, as noted in a SIGAR audit report
published in August 2010, the HOO remains severely limited by a lack of inde-
pendence, audit authority, and capacity.337 Large-scale U.S. support for the HOO
ended in March 2010. However, according to DoS, USAID has provided ongoing
assistance through salary support for 12 personnel.338

Control and Audit Office
The CAO, also known as Afghanistan’s Supreme Audit Agency, has audit author-
ity over government bodies, public enterprises, and international donor funds. In
a 2010 audit of the office, SIGAR found that the legal framework for the CAO was
weak and did not provide the office with sufficient independence or authority to
serve as an effective anti-corruption institution.339
   This quarter, the United States began to provide assistance for the CAO
through USAID’s Economic Governance and Growth Initiative. According to
DoS, the CAO will receive further support following the passage of a new audit
law. This law is expected to provide the CAO with greater independence and to
clarify audit roles and responsibilities within the GIRoA. According to USAID,
the law is expected to pass in March 2011.340




 116               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        ANTI-CORRUPTION




Criminal Justice Task Force
Established under the 2005 Counter Narcotics Law, the Criminal Justice Task
Force investigates and prosecutes narcotics crimes.341 U.S. and British men-
tors assist Afghan prosecutors in developing and presenting cases. Primary and
appellate court judges also meet regularly with mentors to discuss aspects of
pending cases.342
   The task force typically focuses on heroin and smuggling cases, but it also
handles corruption cases. For example, one recent case involved corruption by
customs and border officials who took bribes from drug traffickers.343

FinTRACA
Established under the Afghan Anti-Money Laundering Law of 2004, FinTRACA
is the Afghan FIU. It aims to prevent individuals who have obtained funds
through illegal means from accessing Afghan financial institutions, according to
its Web site.344
    A large amount of anti-corruption support is filtered through this unit,
according to the OTA. For instance, FinTRACA provides the ACU with finan-
cial data that can be used to investigate and prosecute corrupt government
officials. In addition, FinTRACA conducts financial analyses of government
officials who have been flagged as potentially corrupt. Findings from these
financial analyses are forwarded to the ACU and the MCTF. FinTRACA also
assists the HOO by analyzing the asset and liability statements submitted by
high-level government officials.345
    According to OTA, FinTRACA is working with the United States and other
international donors to encourage the use of electronic funds transfers.
Electronic payments reduce the need to move large quantities of difficult-to-
track cash in order to pay contractors.346 For more information on FinTRACA’s
efforts to combat financial crimes, see the “Economic and Social Development”
section of this report.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010      117
A Healing Touch
A local Afghan woman receives care from a medic attached to
the 10th Mountain Division’s 1st Brigade Combat team. For two
days in October, 2 medical providers and 7 medics cared for
more than 400 people at the Ghormach Clinic. This quarter, the
United States announced a commitment to spend $37 million
over the next four years to train Afghan women in health care
professions. (DoD photo, Blair Neelands)
4   OTHER AGENCY
    OVERSIGHT




       119
TITLE OF THE SECTION




120    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                         OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, the Special Inspector General for Afghanistan Reconstruction
(SIGAR) requests updates from other agencies on completed and ongoing over-
sight activities. These agencies are performing oversight activities in Afghanistan
and providing results to SIGAR:
• Department of Defense Office of Inspector General (DoD OIG)
• Department of State Office of Inspector General (DoS OIG)
• Government Accountability Office (GAO)
• U.S. Army Audit Agency (USAAA)
• U.S. Agency for International Development Office of Inspector General
    (USAID OIG)
The descriptions appear as they were submitted, with these changes for consis-
tency with other sections of this report: acronyms and abbreviations in place of
full names; standardized capitalization, hyphenation, and preferred spellings; and
third-person instead of first-person construction.

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the 17 oversight projects related to reconstruction or security that
the participating agencies reported were completed this quarter. Because GAO

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2010
Agency           Report Number   Date Issued   Project Title
DoD OIG          D-2010-083       9/30/2010    Construction of the New Kabul Compound Lacked Planning and Coordination
DoD OIG          D-2010-081       8/27/2010    Army Use of Time-and-Materials Contracts in Southwest Asia
DoD OIG          D-2010-078       8/16/2010    Air Force Use of Time-and-Materials Contracts in Southwest Asia
DoD OIG          D-2010-079       8/13/2010    Security Provisions in a U.S. Army Intelligence and Security Command Contract for Linguist Support
DoS OIG-MERO     MERO-A-10-11       9/2010     Kabul Embassy Security Force (KESF)
DoS OIG-MERO     MERO-I-10-10       8/2010     Limited-Scope Review of Policies and Procedures for Vetting Foreign Service Nationals at Embassy Kabul in Afghanistan
GAO              GAO-10-921T      7/21/2010    Drug Control: International Programs Face Significant Challenges Reducing the Supply of Illegal Drugs but Support
                                               Broad U.S. Foreign Policy Objectives
GAO              GAO-10-720       7/16/2010    Military Training: Army and Marine Corps Face Challenges to Address Projected Future Requirements
GAO              GAO-10-932T      7/15/2010    Afghanistan Development: USAID Continues to Face Challenges in Managing and Overseeing U.S. Development
                                               Assistance Programs
GAO              GAO-10-368       7/14/2010    Afghanistan Development: Enhancements to Performance Management and Evaluation Efforts Could Improve USAID’s
                                               Agricultural Programs




            REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010                       121
                                                                OTHER AGENCY OVERSIGHT




TABLE 4.1 (CONTINUED)


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2010
Agency               Report Number            Date Issued        Project Title
GAO                  GAO-10-756SP             7/14/2010          Afghanistan Development: Poverty and Major Crop Production, an E-supplement to GAO-10-368
GAO                  GAO-10-660                 7/1/2010         Warfighter Support: Actions Needed to Improve the Joint Improvised Explosive Device Defeat Organization’s System of
                                                                 Internal Control
USAAA                A-2010-0196-ALL          9/21/2010          Contracting Operations, Joint Contracting Command-Iraq/Afghanistan, Regional Contracting Center - Fenty (Jalalabad),
                                                                 Afghanistan
USAAA                A-2010-0198-ALL          9/21/2010          Contracting Operations, Joint Contracting Command – Iraq/Afghanistan, Salerno Regional Contracting Center,
                                                                 Afghanistan
USAAA                A-2010-0135-ALL          7/12/2010          Contracting Operations, Joint Contracting Command - Iraq/Afghanistan, Kandahar Regional Contracting Center,
                                                                 Afghanistan (FOUO)
USAID OIG            5-306-10-002-S           9/29/2010          Review of Security Costs Charged to USAID Projects in Afghanistan
USAID OIG            5-306-10-011-P           7/29/2010          Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West
Note: MERO = Middle East Regional Office.
Sources: DoD OIG, response to SIGAR data call, 10/5/2010; DoS OIG-MERO, response to SIGAR data call, 10/5/2010; GAO, response to SIGAR data call, 10/4/2010; USAAA, response to SIGAR data call,
10/6/2010; USAID OIG, response to SIGAR data call, 9/29/2010.




                                                                combined its descriptions of completed and ongoing activities, those descrip-
                                                                tions are provided under “Ongoing Activities” later in this section.

                                                                Department of Defense Office of Inspector General
                                                                Construction of New Kabul Compound Lacked Planning and Coordination
                                                                (Report No. D-2010-083, Issued September 30, 2010)
                                                                Classified report.

                                                                Army Use of Time-and-Materials Contracts in Southwest Asia
                                                                (Report No. D-2010-081, Issued August 27, 2010)
                                                                Army contracting and DoD program officials did not properly award and admin-
                                                                ister the 18 Time and Material contracts and task orders for work performed
                                                                in Southwest Asia, including several contracts supporting reconstruction and
                                                                security in Afghanistan such as a contract valued at about $428 million to assist
                                                                the Government of the Islamic Republic of Afghanistan (GIRoA) in security insti-
                                                                tutions, policies, programs, and procedures. Contracting and program officials
                                                                awarded contracts and task orders with invalid sole-source justifications or
                                                                unfair competition (10 of 18), did not negotiate reasonable prices (17 of 18), and
                                                                did not justify their use of the Time and Material contract type (12 of 18). These
                                                                conditions occurred because contracting and program officials ignored acquisi-
                                                                tion regulations. In addition, contracting and program officials did not perform
                                                                adequate contractor surveillance for the 18 contracts and task orders because
                                                                of inadequate organization and planning by the Army officials responsible for
                                                                contractor oversight.




                                                                   122                         SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Air Force Use of Time-and-Materials Contracts in Southwest Asia
(Report No. D-2010-078, Issued August 16, 2010)
DoD OIG found that the Air Force Center for Engineering and the Environment
(AFCEE) contracting and program officials did not perform adequate contract
oversight for work performed on the six task orders we reviewed valued at
$120.8 million. Specifically, for the six task orders reviewed, contracting and
program officials did not monitor the contractors hired to perform the over-
sight function for construction work in Iraq and Afghanistan for five task orders
valued at $110.2 million; did not adequately review invoices for five task orders
valued at $98.6 million; and did not prepare quality assurance surveillance plans
for the six task orders. These conditions occurred because the title II contracting
officer’s representatives did not conduct site visits or monitor the title II con-
tractors working in Iraq and Afghanistan. According to the contracting officer,
there were not enough personnel to review the invoices initially. As a result, the
Air Force has no assurance that the contractors were working efficiently and
effectively. For example, faulty construction work and other serious engineering
and construction issues resulted in a fire at the Afghan National Army Barracks.
In addition, the Air Force was charged for labor categories and rates that were
not included in the base contract or in the task orders issued. Specifically, the
contractor invoiced a total of $24.3 million in labor costs that AFCEE officials
had not agreed to.

Security Provisions in a U.S. Army Intelligence and Security Command Contract for
Linguist Support
(Report No. D-2010-079, Issued August 13, 2010)
In response to a January 2010 shooting incident in Afghanistan involving a con-
tractor linguist and U.S. forces, DoD OIG reviewed the statement of work and
40 task orders included in contract W911W4-07-D-0010 to determine whether
the contract contained appropriate security provisions. The contract and 24 task
orders referenced an out-of-date policy for screening contract linguists, even
though the provisions in the contract and task orders met current standards for
screening potential linguists. Although INSCOM awarded the contract before
the 2008 memorandum was issued, the contract provisions on security and force
protection were consistent with the updated counterintelligence and secu-
rity screening standards established by the May 2008 Army memorandum. An
INSCOM official stated that referencing the 1998 memorandum was an oversight,
and the command plans to correct future task orders. In addition, DoD OIG
found that the contract and 38 of 40 task orders contained a weapons clause that
was consistent with DoD policy for authorizing contractors to carry weapons
(2 task orders had limited statements of work).




         REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2010      123
OTHER AGENCY OVERSIGHT




Department of State Office of Inspector General–
Middle East Regional Office
Kabul Embassy Security Force (KESF)
(Report No. MERO-A-10-11, Issued September 2010)
The objective of this performance audit was to provide an overall review and
summary of the requirements and provisions of the Kabul Embassy Security
Force contract. Specific objectives were (1) the requirements and provisions of
the contract; (2) whether contract performance measures had been established
and were being achieved; (3) how well the Department has administered the
contract to provide proper oversight of Armor Group of North America in Kabul;
(4) whether the contract was being effectively managed; (5) whether the con-
tract included FAR clause 52.222.50, which provides administrative remedies if,
during the term of the contract, the contractor or subcontractor engage in severe
forms of trafficking in persons; and (6) whether Armor Group of North America
provided for a safe and adequate living environment for the guards and whether
the Department provides proper oversight of the contract and task orders.

Limited-Scope Review of Policies and Procedures for Vetting
Foreign Service Nationals at Embassy Kabul in Afghanistan
(Project No. MERO-I-10-10, Issued August 2010)
The objectives of this performance audit were to (1) review the policy and
procedures used by the Foreign Service National Investigators (FSN-I) in
pre-employment personnel security vetting of Afghan locally engaged staff;
(2) review foreign service national investigation files; (3) document investigation
techniques used by FSN-I personnel to vet foreign service nationals prior to
employment with the Embassy; and (4) determine the degree of family and
friendship relationships of current Embassy staff.

U.S. Army Audit Agency
Contracting Operations, Joint Contracting Command-Iraq/Afghanistan,
Regional Contracting Center - Fenty (Jalalabad), Afghanistan
(Report No. A-2010-0196-ALL, Issued September 21, 2010)
USAAA performed this audit at the request of the Commanding General, Joint
Contracting Command-Iraq/Afghanistan. Although the Regional Contracting
Center was successfully accomplishing its contracting mission by promptly
awarding contracts to meet customer needs, some contracts awarded in FY 2008
and first quarter FY 2009 were not properly justified, awarded, or administered.
Issues in these areas occurred because requiring activities were not sufficiently
performing short-, mid-, and long-term planning and did not have sufficient
organizational structures and procedures in place to properly monitor contractor




  124               SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




performance, and because the high operational tempo environment and other
challenges led to more emphasis being placed on awarding contracts than on
developing sound contract requirements, monitoring contractor performance,
and performing other administrative functions. In addition, improvements were
needed to make sure all contracts were properly closed out and unused funds
were deobligated.

Contracting Operations, Joint Contracting Command-Iraq/Afghanistan,
Salerno Regional Contracting Center, Afghanistan
(Report No. A-2010-0198-ALL, Issued September 21, 2010)
USAAA performed this audit at the request of the Commander, Joint
Contracting Command-Iraq/Afghanistan. Although the Regional Contracting
Center was successfully accomplishing its contracting mission by promptly
awarding contracts to meet customer needs, some contracts awarded in FY
2008 were not properly justified, awarded, or administered. Issues in these areas
occurred because (i) management oversight over operations was not sufficient,
(ii) requiring activities and the Contracting Center were not sufficiently
performing short-, mid-, and long-term planning, (iii) the requiring activity
did not have sufficient organizational structures and procedures in place to
develop high-quality contract requirements and properly monitor contractor
performance, and (iv) the high operational tempo environment and other
challenges led to more emphasis being placed on awarding contracts than on
developing sound contract requirements, monitoring contractor performance,
and performing other administrative functions.

Contracting Operations, Joint Contracting Command-Iraq/Afghanistan,
Kandahar Regional Contracting Center, Afghanistan (FOUO)
(Report No. A-2010-0135-ALL, Issued July 12, 2010)
This report is protectively marked For Official Use Only (FOUO). USAAA
performed this audit at the request of the Commander, Joint Contracting
Command-Iraq/Afghanistan. USAAA reported that, although the Regional
Contracting Center was successfully accomplishing its contracting mission by
awarding contracts in a timely manner to meet customer needs, some contracts
awarded in FY 2008 were not properly justified, awarded, or administered. Issues
in these areas occurred because (i) requiring activities and the Contracting
Center were not sufficiently performing short-, mid-, and long-term planning,
(ii) the requiring activity did not have sufficient organizational structures and
procedures in place to develop high-quality contract requirements and properly
monitor contractor performance, and (iii) the high operational tempo environ-
ment and other challenges led to more emphasis being placed on awarding
contracts than on developing sound contract requirements, monitoring contrac-
tor performance, and performing other administrative functions.




         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2010      125
OTHER AGENCY OVERSIGHT




U.S. Agency for International Development
Office of Inspector General
Review of Security Costs Charged to USAID Projects in Afghanistan
(Report No. 5-306-10-002-S, Issued September 29, 2010)
The final report was issued on September 29, 2010. The objective of the review
was to determine if a private security contractor had misused USAID funds to pay
the Taliban or others in exchange for protection. The review found that there was
no indication that the private security firm had used USAID funds to pay for pro-
tection in three projects covered by the review. However, there was a likelihood
that the Afghan subcontractors of USAID’s prime contractor on one of the three
projects, the Local Governance and Community Development (LGCD) project,
had paid insurgents for protection in remote and insecure areas of Afghanistan.
The payments were made as part of a security arrangement with local communi-
ties that very likely included the Taliban or groups that support the Taliban. There
were also indications of pervasive fraud within LGCD’s office in Jalalabad and
indications of endemic corruption in the province in which Jalalabad is located.
USAID OIG referred these findings to USAID OIG/Investigations.
   In light of these findings, USAID OIG expanded its ongoing investigation of the
LGCD fraud and worked with members of the International Contract Corruption
Task Force, SIGAR, the FBI, the local Afghanistan Prosecutor’s Office, and the
Afghanistan Major Crimes Task Force. In June 2010, the prime contractor termi-
nated 10 LGCD employees, including several engineers and other staff members
who were involved in the fraud scheme.
   The report contains four recommendations to help USAID/Afghanistan
reduce the likelihood of subcontractors misusing USAID funds to pay off Taliban
insurgents or other criminal elements and to mitigate the risk of fraud within the
LGCD project.

Audit of USAID/Afghanistan’s Alternative Development Program
Expansion, South West
(Report No. 5-306-10-011-P, Issued July 29, 2010)
The final report was issued on July 29, 2010. The objective of the audit was to
determine if USAID/Afghanistan’s $75 million Alternative Development Program
was achieving its main goal of counteracting illicit poppy cultivation by provid-
ing alternative development programs and improved economic opportunities in
selected southern and western provinces.
   The audit determined that the program is achieving its main goal of counteract-
ing illicit poppy cultivation in selected southern and western provinces. However,
the audit identified a number of issues that could affect this positive outcome.
First, the audit found that sustainability of poppy reductions may not be possible
due to: (1) a lack of a follow-on alternative development program, (2) a critical
southern province not being included in the current program, (3) the access to
markets for cereal crops (grown in lieu of poppy) is not guaranteed—nor is the



  126                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                          OTHER AGENCY OVERSIGHT




stability of cereal prices, (4) success of programs outside the mission’s control
may affect poppy cultivation and harvest, and (5) a lack of availability of water for
alternative crops. The audit also found that program had experienced significant
delays and was facing future challenges. Initial delays resulted from deteriorating
security, a shift in mission focus from northern to southern provinces, and the
lack of integration of cash-for-work activities into the overall program strategy.
While these issues had been mostly resolved at the time of the audit, changes
in how the mission obtains approval from the Department of State for funding
increases and a reorganization of the International Security Assistance Force
could adversely impact the program in the future if not properly managed. The
audit made three recommendations to keep the program on track.

ONGOING OVERSIGHT ACTIVITIES
As of September 30, 2010, the participating agencies reported 34 ongoing over-
sight activities related to reconstruction or security in Afghanistan. The activities
reported are listed in Table 4.2. This section includes all the descriptions that the
agencies provided.


TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2010
Agency           Project Number           Date Initiated    Project Title
DoD OIG          D2010-D000FL-0276.000       9/2/2010       Controls Over the Reporting and Propriety of Commander’s Emergency Response Program
                                                            Payments in Afghanistan
DoD OIG          D2010-D000JA-0165.001      6/21/2010       Implementation of Security Provisions of a U.S. Army Intelligence and Security Command
                                                            Contract for Linguist Support
DoD OIG          D2010-D000JO-0229.000      6/14/2010       Construction of the Detention Facility in Parwan, Afghanistan
DoD OIG          D2010-D000SPO-0198.000     4/19/2010       Assessment of Efforts to Train, Equip, and Mentor the Expanded Afghan National Police
DoD OIG          D2010-D000JB-0157.000       3/4/2010       Afghanistan National Army Equipment Maintenance Apprenticeship and Services Program Contract
DoD OIG          D2010-D000JA-0138.000      2/18/2010       Information Operations in Afghanistan
DoD OIG          D2010-D000FL-0100.000      2/18/2010       Internal Controls Over the Disbursing Process for Commander’s Emergency Response Program
                                                            Payments Made to Support Operations in Afghanistan
DoD OIG          D2010-D000JA-0091.000      12/9/2009       Force Protection Programs for U.S. Forces in Afghanistan
DoD OIG          D2008-D000CD-0256.000       8/7/2008       DoD Body Armor Contracts
DoS OIG-MERO     10-MERO-3021                   9/2010      Review of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction Systems
                                                            Support Program (CSSP) in Afghanistan (Contract Evaluation)
DoS OIG-MERO     10-MERO-3004                   9/2010      Review of the Bureau of Population, Refugees, and Migration (PRM) Program Effectiveness To
                                                            Reintegrate and Resettle Afghan Refugees
DoS OIG-MERO     10-MERO-3002                   2/2010      Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance
                                                            to Embassy Kabul
DoS OIG-MERO     10-MERO-3001                   2/2010      Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance
                                                            to Afghan Counter-Narcotics Units in Afghanistan
GAO              351525                     8/13/2010       DOD Task Force for Business and Stability Operations (TFBSO)
GAO              320794                     7/21/2010       Accountability of U.S. Direct Funding to Afghanistan
GAO              351514                     6/14/2010       Army Advise and Assist Brigades
GAO              351492                     4/30/2010       Personnel, Equipment, and Supply Support for Operations in Afghanistan




            REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010                       127
                                                                OTHER AGENCY OVERSIGHT



TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2010
Agency              Project Number                         Date Initiated       Project Title
GAO                 351489                                   4/26/2010          DoD Vetting in Afghanistan
GAO                 320766                                     4/1/2010         U.S. Civilian Surge in Afghanistan
GAO                 351463                                   3/12/2010          Afghanistan ISR Capabilities
GAO                 120874                                  11/12/2009          Annual Mandated Review of Contracting in Afghanistan and Iraq
GAO                 320712                                     9/2/2009         U.S. Efforts To Develop Capable Afghan National Army (ANA) Forces
GAO                 351393                                   8/21/2009          DoD Health Care Requirements for Contingency Operations
GAO                 320680                                     5/8/2009         Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
USAAA               A-2010-ALL-0568.000                        9/2/2010         Micro-Purchases of Field Ordering Officers - Afghanistan-Planning
USAAA               A-2010-ALL-0480.000                      5/21/2010          Agreed-Upon Procedures Attestation for USFOR-A LOGCAP Course of Action - Afghanistan
USAAA               A-2010-ALL-0421.000                      3/29/2010          LOGCAP IV Contract Requirements Determination-Afghanistan
USAAA               A-2010-ALL-0103.000                      2/22/2010          Controls Over Vendor Payments Phase II - Afghanistan
USAAA               A-2009-ALL-0531.000                      5/19/2009          Commander’s Emergency Response Program (CERP) - Afghanistan
USAID OIG           Not provided                             Not provided       Review of USAID/Afghanistan’s Ministerial Assessment Process
USAID OIG           Not provided                             Not provided       Audit of USAID/Afghanistan’s Water, Agriculture and Technology Transfer (AWATT) Program
USAID OIG           Not provided                             Not provided       Audit of USAID/Afghanistan’s Construction of Health and Education Facilities (CHEF) Program
USAID OIG           Not provided                             Not provided       Audit of USAID/Afghanistan’s Support to the American University of Afghanistan Activity
USAID OIG           Not provided                             Not provided       Audit of USAID/Afghanistan’s Partnership in Advancing Community Education in Afghanistan
                                                                                (PACE-A) Program
Sources: DoD OIG, response to SIGAR data call, 10/5/2010; DoS OIG-MERO, response to SIGAR data call, 10/5/2010; GAO, response to SIGAR data call, 10/4/2010; USAAA, response to SIGAR data call,
10/6/2010; USAID OIG, response to SIGAR data call, 9/29/2010.




                                                                Department of Defense Office of Inspector General
                                                                The Department of Defense (DoD) continues to face many challenges in execut-
                                                                ing its Overseas Contingency Operations (OCO), formerly known as “the Global
                                                                War on Terror.” DoD OIG has identified priorities based on those challenges and
                                                                has responded by expanding its coverage of OCO operations and its presence
                                                                in Southwest Asia. As DoD continues its OCO to include Operation Enduring
                                                                Freedom (OEF), it will stay focused on issues important to accomplish the mis-
                                                                sion and ensure the department makes efficient use of its resources to support
                                                                the warfighter.
                                                                   The DoD OIG–led Southwest Asia Joint Planning Group coordinates and
                                                                deconflicts federal and DoD OCO–related oversight activities. The Group held its
                                                                14th meeting in August 2010.
                                                                   For FY 2010, the completed and remaining ongoing OEF-related oversight
                                                                addresses the safety of personnel with regard to construction efforts, force
                                                                protection programs for U.S. personnel, accountability of property, improper
                                                                payments, contract administration, information operations, armoring capabili-
                                                                ties, and acquisition planning and controls over funding for the Afghan National
                                                                Security Forces.

                                                                Oversight Activities
                                                                For the fourth quarter of FY 2010, DoD OIG had 33 ongoing oversight activities
                                                                and issued 12 reports that support OEF. Of those 33 ongoing projects,



                                                                   128                          SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




9 directly relate to reconstruction or security operations in Afghanistan and are
incorporated in this quarterly report. Of the 12 issued reports, 4 directly relate to
reconstruction or security operations in Afghanistan and are incorporated in this
quarterly report.

Controls Over the Reporting and Propriety of Commander’s Emergency Response
Program Payments in Afghanistan
(Project No. D2010-D000FL-0276.000, Initiated September 2, 2010)
DoD OIG is determining whether the internal controls over the Commander’s
Emergency Response Program payments made to support operations in
Afghanistan are adequate. Specifically, DoD OIG will review the controls to
ensure payments are proper and that complete, accurate, and meaningful data is
reported to those decision-makers responsible for managing the Commander’s
Emergency Response Program. This audit is the second in a series of audits that
addresses the internal controls over the Commander’s Emergency Response
Program payments made to support operations in Afghanistan.

Implementation of Security Provisions of a U.S. Army Intelligence and Security
Command Contract for Linguist Support
(Project No. D2010-D000JA-0165.001, Initiated June 21, 2010)
DoD OIG is determining whether the security provisions of a U.S. Army
Intelligence and Security Command contract for linguist support in Afghanistan
(W911W4-07-D-0010) were implemented effectively. This project is one in a
series of reviews regarding linguist support in Afghanistan. Project D2010-
D000JA-0165.000 addresses whether contract for linguist support in Afghanistan
(W911W4-07-D-0010) included appropriate security provisions.

Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers and U.S.
Forces - Afghanistan procured construction services and administered the
construction contract for the Detention Facility in Parwan, Afghanistan, in accor-
dance with the Federal Acquisition Regulation and other applicable laws and
regulations. Specifically, DoD OIG will determine whether the U.S. Army Corps
of Engineers properly monitored contractor performance during construction of
the Detention Facility in Parwan and whether the U.S. Army Corps of Engineers
has taken or should take recourse against the contractor because of potential
latent defects, negligence, or fraud.

Assessment of Efforts to Train, Equip, and Mentor the Expanded
Afghan National Police
(Project No. D2010-D000SPO-0198.000, Initiated April 19, 2010)
DoD OIG is determining whether U.S. government, North Atlantic Treaty
Organization/International Security Assistance Force (NATO/ISAF), Coalition,



         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2010         129
OTHER AGENCY OVERSIGHT




and Government of the Islamic Republic of Afghanistan goals, objectives, plans,
guidance, and resources to train, equip, and mentor the Afghan National Police
are prepared, issued, operative, and relevant. DoD OIG will also determine the
status of actions taken in response to recommendations made in Department of
Defense Inspector General Report Nos. SPO-2009-006 and SPO-2009-007, as they
pertain to the Afghan National Police.

Afghanistan National Army Equipment Maintenance Apprenticeship and
Services Program Contract
(Project No. D2010-D000JB-0157.000, Initiated March 4, 2010)
DoD OIG is determining whether adequate quality assurance and quality control
procedures exist for the Afghanistan National Army Vehicle and Maintenance
Contract. Specifically, DoD OIG will determine whether government contractual
requirements have been met and adequate contract surveillance is being con-
ducted. In addition, DoD OIG will determine whether the contractor requires
additional warehouse space to effectively perform contractual tasks and whether
the contractor submitted a fair and reasonable request for equitable adjustment
for parts reimbursement.

Information Operations in Afghanistan
(Project No. D2010-D000JA-0138.000, Initiated February 18, 2010)
DoD OIG is evaluating the ability of U.S. Central Command and U.S. Forces -
Afghanistan to conduct information operations in Afghanistan. Additionally, DoD
OIG will assess the support provided by DoD organizations that enable those
commands to conduct Information Operations.

Internal Controls Over the Disbursing Process for Commander’s Emergency
Response Program Payments Made to Support Operations in Afghanistan
(Project No. D2010-D000FL-0100.000, Initiated February 18, 2010)
DoD OIG is determining whether the internal controls over the Commander’s
Emergency Response Program payments made to support operations in
Afghanistan, and processed through DoD disbursing systems, are adequate.
Specifically, it will determine whether the controls ensure the reliability of
computer-processed payment data and whether the payments are proper and
used for their intended purpose.

Force Protection Programs for U.S. Forces in Afghanistan
(Project No. D2010-D000JA-0091.000, Initiated December 9, 2009)
DoD OIG is reviewing the force protection programs for primary gathering facili-
ties and billeting areas of U.S. forces in Afghanistan. Specifically, it is assessing
the program support and resources that commanders have for facility planning,
antiterrorism, and safety programs protecting their forces. The audit is focusing on
Bagram Airfield, Kandahar Airfield, Camp Eggers, and the New Kabul Compound.




  130                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




DoD Body Armor Contracts
(Project No. D2008-D000CD-0256.000, Initiated August 7, 2008)
DoD OIG is examining the contracts and contracting process for body armor and
related test facilities. Specific objectives will include evaluating the background
and qualifications of the contractors, the criteria for awarding the contracts, the
quality assurance process, and any relationships that may exist between the con-
tractors and government officials. The review of the quality assurance process
will include reviewing the results of First Article Testing and Lot Acceptance
Testing for the body armor contracts. DoD OIG issued Report No. D-2010-029, on
December 21, 2009, discussing the contract award of DoD body armor contracts.
DoD OIG plans to issue additional reports related to this project.

Department of State Office of Inspector General–
Middle East Regional Office
Oversight Activities

Review of the Bureau of International Narcotics and Law Enforcement Affairs’
Correction Systems Support Program (CSSP) in Afghanistan (Contract Evaluation)
(Project No. 10-MERO-3021, Initiated September 2010)
Objectives: The primary objectives of this evaluation are to determine whether
(1) technical training, institutional capacity building, and leadership training for
corrections systems and Ministry of Justice officials are appropriate and effec-
tive; (2) new prison renovation and construction meets human and sustainable
standards and is being completed in a timely manner; (3) the prison classification
system separates common criminals from insurgents; (4) programs to reduce
radicalization of prisoners are effective; and (5) adequate correction facilities
exist to meet the needs of juveniles and women.

Review of the Bureau of Population, Refugees, and Migration (PRM) Program
Effectiveness to Reintegrate and Resettle Afghan Refugees
(Project No. 10-MERO-3004, Initiated September 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of agreements with UNHCR, ICRC, and NGOs;
(2) how assistance requirements were calculated; (3) whether assistance
reached intended targets; (4) if program performance measures were
established and achieved; and (5) the effectiveness of Embassy Kabul and
Provincial Reconstruction Teams to manage and coordinate the humanitarian
response in Afghanistan.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010         131
OTHER AGENCY OVERSIGHT




Review of the Department of State’s Contract with PAE to
Provide Operations and Maintenance to Embassy Kabul
(Project No. 10-MERO-3002, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of the contract and task orders; (2) the amount of
funding the Department has obligated and expended to provide embassy facil-
ity operations and maintenance through contracts for FY 2005–2009; (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Embassy Kabul; (4) PAE’s controls for inventorying, recording, and
safeguarding U.S. government-furnished equipment and property in Afghanistan,
whether the equipment has been properly accounted for, and the challenges to
maintaining accountability; (5) how well the Department administers and man-
ages the contract and task orders to provide oversight of PAE’s performance in
Afghanistan; (6) whether the contract includes FAR clause 52.222.50, which pro-
vides administrative remedies if, during the term of the contract, the contractor
or subcontractor engage in severe forms of trafficking in persons; and (7) how the
Department ensures that costs are properly allocated and supported.

Review of the Department of State’s Contract with PAE to Provide Operations and
Maintenance to Afghan Counternarcotics Units in Afghanistan
(Project No. 10-MERO-3001, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of the contract and task orders; (2) the amount of
funding the Department has obligated and expended to provide embassy facil-
ity operations and maintenance through contracts for FY 2005–2009; (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Afghan counternarcotics units in Afghanistan; (4) PAE’s controls
for inventorying, recording, and safeguarding U.S. government-furnished equip-
ment and property in Afghanistan, whether the equipment has been properly
accounted for, and the challenges to maintaining accountability; (5) how well the
Department administers and manages the contract and task orders to provide
oversight of PAE’s performance in Afghanistan; (6) whether the contract includes
FAR clause 52.222.50, which provides administrative remedies if, during the term
of the contract, the contractor or subcontractor engage in severe forms of traf-
ficking in persons; and (7) how the Department ensures that costs are properly
allocated and supported.

Government Accountability Office
During the last quarter, GAO testified before Congress on the oversight of U.S.
development assistance in Afghanistan and on U.S. counternarcotics efforts
in Afghanistan; released three reports pertaining to the training of U.S. forces,
USAID agricultural programs, and counter-IED efforts; and released a special
publication on regional and provincial poverty rates and major crop production
in Afghanistan.



  132               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    OTHER AGENCY OVERSIGHT




• The first testimony (July 15, 2010) was before the House of Representatives’
  Committee on Appropriations’ Subcommittee on State, Foreign Operations,
  and Related Programs. GAO found that several challenges confront U.S.
  development assistance programs in Afghanistan, including the “high-threat”
  working environment; the difficulties preserving institutional knowledge, due
  to the absence of a formal mechanism for retaining and sharing information
  during staff turnover; and the GIRoA ministries’ lack of capacity and cor-
  ruption challenges. Furthermore, the USAID Mission to Afghanistan has not
  consistently followed established performance management and evaluation
  procedures. In the absence of consistent application of existing performance
  management and evaluation procedures, USAID assistance programs are
  more vulnerable to corruption, fraud, waste, and abuse. To improve its
  management of development programs in Afghanistan, GAO recommended
  that the Administrator of USAID take steps to (1) ensure programs have per-
  formance indicators and targets; (2) fully assess and use program data and
  evaluations to shape current programs and inform future programs;
  (3) address preservation of institutional knowledge; and (4) improve guid-
  ance for the use and management of USAID contractors (GAO-10-932T).
• The second testimony (July 21, 2010) was before the House of
  Representatives’ Committee on Oversight and Government Reform’s
  Subcommittee on Domestic Policy. GAO found that while U.S. international
  counter-narcotics programs in Afghanistan and elsewhere support broad
  U.S. foreign policy objectives relating to security, counter-insurgency, and
  governance, they have only partially met established targets for reducing the
  supply of illegal drugs. For Afghanistan, eradication goals were not met due
  to a number of factors, including lack of political will on the part of Afghan
  central and provincial governments. In 2009, the United States revamped
  its counter-narcotics strategy in Afghanistan to deemphasize eradication
  efforts and shift to interdiction and increased agricultural assistance. For
  Afghanistan, the use of poppy cultivation and eradication statistics is the
  principal measure of effectiveness, but this does not capture all aspects of
  the counternarcotics effort in the country. For example, these measures
  overlook potential gains in security from the removal of drug operations
  from an area and do not take into account potential rises in other drug-
  related activity such as trafficking and processing of opium (GAO-10-921T).
  In an April 2010 report GAO made recommendations to improve the U.S.
  government’s ability to assess counter-narcotics goals in Afghanistan
  (GAO-10-291).
• GAO’s report on Army and Marine Corps efforts to train forces on a fuller
  range of missions to support larger deployments to Afghanistan found that
  the services face several challenges as they plan to broaden the scope and
  size of training rotations to meet future training requirements. Specifically,
  the Army projects capacity shortfalls at its combat training centers as it
  seeks to train brigade combat teams to meet future requirements for both
  ongoing operations and full-spectrum operations—offensive, defensive, and



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010      133
OTHER AGENCY OVERSIGHT




   stability operations. Until the Army finalizes its reserve-component train-
   ing strategy it will not be able to determine whether it can leverage existing
   resources to meet future training requirements, or whether any excess
   reserve-component training capacity exists. In the future, the Marine Corps
   plans to expand training to allow larger numbers of forces to train together,
   but it lacks sufficient space at its combat training center. It is considering
   alternatives for acquiring land and expects to reach a decision by FY 2012.
   GAO recommended that the Army develop a risk-assessment and mitigation
   plan to address gaps in training capacity, and assess how it can maximize
   existing resources to conduct reserve-component training called for under its
   force generation model (GAO-10-720).
• GAO’s report on USAID agricultural programs in Afghanistan found that,
   since 2008, the agency has operated without a required Mission performance
   management plan for Afghanistan. Specifically, USAID did not approve all
   implementing partner monitoring plans for the eight USAID agricultural pro-
   grams GAO reviewed; did not assure all performance indicators had targets;
   did not consistently analyze, interpret, or document program performance
   for these eight programs; and did not document decisions linking program
   performance to changes made to the duration or funding of programs. GAO
   recommended that the USAID Administrator take a number of steps to
   enhance performance planning, monitoring and evaluation, and knowledge
   transfer procedures, such as approving implementing partner performance
   indicators and targets, analyzing and interpreting program data and evalua-
   tions, and preserving institutional knowledge (GAO-10-368).
• GAO’s report on the Joint Improvised Explosive Device Defeat Organization
   (JIEDDO) found that JIEDDO needs to take additional actions to improve
   its counter-IED efforts, including developing processes for assessing the
   overall effectiveness of its counter-IED initiatives, adhering to its review
   and approval process for developing counter-IED initiatives, and address-
   ing overall internal control system weaknesses. GAO recommended that
   DOD monitor JIEDDO’s progress in improving its internal control system
   (GAO-10-660).
• GAO’s special publication on regional and provincial poverty rates and major
   crop production in Afghanistan reported that, during 2007/2008, the poverty
   rate in Afghanistan ranged from a low of 23% in the Southwest region to a
   high of 45% in the East and West-central regions. An interactive map provides
   information for 34 provinces on selected indicators, which include access to
   land, safe drinking water, health facilities, and electricity. GAO also reported
   that, between 2007 and 2008, wheat was the most frequently cited primary
   crop produced during the summer planting season, followed by opium and
   potatoes on irrigated land and cotton and barley on rain-fed land; corn,
   sorghum, and rice were grown on irrigated land during the winter planting
   season (GAO-10-756SP).
In addition, GAO began a new engagement focusing on U.S. internal controls and
oversight over U.S. direct assistance to Afghanistan.



 134               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
Oversight Activities

Micro-Purchases of Field Ordering Officers - Afghanistan-Planning
(Project Code A-2010-ALL-0568.000, Initiated September 2, 2010)
This audit will determine whether procedures for micro purchases by field
ordering officers had sufficient controls in place to justify requirements and
accountability of purchases.

Agreed-Upon Procedures Attestation for USFOR-A LOGCAP Course of
Action-Afghanistan
(Project Code A-2010-ALL-0480.000, Initiated May 21, 2010)
This attestation is being performed in Afghanistan. It will determine if the correc-
tive actions presented in the USFOR-A LOGCAP course of action decision brief
were implemented and provide assurance that requirements were processed
through the appropriate review board.

LOGCAP IV Contract Requirements Determination-Afghanistan
(Project Code A-2010-ALL-0421.000, Initiated March 29, 2010)
This audit will determine if the requirements determination and validation pro-
cesses for the LOGCAP IV contract are in place and operating as intended.

Controls Over Vendor Payments Phase II – Afghanistan
(Project Code A-2010-ALL-0103.000, Initiated February 22, 2010)
This audit will determine if the Army has effective controls to ensure the
accuracy of vendor payments for contingency operations in Southwest Asia
(Afghanistan).

Commander’s Emergency Response Program (CERP)-Afghanistan
(Project Code A-2009-ALL-0531.000, Initiated May 19, 2009)
This audit will determine if the CERP in Afghanistan had sufficient internal
controls in place to ensure commanders and unit personnel implemented the
program properly.




         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2010        135
OTHER AGENCY OVERSIGHT




U.S. Agency for International Development
Office of Inspector General
Oversight Activities
During the quarter, USAID OIG issued one financial audit covering $3.5 million in
costs incurred under a USAID agreement with Advanced Engineering Associates
International. The audit identified $12,115 in ineligible questioned costs. Also
during the quarter, four additional financial audits were being planned, were in
process, or were in the draft report phase. Afghanistan financial audits are being
performed for USAID and USAID OIG by a public accounting firm and by DCAA.

Review of USAID/Afghanistan’s Ministerial Assessment Process
Objective: To determine whether USAID/Afghanistan’s ministerial assessment
process provides reasonable assurance of identifying significant vulnerabilities
that could result in waste or misuse of U.S. government resources.

Audit of USAID/Afghanistan’s Water, Agriculture and Technology Transfer
(AWATT) Program
Objective: To determine if AWATT is achieving its main goals to help develop
Afghanistan’s agricultural institutional framework for effective management of
limited water resources and to catalyze policy reforms to provide a mechanism
for efficient use of water supply for agriculture.

Audit of USAID/Afghanistan’s Construction of Health and Education Facilities
(CHEF) Program
Objective: To determine if the activities funded under USAID/Afghanistan’s
CHEF program are achieving the program’s main goals of strengthening the
GIRoA’s ability to provide health service to its citizens and train competent teach-
ers by constructing provincial hospitals, midwife training centers, and provincial
teacher training centers.

Audit of USAID/Afghanistan’s Support to the American University of
Afghanistan Activity
Objective: To determine if USAID/Afghanistan’s support to the American
University of Afghanistan is achieving its main goals of increasing student enroll-
ment; increasing the number of qualified staff; reforming the undergraduate
curriculum; improving the school’s infrastructure; and enhancing the university’s
ability to become self-sustaining.




 136                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Partnership in Advancing Community
Education in Afghanistan (PACE-A) Program
Objective: To determine if activities funded under USAID/Afghanistan’s
Partnership in Advancing Community Education in Afghanistan Program is
achieving the program’s main goal of expanding access to primary education for
children living in remote areas of Afghanistan.

OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting
investigations in Afghanistan to monitor the progress of those investigations.
As of September 30, 2010, five open cases were being investigated by DoS OIG
Investigations (DoS OIG-INV). Table 4.3 lists the number of open and closed
investigations as of September 30, 2010.


TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
Agency                                    Open Cases                 Closed Cases     Total Cases
DoS OIG-INV                                           5                        0               5
Total                                                 5                        0               5
Source: DoS OIG-INV, response to SIGAR data call, 10/5/2010.




            REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2010      137
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and means “SIGAR.” The phrase
      along the bottom side of the seal’s center is in Pashtu and has the
      same meaning.




138   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       139
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly report-
ing and related requirements under SIGAR’s enabling legislation, the National
Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table
A.1), and to the semiannual reporting requirements prescribed for inspectors
general more generally under the Inspector General Act of 1978, as amended
(5 U.S.C. App. 3) (Table A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                   Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly       Report to the Secretary of     All sections
                        to, and be under the general supervision          State and the Secretary of
                        of, the Secretary of State and the Secretary      Defense
                        of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                          Review appropriated/           All sections
                        RECONSTRUCTION.—                                  available funds
                        It shall be the duty of the Inspector General
                        to conduct, supervise, and coordinate             Review programs,
                        audits and investigations of the treatment,       operations, contracts using
                        handling, and expenditure of amounts              appropriated/
                        appropriated or otherwise made available          available funds
                        for the reconstruction of Afghanistan, and
                        of the programs, operations, and contracts
                        carried out utilizing such funds, including—
Section 1229(f)(1)(A)   The oversight and accounting of the obliga-       Review obligations and         SIGAR
                        tion and expenditure of such funds                expenditures of appropri-      Oversight
                                                                          ated/available funds
                                                                                                         Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction       Review reconstruction          SIGAR
                        activities funded by such funds                   activities funded by appro-    Oversight
                                                                          priations and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts            Review contracts using         Note 1
                        funded by such funds                              appropriated and available
                                                                          funds
Section 1229(f)(1)(D) The monitoring and review of the transfer           Review internal and external   Appendix B
                      of such funds and associated information            transfers of appropriated/
                      between and among departments, agen-                available funds
                      cies, and entities of the United States, and
                      private and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of          Maintain audit records         SIGAR
                        such funds to facilitate future audits and                                       Oversight
                        investigations of the use of such fund[s]                                        Appendix C
                                                                                                         Appendix D




  140                      SPECIAL INSPECTOR GENERAL              I     AFGHANISTAN RECONSTRUCTION
                                                                               APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                          SIGAR Action                  Section
Section 1229(f)(1)(F)   The monitoring and review of the effective-      Monitoring and review         Audits
                        ness of United States coordination with          as described
                        the Governments of Afghanistan and
                        other donor countries in the implementa-
                        tion of the Afghanistan Compact and the
                        Afghanistan National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments such as          Conduct and reporting of      Investigations
                      duplicate payments or duplicate billing and        investigations as described
                      any potential unethical or illegal actions of
                      Federal employees, contractors, or affiliated
                      entities, and the referral of such reports, as
                      necessary, to the Department of Justice to
                      ensure further investigations, prosecutions,
                      recovery of further funds, or other remedies.
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—              Establish, maintain, and      All sections
                        The Inspector General shall establish,           oversee systems, proce-
                        maintain, and oversee such systems,              dures, and controls
                        procedures, and controls as the Inspector
                        General considers appropriate to discharge
                        the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                Duties as specified in        All sections
                        INSPECTOR GENERAL ACT OF 1978.—                  Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities
                        of inspectors general under the Inspector
                        General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                        Coordination with the         Other Agency
                        The Inspector General shall coordinate with,     inspectors general of         Oversight
                        and receive the cooperation of, each of the      DoD, DoS, and USAID
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—                 Expect support as             All sections
                      Upon request of the Inspector General for          requested
                      information or assistance from any depart-
                      ment, agency, or other entity of the Federal
                      Government, the head of such entity shall,
                      insofar as is practicable and not in con-
                      travention of any existing law, furnish such
                      information or assistance to the Inspector
                      General, or an authorized designee




           REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2010                      141
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(h)(5)(B) REPORTING OF REFUSED ASSISTANCE.—
                      Whenever information or assistance
                      requested by the Inspector General is,
                      in the judgment of the Inspector General,
                      unreasonably refused or not provided, the
                      Inspector General shall report the circum-
                      stances to the Secretary of State or the
                      Secretary of Defense, as appropriate, and to
                      the appropriate congressional committees
                      without delay.
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                               Report – 30 days after        All sections
                        Not later than 30 days after the end of each      the end of each calendar      Appendix B
                        fiscal-year quarter, the Inspector General        quarter
                        shall submit to the appropriate committees
                        of Congress a report summarizing, for the         Summarize activities of the
                        period of that quarter and, to the extent         inspector general
                        possible, the period from the end of such
                        quarter to the time of the submission of          Detailed statement of all
                        the report, the activities during such period     obligations, expenditures,
                        of the Inspector General and the activities       and revenues
                        under programs and operations funded
                        with amounts appropriated or otherwise
                        made available for the reconstruction of
                        Afghanistan. Each report shall include,
                        for the period covered by such report,
                        a detailed statement of all obligations,
                        expenditures, and revenues associated with
                        reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropri-         Obligations and expen-        Appendix B
                        ated/donated funds                                ditures of appropriated/
                                                                          donated funds
Section 1229(i)(1)(B)   A project-by-project and program-                 Project-by-project and        Funding
                        by-program accounting of the costs                program-by-program
                        incurred to date for the reconstruction of        accounting of costs. List     Note 1
                        Afghanistan, together with the estimate of        unexpended funds for each
                        the Department of Defense, the Department         project or program
                        of State, and the United States Agency for
                        International Development, as applicable,
                        of the costs to complete each project and
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting            Revenues, obligations, and    Funding
                        of funds provided by foreign nations or           expenditures of donor funds
                        international organizations to programs
                        and projects funded by any department or
                        agency of the United States Government,
                        and any obligations or expenditures of
                        such revenues




  142                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(i)(1)(D)   Revenues attributable to or consisting of for-    Revenues, obligations, and    Funding
                        eign assets seized or frozen that contribute      expenditures of funds from
                        to programs and projects funded by any U.S.       seized or frozen assets
                        government department or agency, and any
                        obligations or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities        Operating expenses of         Funding
                        receiving amounts appropriated or otherwise       agencies or any organiza-
                        made available for the reconstruction of          tion receiving appropriated   Appendix B
                        Afghanistan                                       funds
Section 1229(i)(1)(F)   In the case of any contract, grant,               Describe contract details     Note 1
                        agreement, or other funding mechanism
                        described in paragraph (2)* —
                        (i) The amount of the contract or other fund-
                        ing mechanism;
                        (ii) A brief discussion of the scope of the
                        contract or other funding mechanism;
                        (iii) A discussion of how the department or
                        agency of the United States Government
                        involved in the contract, grant, agreement,
                        or other funding mechanism identified and
                        solicited offers from potential contractors
                        to perform the contract, grant, agreement,
                        or other funding mechanism, together with
                        a list of the potential individuals or entities
                        that were issued solicitations for the offers;
                        and
                        (iv) The justification and approval
                        documents on which was based the
                        determination to use procedures other than
                        procedures that provide for full and open
                        competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                             Publish report                www.sigar.mil
                        The Inspector General shall publish on a          as directed
                        publically-available Internet website each                                      Dari and
                        report under paragraph (1) of this subsec-                                      Pashtu
                        tion in English and other languages that the                                    translation in
                        Inspector General determines are widely                                         process
                        used and understood in Afghanistan
Section 1229(i)(4)      FORM.—                                            Publish report                All sections
                        Each report required under this subsection        as directed
                        shall be submitted in unclassified form,
                        but may include a classified annex if the
                        Inspector General considers it necessary




           REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2010                       143
                                 APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                          Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                    144                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                             APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section                IG Act Language                                               SIGAR Action                                               Section
Section 5(a)(11)              A description and explanation of the reasons for              Extract pertinent information from SWA/JPG                See reports of SWA/JPG
                              any significant revised management decision                   member reports                                            members

                                                                                            Explain SIGAR audit reports in which significant          None
                                                                                            revisions have been made to management
                                                                                            decisions
Section 5(a)(12)              Information concerning any significant manage-                Extract pertinent information from SWA/JPG                See reports of SWA/JPG
                              ment decision with which the Inspector General is             member reports                                            members
                              in disagreement
                                                                                            Explain SIGAR audit reports in which SIGAR                No disputed decisions
                                                                                            disagreed with management decision                        during the reporting period
Section 5(a)(13)              Information described under Section 804 [sic] of              Extract pertinent information from SWA/JPG                See reports of SWA/JPG
                              the Federal Financial Management Improvement                  member reports                                            members
                              Act of 1996 (instances and reasons when an
                              agency has not met target dates established in a              Provide information where management has not              No disputed
                              remediation plan)                                             met targets from a remediation plan                       decisions during the report-
                                                                                                                                                      ing period
Section 5(a)(14)(A)           An Appendix containing the results of any peer                SIGAR has posted in full the results of, and              Posted in full at
                              review conducted by another Office of Inspector               reports from, SIGAR’s most recent peer reviews            www.sigar.mil
                              General during the reporting period; or                       (completed during July 2010, prior to the current
                                                                                            reporting period), on its Web site
Section 5(a)(14)(B)           If no peer review was conducted within that report- 15 July 2010                                                        Posted in full at
                              ing period, a statement identifying the date of the                                                                     www.sigar.mil
                              last peer review conducted by another Office of
                              Inspector General
Section 5(a)(15)              A list of any outstanding recommendations from                None – all peer review recommendations                    Recommendations and
                              any peer review conducted by another Office of                effectively addressed, and remedial measures              related materials posted in
                              Inspector General that have not been fully imple-             implemented, by 30 September 2010                         full at www.sigar.mil
                              ment, including a statement describing the status
                              of the implementation and why implementation is
                              not complete
Section 5(a)(16)              Any peer reviews conducted by SIGAR of another                Not applicable (SIGAR did not conduct, or                 SIGAR Oversight
                              IG Office during the reporting period, including a            participate in the conduct, of a peer review of
                              list of any outstanding recommendations made                  another Office of Inspector General during the
                              from any previous peer review . . . that remain               reporting period)
                              outstanding or have not been fully implemented


Note 1: Although this data is normally made available on SIGAR’s Web site (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being reviewed,
analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use of
amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes:

To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




               REPORT TO THE UNITED STATES CONGRESS                               I   OCTOBER 30, 2010                        145
                                                             APPENDICES


                                                             APPENDIX B
                                                             U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                             Table B.1 lists appropriated funds by program, per year, for Afghanistan
                                                             reconstruction efforts.

                                                             TABLE B.1


                                                              U.S. FUNDING SOURCES                                                                    TOTAL
                                                              SECURITY
                                                              Afghanistan Security Forces Fund (ASFF)                            DoD                 27,833.24
                                                              Train & Equip (DoD)                                                DoD                    440.00
                                                              Foreign Military Financing (FMF)                                   DoS                  1,058.50
                                                              International Military Education and Training (IMET)               DoS                      8.30
                                                              NDAA Section 1207 Transfer                                         Other                    9.90
                                                              Total: Security                                                                      29,349.94
                                                              GOVERNANCE & DEVELOPMENT
                                                              Commander's Emergency Response Program (CERP)                      DoD                 2,639.00
                                                              Economic Support Fund (ESF)                                        USAID              11,143.41
                                                              Development Assistance (DA)                                        USAID                 885.21
                                                              Afghanistan Freedom Support Act (AFSA)                             DoD                   550.00
                                                              Child Survival & Health (CSH + GHAI)                               USAID                 486.42
                                                              Commodity Credit Corp (CCC)                                        USAID                  30.09
                                                              Freedom Support Act (FSA)                                          USAID                   5.00
                                                              USAID (other)                                                      USAID                  34.27
                                                              Non-Prolif, Antiterrorism, Demining, & Related (NADR)              DoS                   371.60
                                                              Provincial Reconstruction Team Advisors                            USDA                    5.70
                                                              Treasury Technical Assistance                                      Treasury                3.52
                                                              Total: Governance & Development                                                      16,154.22
                                                              COUNTER-NARCOTICS
                                                              International Narcotics Control & Law Enforcement (INCLE)          DoS                  2,853.75
                                                              Drug Interdiction & Counter-Drug Activities, (DoD CN)              DoD                  1,511.17
                                                              Drug Enforcement Administration (DEA)                              DoJ                    127.37
                                                              Total: Counter-Narcotics                                                              4,492.29
                                                              HUMANITARIAN
                                                              P.L. 480 Title I                                                   USDA                    5.00
                                                              P.L. 480 Title II                                                  USAID                 701.21
                                                              Disaster Assistance (IDA)                                          USAID                 372.53
                                                              Transition Initiatives (TI)                                        USAID                  34.44
                                                              Migration and Refugee Assistance (MRA)                             DoS                   590.10
                                                              Voluntary Peacekeeping (PKO)                                       DoS                    69.30
                                                              Emergency Refugee & Migration Assistance (ERMA)                    DoS                    25.20
                                                              Food for Progress                                                  USDA                  109.49
Notes: Numbers affected by rounding. Updated data resulted    416(b) Food Aid                                                    USDA                   95.18
in a higher appropriation figure for FY 2009 than reported
last quarter.                                                 Food for Education                                                 USDA                   50.49
Sources: DoD, response to SIGAR vetting, 10/22/2010; DoD,
                                                              Emerson Trust                                                      USDA                   22.40
responses to SIGAR data call 10/20/2010, 10/15/2010,          Total: Humanitarian                                                                   2,075.34
10/6/2010, 10/14/2009, and 10/1/2009; FY 2010
Supplemental; FY 2010 Defense Explanatory Statement;          INTERNATIONAL AFFAIRS OPERATIONS
DoS, responses to SIGAR data call, 10/15/2010 and
10/12/2010; Treasury, response to SIGAR data call,
                                                              Oversight                                                                                 76.40
10/12/2010; OMB, responses to SIGAR data call,                Other                                                                                  3,955.80
10/19/2010 and 4/19/2010; USAID, responses to SIGAR
data call, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ,         Total: International Affairs Operations                                               4,032.20
response to SIGAR data call, 7/7/2009; USDA, response to
SIGAR data call, 4/2009.                                      TOTAL FUNDING                                                                        56,103.99




                                                               146                       SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                     APPENDICES




FY 2002     FY 2003       FY 2004            FY 2005       FY 2006        FY 2007      FY 2008     FY 2009       FY 2010

    0.00         0.00          0.00            995.00       1,908.13        7,406.40    2,750.00     5,606.94     9,166.77
    0.00         0.00        150.00            290.00           0.00            0.00        0.00         0.00         0.00
   57.00       191.00        413.70            396.80           0.00            0.00        0.00         0.00         0.00
    0.20         0.30          0.60              0.80           0.80            1.10        1.60         1.40         1.50
    0.00         0.00          0.00              0.00           0.00            0.00        9.90         0.00         0.00
  57.20       191.30        564.30           1,682.60      1,908.93        7,407.50    2,761.50     5,608.34     9,168.27

    0.00         0.00          40.00            136.00           215.00       209.00      488.33       550.67     1,000.00
  117.51       239.29         893.88          1,280.57           473.39     1,210.71    1,399.51     2,182.55     3,346.00
   18.30        42.54         153.14            169.58           185.01       166.81      149.43         0.40         0.00
    0.00       165.00         135.00            250.00             0.00         0.00        0.00         0.00         0.00
    7.52        49.68          33.40             38.00            41.45       100.77       63.07        58.23        94.30
    7.30         1.33           0.00              0.00             0.00         0.00       13.02         4.22         4.22
    0.00         0.00           5.00              0.00             0.00         0.00        0.00         0.00         0.00
    0.00         0.50           5.00              0.00             0.00         0.00       22.32         3.55         2.90
   44.00        34.70          66.90             38.20            18.20        36.60       26.60        48.60        57.80
    0.00         0.00           0.00              0.00             0.00         0.00        0.00         5.70         0.00
    0.00         1.00           0.06              0.95             0.19         0.13        0.75         0.44         0.00
 194.63       534.04       1,332.38          1,913.30           933.24     1,724.02    2,163.03     2,854.36     4,505.22

   60.00          0.00       220.00            709.28            232.65      251.74      307.08       484.00       589.00
    0.00          0.00        71.80            224.54            108.05      290.97      189.64       235.06       391.11
    0.58          2.87         3.72             16.77             23.66       20.38       40.59        18.80         0.00
  60.58          2.87       295.52            950.59            364.36      563.09      537.31       737.86       980.11

    0.00         5.00           0.00              0.00             0.00         0.00       0.00          0.00         0.00
  159.50        46.10          49.20             56.60            60.00        60.00     177.00         65.41        27.40
  197.09        85.77          11.16              4.22             0.04         0.03      17.01         27.28        29.93
    8.07        11.69          11.22              1.60             0.00         0.00       0.00          0.87         0.99
  135.47        61.50          63.30             47.10            36.00        53.80      44.25         76.79        71.89
   23.90         9.90          20.00             15.50             0.00         0.00       0.00          0.00         0.00
   25.00         0.00           0.00              0.00             0.00         0.00       0.00          0.20         0.00
    0.00         4.96           9.08             30.10            23.24         9.47      20.55         12.09         0.00
   46.46        14.14          34.58              0.00             0.00         0.00       0.00          0.00         0.00
    0.00         9.27           6.12             10.02            25.08         0.00       0.00          0.00         0.00
    0.00         0.00           0.00              0.00             0.00         0.00      22.40          0.00         0.00
 595.49       248.33        204.66            165.14            144.36      123.30      281.21       182.64       130.21

    0.00          0.00         0.00              0.00              0.00        2.50       14.30         25.20        34.40
  155.60         35.30       207.60            136.10            131.90      207.80      434.40      1,047.60     1,599.50
 155.60         35.30       207.60            136.10            131.90      210.30      448.70      1,072.80     1,633.90
1,063.50     1,011.84      2,604.46          4,847.73      3,482.79       10,028.21    6,191.75    10,456.00    16,417.71




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2010              147
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
During this reporting period, SIGAR completed seven audits, as listed in Table C.1.

TABLE C.1

COMPLETED SIGAR AUDITS AS OF OCTOBER 30, 2010
Report Identifier   Report Title                                                                     Date Issued
SIGAR-Audit-11-5    Actions Needed To Mitigate Inconsistencies in and Lack of Safeguards over       10/29/2010
                    U.S. Salary Support to Afghan Government Employees and Technical Advisors
SIGAR-Audit-11-4    DoD, DoS, and USAID Obligated Over $17.7 Billion to as Many as 6,900            10/27/2010
                    Contractors and Other Entities for Afghanistan Reconstruction during Fiscal
                    Years 2007–2009
SIGAR-Audit-11-3    ANP District Headquarters Facilities in Helmand and Kandahar Provinces          10/27/2010
                    Contain Significant Construction Deficiencies Due to Lack of Oversight and
                    Poor Contractor Performance
SIGAR-Audit-11-2    U.S. Civilian Uplift in Afghanistan Is Progressing, but Some Key Issues Merit   10/26/2010
                    Further Examination as Implementation Continues
SIGAR-Audit-11-1    Weaknesses in Reporting and Coordination of Development Assistance and          10/26/2010
                    Lack of Provincial Capacity Pose Risks to U.S. Strategy in Nangarhar Province
SIGAR-Audit-10-16   Lessons Learned in Preparing and Conducting Elections in Afghanistan               9/9/2010
SIGAR-Audit-10-15   U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized          8/5/2010
                    Comprehensive U.S. Anti-Corruption Strategy




New Audits
During this reporting period, SIGAR initiated six new audits, as listed in Table C.2.

TABLE C.2


NEW SIGAR AUDITS AS OF OCTOBER 30, 2010
Audit Identifier    Project Title                                                                   Date Initiated
SIGAR-36A           Review of U.S. and International Donor Assistance for Development of the        10/18/2010
                    Afghan Banking Sector and Afghan Currency Control Systems
SIGAR-35A           Review of U.S. Assistance To Develop Afghanistan’s Agricultural Sector          10/15/2010
SIGAR-34A           Joint Audit with Department of State Office of Inspector General to Review      10/14/2010
                    Aspects of the Civilian Uplift, Including Sustainability of the Deployment
SIGAR-33A           Implementation of the Defense Base Act Insurance Program for Contractors in       8/26/2010
                    Afghanistan
SIGAR-32A           U.S. Efforts To Strengthen the Capabilities of the Afghan Major Crimes Task       8/24/2010
                    Force
SIGAR-31A           Review of Afghan National Army Logistics                                          8/11/2010




  148                   SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




Ongoing Audits
SIGAR has eight audits in progress, as listed in Table C.3.
TABLE C.3


ONGOING SIGAR AUDITS AS OF OCTOBER 30, 2010
Audit Identifier    Project Title                                                                  Date Initiated
SIGAR-030A          Review of Selected CERP Projects in Afghanistan                                  7/19/2010
SIGAR-029A          Review of USAID’s Cooperative Agreement with CARE International for the          7/15/2010
                    Food Insecurity Response for Urban Populations of Kabul (FIRUP-K) Program
SIGAR-028A          Planning for ANSF Facilities                                                     7/14/2010
SIGAR-013A          Review of Afghan National Police (ANP) Personnel Management                      6/25/2010
SIGAR-017A          Contract Audit: Reconstruction Security Support Services from Global             6/14/2010
                    Strategies Group Inc.
SIGAR-025A          Review of U.S. Air Force Center for Engineering and the Environment               5/5/2010
                    Infrastructure Projects in Herat and in Mazar-e Sharif
SIGAR-023A          Review of Afghanistan’s National Solidarity Program                              4/13/2010
SIGAR-009A          Review of U.S. Agencies’ Use of Contractors To Provide Security for              7/31/2009
                    Reconstruction Programs in Afghanistan




Forensic Audits
SIGAR has three forensic audits in progress, as listed in Table C.4.

TABLE C.4


SIGAR FORENSIC AUDITS AS OF OCTOBER 30, 2010
Audit Identifier    Project Title                                                                  Date Initiated
SIGAR-27A           Forensic Review of Department of State Transaction Data Related to               6/24/2010
                    Afghanistan Reconstruction
SIGAR-26A           Forensic Review of U.S. Agency for International Development (USAID)             6/24/2010
                    Transaction Data Related to Afghanistan Reconstruction
SIGAR-22A           Forensic Review of Afghanistan Security Forces Fund Transaction Data (Pilot)     2/25/2010




            REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2010                      149
                                                           APPENDICES




FIGURE D.1

SIGAR INVESTIGATIONS: NEW CASES,
                                                           APPENDIX D
JULY 1–OCTOBER 30, 2010
                                                           SIGAR INVESTIGATIONS AND HOTLINE

                         Total: 32
                                                           SIGAR Investigations
                                                           This reporting period, SIGAR opened 32 new investigations and closed 6, bring-
                                                           ing the total of open investigations to 81. Of those open investigations, most
                                                           involve corruption and procurement/contract fraud, as shown in Figure D.1. Of
                    Public Corruption                      the closed investigations, most lacked prosecutive merit or did not use recon-
                    17
                                                           struction money, as shown in Figure D.2.
                                                   Civil
                                                   1
    Other                                                  FIGURE D.2
                      Procurement/               Theft
    1
                      Contract Fraud             2
                      11                                   SIGAR INVESTIGATIONS: CLOSED CASES, JULY 1–OCTOBER 30, 2010

Source: SIGAR Investigations Directorate.                                                                                                  Total: 6


                                                             Lack of Prosecutive Merit                                                                                       3
                                                           Not Reconstruction Money                                                                       2
                                                               Allegations Unfounded                                        1

                                                                                         0                              1                             2                  3

                                                           Source: SIGAR Investigations Directorate.




                                                           SIGAR Hotline
FIGURE D.3                                                 Of the 125 Hotline complaints received last quarter, most were submitted by
                                                           e-mail or telephone, as shown in Figure D.3. Of these complaints, most were
SOURCE OF SIGAR HOTLINE COMPLAINTS,
                                                           closed, referred to other agencies, or assigned, as shown in Figure D.4.
JULY 1–SEPTEMBER 30, 2010

                                                           FIGURE D.4
                        Total: 125
                                                           STATUS OF SIGAR HOTLINE COMPLAINTS, JULY 1–SEPTEMBER 30, 2010

                                                                                                                                Total: 125
                         E-mail
                         85
                                                                   Closed                                                                                          69
                                                             Referred Out                                          27
                                  Phone
                                  27                            Assigned                                    22
                                                           Coordinationa                7

              Walk-in              Written (not e-mail)                                                20                          40                         60             80
              12                   1
                                                           a. Case has been reviewed, and SIGAR is obtaining additional information.
                                                           Source: SIGAR Investigations Directorate.
Source: SIGAR Investigations Directorate.




                                                              150                            SPECIAL INSPECTOR GENERAL                 I    AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
      ACRONYM OR
     ABBREVIATION      DEFINITION
                AAF    Afghan Air Force
                ABP    Afghan Border Police
                ACU    Anti-Corruption Unit
            ADP/SW     Alternative Development Program South-West
                AED    Afghanistan Engineering District
              AFCEE    Air Force Center for Engineering and the Environment
                 AIF   Afghan Infrastructure Fund
                ALP    Afghan Local Police
             AMDEP     Afghanistan Media Development and Empowerment Project
                ANA    Afghan National Army
              ANCOP    Afghan National Civil Order Police
              ANDS     Afghanistan National Development Strategy
                ANP    Afghan National Police
               ANSF    Afghan National Security Forces
               APRP    Afghanistan Peace and Reintegration Program
                ARP    Afghanistan Reintegration Program
               ARTF    Afghanistan Reconstruction Trust Fund
               ASFF    Afghanistan Security Forces Fund
               ASIU    Afghan Shafafiyat Investigative Unit
                AUP    Afghan Uniform Police
               AVIPA   Afghanistan Vouchers for Increased Productive Agriculture
               AWOL    absent without leave
                CAO    Control and Audit Office (Afghan)
            CENTCOM    Central Command (U.S.)
               CERP    Commander’s Emergency Response Program
               CIGIE   Council of the Inspectors General on Integrity and Efficiency
                 CM    Capability Milestone
              CNTPO    Counter-Narcoterrorism Technology Program Office (U.S.)
               COIN    counter-insurgency
               CSSP    Correctional System Support Program
             CSTC-A    Combined Security Transition Command - Afghanistan
               CUAT    Commander’s Unit Assessment Tool
                DAB    Da Afghanistan Bank
               DABS    Da Afghanistan Breshna Sherkat (national electric company)
             DANIDA    Danish International Development Agency
                DBA    Defense Base Act
               DFAS    Defense Finance and Accounting Services (U.S.)
                DoD    Department of Defense (U.S.)
             DoD CN    Department of Defense Counternarcotics (U.S.)
            DoD OIG    Department of Defense Office of Inspector General (U.S.)




    REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2010                   151
APPENDICES




           ACRONYM OR
          ABBREVIATION            DEFINITION
                          DoS     Department of State (U.S.)
                      DoS OIG     Department of State Office of Inspector General (U.S.)
                         DSCA     Defense Security Cooperation Agency (U.S.)
                           DST    District Support Team
                          ECC     Electoral Complaints Commission (Afghan)
                         ELECT    Enhancing Legal and Electoral Capacity for Tomorrow (UN)
                           ESF    Economic Support Fund
                           FAO    Food and Agriculture Organization (UN)
                           FBI    Federal Bureau of Investigation (U.S.)
                     FinTRACA     Financial Transaction and Reports Analysis Center of Afghanistan
                           FIU    financial intelligence unit
                       FIRUP-K    Food Insecurity Response for Urban Populations of Kabul
                          FMS     Foreign Military Sales
                          FOB     Forward Operating Base
                         FOUO     For Official Use Only
                            FY    fiscal year
         FY 2010 Consolidated     FY 2010 Departments of Transportation and Housing and Urban Development,
             Appropriations Act   and Related Agencies Appropriations Act
FY 2010 DoD Appropriations Act    FY 2010 Department of Defense Appropriations Act
        FY 2010 Supplemental      FY 2010 Supplemental Appropriations Act
                          GAO     Government Accountability Office (U.S.)
                        GIRoA     Government of the Islamic Republic of Afghanistan
                        Global    Global Strategies Group
                        HCMS      SIGAR Hotline and Complaints Management System
                            HF    High Frequency
                          HOO     High Office of Oversight for Anti-Corruption (Afghan)
                          IDLG    Independent Directorate of Local Governance (Afghan)
                           IDP    internally displaced person
                           IEC    Independent Election Commission (Afghan)
                           IED    improvised explosive device
                            IJC   International Security Assistance Force Joint Command
                           ILO    International Labor Organization
                           IMF    International Monetary Fund
                         INCLE    International Narcotics Control and Law Enforcement
                           INL    Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
                          ISAF    International Security Assistance Force
                       JCC-I/A    Joint Contracting Command-Iraq/Afghanistan
                          JRAC    Joint Regional Afghan Security Forces Compound
                          JSSP    Justice Sector Support Program
                         LARA     Land Reform in Afghanistan (project)
                         LGCD     Local Governance and Community Development
                         LOTFA    Law and Order Trust Fund for Afghanistan
                         LTERA    Land Titling and Economic Restructuring Initiative
                          MAIL    Ministry of Agriculture, Irrigation, and Livestock (Afghan)




152                      SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                            APPENDICES




 ACRONYM OR
ABBREVIATION        DEFINITION
           MCTF     Major Crimes Task Force (Afghan)
            MoD     Ministry of Defense (Afghan)
            MoE     Ministry of Education (Afghan)
            MoF     Ministry of Finance (Afghan)
             MoI    Ministry of Interior (Afghan)
            MoM     Ministry of Mines (Afghan)
           MoPH     Ministry of Public Health (Afghan)
          MoTCA     Ministry of Transportation and Civil Aviation (Afghan)
          NAPWA     National Action Plan for Women of Afghanistan
          NATC-A    NATO Air Training Command - Afghanistan
           NATO     North Atlantic Treaty Organization
            NCO     non-commissioned officer
            NGO     non-governmental organization
          NTM-A     NATO Training Mission - Afghanistan
            OCO     Overseas Contingency Operations
             OEF    Operation Enduring Freedom
            OPIC    Overseas Private Investment Corporation
            OSD     Office of the Secretary of Defense (U.S.)
             OTA    Office of Technical Assistance (U.S.)
            PDC     Provincial Development Committee
             PDY    present for duty
            PRM     Bureau of Population, Refugees, and Migration (U.S.)
             PRT    Provincial Reconstruction Team
            PSC     private security contractor
             PST    Provincial Support Team
              RC    Regional Command (ISAF)
       RC Window    Recurrent Cost Window
          SIGAR     Special Inspector General for Afghanistan Reconstruction
           SMDC     U.S. Army Space and Missile Defense Command
            TAPI    Turkmenistan-Afghanistan-Pakistan-India (natural gas pipeline)
          TFBSO     Task Force on Business and Stability Operations in Afghanistan
         Treasury   Department of the Treasury (U.S.)
             U.K.   United Kingdom (adj.)
              UN    United Nations
         UNAMA      UN Assistance Mission in Afghanistan
           UNDP     UN Development Programme
         UNODC      UN Office on Drugs and Crime
             U.S.   United States (adj.)
          USAAA     U.S. Army Audit Agency
          USACE     U.S. Army Corps of Engineers
          USAID     U.S. Agency for International Development
       USAID OIG    USAID Office of Inspector General
        USFOR-A     U.S. Forces - Afghanistan
             VHF    Very High Frequency




REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2010                 153
                                                            ENDNOTES




1.    COMISAF, “Counterinsurgency (COIN) Contracting Guidance,” 9/8/2010.
2.    COMISAF, “Counterinsurgency (COIN) Contracting Guidance,” 9/8/2010.
3.    COMISAF, “Counterinsurgency (COIN) Contracting Guidance,” 9/8/2010
4.    COMISAF, “Counterinsurgency (COIN) Contracting Guidance,” 9/8/2010.
5.    Task Force 2010, SIGAR briefing, 9/28/2010.
6.    Task Force 2010, SIGAR briefing, 9/28/2010.
7.    IJC, SIGAR briefing, 9/27/2010.
8.    U.S. Embassy Kabul, SIGAR briefing, 9/27/2010.
9.    U.S. Embassy Kabul, SIGAR briefing, 9/29/2010.
10.   SIGAR, Audit 11-3, “ANP District Headquarters Facilities in Helmand and Kandahar Provinces Contain Significant Construction Deficiencies
      Due to Lack of Oversight and Poor Contractor Performance,” 10/27/2010.
11.   These figures take into account the passage of the FY 2010 Supplemental Appropriation.
12.   H.R. 4173, “Dodd-Frank Wall Street Reform and Consumer Protection Act,” signed into law on July 21, 2010, includes a provision (Section
      989C) that requires the Offices of Inspector General to disclose their peer review activity in their semiannual reports. The Peer Reviews of
      SIGAR’s Audit and Investigations Directorates were posted to SIGAR’s Web site immediately upon their issuance, before the passage of this
      Act.
13.   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
14.   DoD, response to SIGAR vetting, 7/20/2010.
15.   H.R. 4899, FY 2010 Supplemental Appropriations Bill, 7/29/2010.
16.   DoD, response to SIGAR data call, 10/15/2010.
17.   DoD, response to SIGAR data call, 10/15/2010.
18.   DoD, response to SIGAR data call, 10/15/2010.
19.   DoD, response to SIGAR data call, 10/15/2010.
20.   DoD, response to SIGAR data call, 10/15/2010.
21.   DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
22.   DoD, response to SIGAR vetting, 4/21/2010.
23.   DoD, “Defense Explanatory Statement,” p. 405.
24.   See Appendix B of this report.
25.   DoD, response to SIGAR data call, 7/15/2010.
26.   DoD, response to SIGAR data call, 7/15/2010.
27.   DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed online 4/13/2010.
28.   See Appendix B of this report; DoD, response to SIGAR data call, 10/22/2010.
29.   DoD, response to SIGAR data call, 10/6/2010.
30.   DoD, response to SIGAR vetting, 7/16/2009.
31.   H.R. 4899, FY 2010 Supplemental Appropriations Bill, 7/29/2010.; H.R. 111-366, “Departments of Transportation and Housing and Urban
      Development, and Related Agencies Appropriations Act, 2010,” p. 3; See Appendix B of this report.
32.   USAID, response to SIGAR data call, 10/15/2010.
33.   USAID, response to SIGAR data call, 10/15/2010.
34.   DoS, response to SIGAR data call, 10/13/2009.
35.   H.R. 4899, FY 2010 Supplemental Appropriations Bill, 7/29/2010.
36.   See Appendix B of this report.
37.   DoS, response to SIGAR data call, 10/15/2010.
38.   DoS, response to SIGAR data call, 10/15/2010.
39.   SIGAR Audit-11-5, “Actions Needed To Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary Support to Afghan Government
      Employees and Technical Advisors,” 10/29/2010.
40.   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
41.   World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2010,” 9/22/2010, p. 6.
42.   World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2010,” 9/22/2010, p. 4.
43.   World Bank, “Quarterly Country Update: Afghanistan,” 10/2010, p. 16.
44.   World Bank, “Quarterly Country Update: Afghanistan,” 10/2010, p. 17.
45.   UNDP, “Law and Order Trust Fund for Afghanistan, 2nd Quarter Project Progress Report (April–June 2010),” 6/30/2010, pp. 16–17.
46.   UNDP, “Law and Order Trust Fund for Afghanistan, 2nd Quarter Project Progress Report (April–June 2010),” 6/30/2010, p. 1.
47.   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 53.
48.   INL, “Afghan National Police Update,” 10/1/2010.
49.   UN, “Report of the Secretary-General: The Situation in Afghanistan and its Implication for International Peace and Security,” 9/14/2010, pp. 4–5,
      accessed online 9/28/2010.
50.   See Appendix B of this report.




                                                    154                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




51.    CSTC-A, response to SIGAR data call, 10/4/2010; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010; ISAF, PERSTAT, 10/5/2010.
52.    NTM-A, “No Trainers, No Transition: Address to the NATO Military Committee,” 9/27/2010, accessed online 10/11/2010.
53.    NTM-A, “No Trainers, No Transition: Address to the NATO Military Committee,” 9/27/2010, accessed online 10/11/2010.
54.    ISAF, “COMISAF’s Counter-insurgency Guidance,” 8/1/2010, accessed online 9/17/2010.
55.    GIRoA, “President Karzai Urges for Strategic Review of the Anti-terror Approach,” 8/17/2010, accessed online 9/13/2010.
56.    GIRoA, “Long-Term U.S.-Afghan Strategic Partnership Document To Be Prepared in Three Months,” 10/4/2010, accessed online 10/12/2010.
57.    Germany, Federal Ministry of Defense, “Tornado Reconnaissance Aircraft To Be Withdrawn from Afghanistan,” 9/23/2010, accessed online
       10/10/2010; Netherlands, Ministry of Defense, “Redeployment Task Force,” accessed online 10/10/2010.
58.    DoD, “Mullin Expresses Confidence in U.S.-Pakistan Relationship,” 10/3/2010, accessed online, 10/10/2010.
59.    U.S. Embassy Islamabad, “Ambassador Patterson Apologized for the Accidental Deaths of Pakistani Frontier Scouts,” 10/6/2010, accessed
       online 10/16/2010; U.S. Embassy Islamabad, “U.S. Chairman of the Joint Chiefs of Staff Expresses Condolences to Pakistan’s Chief of Army
       Staff,” 10/7/2010, accessed online 10/16/2010.
60.    GIRoA, Office of the President, “Joint Statement Between Pakistan and Afghanistan on Strengthening the Partnership,” 9/15/2010, accessed
       online 9/16/2010.
61.    ISAF, “COMISAF, Afghan President, and Pakistan Chief of Army Staff Meet,” 9/16/2010, accessed online 9/16/2010.
62.    DoD, “Mullin Expresses Confidence in U.S.-Pakistan Relationship,” 10/3/2010, accessed online, 10/10/2010.
63.    DoD, “Attacks Down, Voting Up in Afghan Elections,” 9/20/2010, accessed online 9/21/2010.
64.    UN, “Report of the Secretary-General: The Situation in Afghanistan and its Implication for International Peace and Security,” 9/14/2010, p. 4,
       accessed online 9/28/2010.
65.    IEC, “Figures,” 9/28/2010.
66.    DoD, “Pentagon, Karzai Work To Disband Security Companies,” 8/17/2010, accessed online 10/11/2010.
67.    DoS, response to SIGAR data call, 10/4/2010.
68.    DoD, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,” CENTCOM, 9/2010.
69.    UNAMA, “Mid-Year Report on Protection of Civilians in Armed Conflict 2010,” 8/2010, accessed online 9/14/2010.
70.    UNAMA, “Mid-Year Report on Protection of Civilians in Armed Conflict 2010,” 8/2010, accessed online 9/14/2010.
71.    CSTC-A, response to SIGAR data call, 10/4/2010; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
72.    ISAF-IJC, ANA PERSTAT, 9/30/2010.
73.    CSTC-A, response to SIGAR data call, 10/4/2010.
74.    NTM-A/CSTC-A, “Afghan Air Training Command Established,” 9/7/2010, accessed online 9/13/2010.
75.    NTM-A/CSTC-A, “Croatian Advisors Join NATO Air Training Command-Afghanistan,” 9/10/2010, accessed online 9/13/2010.
76.    CSTC-A, response to SIGAR data call, 10/4/2010.
77.    NTM-A, “New Female Lieutenants Commissioned into Afghan Army,” 9/23/2010, accessed online 10/1/2010.
78.    CSTC-A, response to SIGAR data call, 10/4/2010.
79.    CSTC-A, response to SIGAR data call, 10/4/2010.
80.    CSTC-A, response to SIGAR data call, 7/6/2010.
81.    CSTC-A, response to SIGAR data call, 10/4/2010.
82.    OSD, response to SIGAR data call, 10/7/2010.
83.    CSTC-A, response to SIGAR data call, 10/4/2010; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
84.    ISAF, PERSTAT, 10/5/2010; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
85.    IJC, “PERSTAT: Non-Tashkil Units,” 9/5/2010.
86.    ISAF, PERSTAT, 10/5/2010.
87.    ISAF, “ANP Attrition 1389,” 8/21/2010; NTM-A/CSTC-A, “ANP Manpower Terms of Reference,” 9/12/2010.
88.    ISAF, “ANP Recruiting October 2009 through August 2010,” 8/2010.
89.    NTM-A, “Afghan Police Operating at International Level,” 9/26/2010, accessed online 10/1/2010.
90.    DoD, response to SIGAR data call, 10/14/2010.
91.    DoD, response to SIGAR data call, 10/14/2010.
92.    DoD, response to SIGAR data call, 10/14/2010.
93.    NTM-A/CSTC-A, response to SIGAR data call, 10/4/2010.
94.    CSTC-A, response to SIGAR data call, 10/4/2010.
95.    CSTC-A, response to SIGAR data call, 10/4/2010.
96.    NTM-A, “Elite Afghan Police Unit Deploys South With New Uniforms,” 8/17/2010; NTM-A, response to SIGAR data call, 7/6/2010.
97.    CSTC-A, response to SIGAR data call, 10/4/2010.
98.    CSTC-A, response to SIGAR data call, 10/4/2010.
99.    CSTC-A, response to SIGAR data call, 10/4/2010; OSD, response to SIGAR data call, 7/16/2010.
100.   CSTC-A, response to SIGAR data call, 10/13/2010.
101.   CSTC-A, response to SIGAR data call, 10/4/2010.
102.   NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
103.   CSTC-A, response to SIGAR data call, 10/4/2010.




        REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2010                  155
                                                            ENDNOTES




104.   OSD, response to SIGAR data call, 10/7/2010.
105.   OSD, response to SIGAR data call, 10/7/2010.
106.   CENTCOM, response to SIGAR data call, 10/4/2010.
107.   DoD, “Operation Enduring Freedom U.S. Casualty Status,” 10/18/2010.
108.   DoD, “Operation Enduring Freedom U.S. Casualty Status,” 10/18/2010.
109.   SIGAR, Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. ii.
110.   ISAF, “ANSF Evaluation Roundtable,” 9/27/2010.
111.   OSD, response to SIGAR data call, 7/16/2010.
112.   ISAF, “ANSF Evaluation Roundtable,” 9/27/2010.
113.   SIGAR, Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. 7.
114.   ISAF, “ANSF Evaluation Roundtable,” 9/27/2010.
115.   SIGAR, Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. 8.
116.   ISAF, “ANSF Evaluation Roundtable,” 9/27/2010.
117.   SIGAR, Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, pp. 5–6.
118.   ISAF, “ANSF Evaluation Roundtable,” 9/27/2010.
119.   See Appendix B of this report.
120.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 7.
121.   IEC, “Key Dates,” accessed online 9/15/2010.
122.   IEC, “Afghanistan 2010 Wolesi Jirga Election Partial Preliminary Results,” accessed online 9/30/2010; IEC, “Homepage,” accessed online
       9/30/2010.
123.   IEC, “Key Dates,” accessed online 9/15/2010.
124.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/14/2010, p. 2; DoS, response to SIGAR data call,
       10/8/2010.
125.   DoS, response to SIGAR data call, 10/5/2010.
126.   UNAMA, “Featured News,” 10/21/2010.
127.   IEC, “Figures,” 9/28/2010; UNAMA, “Featured News,” 10/21/2010.
128.   DoS, “Killing of Parliamentary Candidate and Election Workers in Afghanistan,” 8/31/2010; UN, “The Situation in Afghanistan and Its
       Implications for International Peace and Security,” 9/14/2010, p. 4.
129.   DoS, response to SIGAR data call, 10/5/2010.
130.   DoS, response to SIGAR data call, 10/5/2010.
131.   SIGAR, “Non-Audit Products,” accessed online 10/18/2010.
132.   SIGAR, Audit 10-16, “Lessons Learned in Preparing and Conducting Elections in Afghanistan,” 9/9/2010, p. i.
133.   DoS, response to SIGAR data call, 10/5/2010.
134.   DoS, response to SIGAR data call, 10/5/2010.
135.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/14/2010, p. 3.
136.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 1.
137.   DoS, response to SIGAR data call, 10/8/2010; SIGAR, “Quarterly Report to the United States Congress,” 1/30/2010, p. 78.
138.   DoS, response to SIGAR data call, 10/8/2010.
139.   U.S. Senate Committee on Foreign Relations, “Following Meeting with Chairman Kerry, President Hamid Karzai of Afghanistan Pledges To
       Allow Anti-Corruption Units to Operate Independently,” 8/20/2010.
140.   GIRoA Office of the President, “Joint Statement between Pakistan and Afghanistan on Strengthening the Partnership,” 9/15/2010.
141.   UN, “The Situation in Afghanistan and its Implications for International Peace and Security,” 9/14/2010, p. 7.
142.   UN, “The Situation in Afghanistan and its Implications for International Peace and Security,” 9/14/2010, p. 7.
143.   SIGAR, Audit 11-2, “U.S. Civilian Uplift in Afghanistan Is Progressing, but Some Key Issues Merit Further Examination as Implementation
       Continues,” 10/26/2010.
144.   USAID, response to SIGAR data call, 10/4/2010.
145.   USAID, response to SIGAR data call, 10/4/2010.
146.   USAID, response to SIGAR data call, 10/4/2010.
147.   USAID, response to SIGAR data call, 10/4/2010.
148.   USAID, response to SIGAR data call, 10/4/2010.
149.   USAID, response to SIGAR data call, 10/4/2010.
150.   USAID, response to SIGAR data call, 10/4/2010.
151.   USAID, “Afghanistan Municipal Strengthening Program,” accessed online 10/5/2010.
152.   SIGAR, “Quarterly Report to the United States Congress,” 7/30/2010, p. 79.
153.   USAID, response to SIGAR data call, 10/4/2010; USAID, response to SIGAR vetting, 10/21/2010.
154.   USAID, response to SIGAR data call, 10/4/2010.
155.   USAID, response to SIGAR data call, 10/4/2010.




                                                     156                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




156. USAID, response to SIGAR data call, 10/4/2010.
157. CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 7/21/2010, p. 20; SIGAR, “Quarterly Report to the U.S. Congress.”
     7/30/2010.
158. CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 7/21/2010, pp. 19–20.
159. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 21.
160. DoS, response to SIGAR data call, 10/8/2010.
161. DoS, response to SIGAR data call, 10/8/2010.
162. DoS, response to SIGAR data call, 10/8/2010.
163. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 7.
164. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 7.
165. CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 7/21/2010, p. 54.
166. SIGAR, Audit 10-3S, “Actions Needed For a More Strategic Approach to U.S. Judicial Security Assistance,” 12/18/2010, pp. 1–2.
167. INL, response to SIGAR data call, 10/4/2010.
168. SIGAR, “Quarterly Report to the United States Congress,” 7/30/2010, p. 80; INL, response to SIGAR data call, 10/4/2010.
169. INL, response to SIGAR data call, 10/4/2010.
170. INL, response to SIGAR data call, 10/4/2010.
171. INL, response to SIGAR data call, 10/4/2010.
172. UNODC, “UNODC Assists Afghanistan Justice System in Setting Up Code of Ethics,” 8/20/2010.
173. UNODC, “UNODC Assists Afghanistan Justice System in Setting Up Code of Ethics,” 8/20/2010.
174. INL, response to SIGAR data call, 10/4/2010.
175. INL, “JSSP,” accessed online 9/17/2010.
176. INL, response to SIGAR data call, 10/4/2010.
177. SIGAR, “Quarterly Report to the United States Congress,” 7/30/2010, p. 81; INL, response to SIGAR data call, 10/4/2010.
178. INL, response to SIGAR data call, 10/4/2010.
179. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 22.
180. INL, response to SIGAR data call, 10/4/2010; INL, response to SIGAR vetting, 10/18/2010.
181. INL, response to SIGAR data call, 10/4/2010.
182. INL, response to SIGAR data call, 10/4/2010; INL, response to SIGAR vetting, 10/18/2010.
183. INL, response to SIGAR data call, 10/4/2010; INL, response to SIGAR vetting, 10/18/2010.
184. AIHRC, “Press Release on the Occasion of International Peace Day,” 9/20/2010, p. 1.
185. DoS, response to SIGAR data call, 10/8/2010.
186. NATO, “Civil-Military Fusion Centre: Internally Displaced Persons,” 9/2010, p. 4.
187. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, pp. 10, 44–45.
188. DoS, response to SIGAR data call, 10/8/2010.
189. DoS, response to SIGAR data call, 10/8/2010.
190. DoS, response to SIGAR data call, 10/8/2010.
191. DoS, response to SIGAR data call, 10/6/2010.
192. DoS, response to SIGAR data call, 10/6/2010.
193. DoS, response to SIGAR data call, 10/6/2010.
194. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 33.
195. DoD, “Civil-Military Fusion Centre: Afghanistan: Justice and Reconciliation,” 10/14/2010, pp. 4–5.
196. DoD, “Civil-Military Fusion Centre: Afghanistan: Justice and Reconciliation,” 10/14/2010, p. 5.
197. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 39; DoS, response to SIGAR data call, 10/5/2010.
198. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 9.
199. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 39; UN, “The Situation in Afghanistan and Its Implications for International
     Peace and Security,” 9/14/2010, p. 6.
200. OSD-P, response to SIGAR data call, 10/6/2010.
201. OSD-P, response to SIGAR data call, 10/6/2010.
202. OSD-P, response to SIGAR data call, 10/6/2010.
203. DoS, response to SIGAR data call, 10/5/2010.
204. OSD-P, response to SIGAR data call, 10/6/2010.
205. GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 39; UN, “The Situation in Afghanistan and Its Implications for International
     Peace and Security,” 9/14/2010, p. 6.
206. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/14/2010, p. 6.
207. DoS, response to SIGAR data call, 10/5/2010.
208. DoS, response to SIGAR data call, 10/5/2010.
209. SIGAR, “Quarterly Report to the United States Congress,” 7/30/2010, pp. 70–71.
210. UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/14/2010, p. 6.




        REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2010                 157
                                                          ENDNOTES




211.   UN, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/14/2010, p. 6.
212.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 39.
213.   DoS, response to SIGAR data call, 10/5/2010.
214.   FEWS NET, “Afghanistan: Monthly Price Bulletin,” 8/2010, p. 1.
215.   GIEWS/FAO, “Country Brief: Afghanistan,” 9/8/2010, p. 1.
216.   GIEWS/FAO, “Country Brief: Afghanistan,” 9/8/2010, p. 1.
217.   IRIN, “Afghanistan: Pressure on Wheat Prices,” 9/23/2010, p. 1.
218.   CIMIC, “Afghanistan: Developments in Economic Stabilization: August 2010,” 9/3/2010, p. 2.
219.   CIMIC, “Afghanistan: Developments in Economic Stabilization: August 2010,” 9/3/2010, p. 4.
220.   CIMIC, “Afghanistan: Developments in Economic Stabilization: August 2010,” 9/3/2010, p. 4.
221.   ILO, “Afghanistan Adopts First Ever Decent Work Country Programme,” 7/17/2010.
222.   ILO, “”Launch of Decent Work Country Programme for Afghanistan: Speaking Points, Hervé Berger,” 7/17/2010, pp. 1–3.
223.   NATO/ISAF, “COMISAF’s Counterinsurgency (COIN) Contracting Guidance,” 9/8/2010.
224.   NTM-A, “Afghan Forces Hitting the Ground in Afghan-Made Boots,” 8/23/2010.
225.   NTM-A, “Afghan First Initiatives Paying Off for ANSF,” 9/28/2010.
226.   CIMIC, “Special Report on Economic Development in Afghanistan: The Kabul Bank Crisis,” 9/10/2010, pp. 1–2; Treasury, response to SIGAR
       vetting, 10/15/2010.
227.   SIGAR, “Notification of SIGAR Review: Review of U.S. and International Donor Assistance for Development of the Afghan Banking Sector and
       Afghan Currency Control Systems,” 10/18/2010.
228.   Treasury, response to SIGAR data call, 10/4/2010.
229.   IMF, press release, “IMF and Afghanistan Reach Staff Level Agreement on New Three-Year Extended Credit Facility Program,” 7/20/2010;
       Treasury, response to SIGAR vetting, 10/15/2010.
230.   IMF, “Islamic Republic of Afghanistan: Program Note,” 10/1/2010.
231.   Treasury, response to SIGAR data call, 10/4/2010.
232.   Treasury, response to SIGAR data call, 10/4/2010.
233.   Treasury, response to SIGAR data call, 10/4/2010; Treasury, response to SIGAR vetting, 10/15/2010.
234.   Treasury, response to SIGAR data call, 9/29/2010.
235.   Treasury, response to SIGAR data call, 10/4/2010.
236.   Treasury, response to SIGAR data call, 10/4/2010.
237.   DoS, Afghanistan and Pakistan Regional Stabilization Strategy, 1/21/2010, p. 18.
238.   Treasury, response to SIGAR vetting, 10/15/2010.
239.   Treasury, response to SIGAR data call, 9/29/2010.
240.   MoM, press release, “Afghanistan Finalizes and Signs Gas Pipeline Framework Agreement with Turkmenistan, Afghanistan, Pakistan, and
       India,” 9/22/2010.
241.   IAGS, Journal of Energy Security, “Afghanistan, the TAPI Pipeline, and Energy Geopolitics,” by John Foster, 3/23/2010.
242.   CIMIC, “Afghanistan Review,” 8/25/2010, p. 3.
243.   USDA, “Afghanistan,” 1/2009.
244.   CIMIC, “Afghanistan Review,” 9/1/2010, p. 1.
245.   USAID, response to SIGAR data call, 10/5/2010.
246.   USAID, response to SIGAR data call, 10/5/2010.
247.   USAID, response to SIGAR data call, 10/5/2010.
248.   USAID, press release, “English for Engineers in Afghanistan: Employees Learn Language and Computer Skills to Enhance Performance,”
       9/30/2010; SIGAR, Audit 10-4, “Afghanistan’s Energy Supply Has Increased, But an Updated Master Plan Is Needed, and Delays and
       Sustainability Concerns Remain,” 1/15/2010.
249.   CENTCOM, response to SIGAR data call, 10/4/2010.
250.   USAID, response to SIGAR data call, 10/4/2010.
251.   USAID, response to SIGAR data call, 10/4/2010.
252.   USAID, response to SIGAR data call, 10/4/2010.
253.   USAID, response to SIGAR data call, 10/4/2010; Voice of America, “Attacks on Afghan Children,” 9/8/2010; DoS, Afghanistan and Pakistan
       Regional Stabilization Strategy, 1/21/2010, p. 18.
254.   UN, Human Rights Council, 14th Session, Agenda Item 10, Resolution A/HRC/14/L.7, 6/14/2010.
255.   USAID, response to SIGAR data call, 9/14/2010.
256.   Global Polio Eradication Initiative, “Polio in North-Eastern Afghanistan,” 9/15/2010; IRIN, “Afghanistan: Polio Risk from Two Directions,”
       10/6/2010.
257.   Global Polio Eradication Initiative, “Polio in North-Eastern Afghanistan,” 9/15/2010; IRIN, “Afghanistan: Polio Risk from Two Directions,”
       10/6/2010.
258.   UNAMA, “Afghan Polio Vaccine Campaign Targets 7.7 Million with Support from UN Agencies,” 7/26/2010.
259.   CIMIC, “Afghanistan Review,” 9/1/2010, p. 2.




                                                   158                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




260. CIMIC, “Afghanistan Review,” 7/23/2010, p. 6.
261. UN, “Trends in Maternal Mortality: 1990–2008,” 9/15/2010, p. 1; WHO, “Maternal Deaths Worldwide Drop by Third,” 9/15/2010; MoPH, press
     release, “Children, Maternal Mortality Rate Decrease in Afghanistan,” 9/26/2010.
262. USAID, response to SIGAR data call, 10/4/2010.
263. USAID, response to SIGAR data call, 10/4/2010.
264. Grants.gov, Afghanistan Media Development and Empowerment Project, 6/10/2010.
265. USAID, Request for Proposals, AMDEP: Mobile Khabar-Mobile Phone News and Information Service, RFP 306-10-0031, 7/29/2010, pp. 15, 17.
266. UNESCO, press release, “UNESCO Director General Condemns Wave of Journalist Killings,” 9/13/2010.
267. SIGAR, “Notification of SIGAR Review: Review of U.S. Assistance to Develop Afghanistan’s Agricultural Sector,” 10/2010.
268. U.S. Embassy/Kabul, “Remarks by U.S. Ambassador Karl W. Eikenberry at the MOU Signing Ceremony for the 2010 AVIPA Wheat Seed
     Distribution,” 10/5/2010.
269. GIEWS/FAO, “Country Brief: Afghanistan,” 9/8/2010, p. 1.
270. GIEWS/FAO, “Country Brief: Afghanistan,” 9/8/2010, p. 1.
271. GIEWS/FAO, “Country Brief: Afghanistan,” 9/8/2010, p. 1.
272. CIMIC, “Afghanistan Review,” 9/9/2010, p. 2.
273. CIMIC, “Afghanistan Review,” 8/25/2010, p. 1.
274. FSAC Early Warning Information Working Group, Briefing Report No. 8, 8/10/2010, p. 1.
275. FEWS NET, “Executive Brief: Market Impacts of Russian Export Ban,” 8/20/2010, p. 1.
276. GIEWS/FAO, “Country Brief: Afghanistan,” 9/8/2010, p. 1.
277. USAID, response to SIGAR data call, 10/4/2010.
278. USAID, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, Southwest,” 7/29/2010, pp. 1, 6.
279. USAID, press release, “USAID Grants $30 Million To Champion Afghan Farmers,” 2/4/2010.
280. USAID, response to SIGAR data call, 10/4/2010.
281. USAID, response to SIGAR data call, 10/4/2010.
282. DoD/TFBSO, response to SIGAR data call, 10/1/2010;DoD/TFBSO, response to SIGAR vetting, 10/15/2010.
283. MoM, “The Largest Iron Deposit in the Country Puts on Tender,” 9/2010.
284. World Bank, “Mining for Sustainable Growth in Afghanistan,” 9/1/2010.
285. MoM, “Request for Expression of Interest Hajigak Iron Deposit,” 9/24/2010; MoM, “The Largest Iron Deposit in the Country Puts on Tender,”
     9/2010.
286. Fortune, “Global 500 2009: The World’s Biggest Companies,” accessed online 10/19/2010; Hoovers, “Jiangxi Copper Company Limited:
     Company Profile,” accessed online 10/19/2010.
287. MoM, “Minister Shahrani Signs Historic Railway Agreement,” 9/22/2010.
288. DoS, response to SIGAR data call, 10/4/2010; ANI, “Pak Cabinet Approves Trade Transit Agreement with Afghanistan,” 10/7/2010.
289. ISAF, press release, “Railway Line Completed in Northern Afghanistan,” 9/15/2010.
290. USAID, “Request for Proposal No. 306-10-0031: Land Reform in Afghanistan (LARA) Project,” 7/29/2010, pp. 6, 12, 16.
291. CARDNO Emerging Markets USA Ltd., “Ensuring Sustainability: Creating Local Institutions to Promote Development in Afghanistan,” 2/2010.
292. USAID, “Request for Proposal No. 306-10-0031: Land Reform in Afghanistan (LARA) Project,” 7/29/2010, p. 6.
293. USAID, “Request for Proposal No. 306-10-0031: Land Reform in Afghanistan (LARA) Project,” 7/29/2010, pp. 6–7.
294. USAID, “Request for Proposal No. 306-10-0031: Land Reform in Afghanistan (LARA) Project,” 7/29/2010, p. 16.
295. Kabul International Conference on Afghanistan, Communiqué, 7/20/2010, p. 2.
296. SIGAR, “Roundtable on the Theme: Enhancing Accountability and Transparency, conducted with SIGAR and U.S. officials at the U.S. Embassy
     Kabul,” 9/27/2010.
297. SIGAR, “Roundtable on the Theme: Enhancing Accountability and Transparency, conducted with SIGAR and U.S. officials at the U.S.
     Embassy Kabul,” 9/27/2010; America.gov, “Afghanistan and Pakistan Regional Stabilization Strategy Report Outlines U.S. Strategy To Counter
     Extremism, Support Development,” 1/21/2010, accessed online 10/23/2010.
298. See Appendix B of this report.
299. UNODC, “Afghanistan: Opium Survey 2010,” 9/2010, p. 2.
300. DoD, response to SIGAR data call, 10/6/2010.
301. DoD, response to SIGAR data call, 10/6/2010.
302. SIGAR, “Notification of SIGAR Review,” 10/15/2010.
303. SIGAR, “Quarterly Report to the U.S. Congress,” 4/2010, p. 121.
304. USAID, response to SIGAR data call, 10/4/2010.
305. USAID OIG, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, p. 8.
306. USAID, response to SIGAR data call, 4/6/2010.
307. USAID OIG, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, pp. 5, 7; USAID OIG, “Audit
     of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, pp. 8–10.
308. SIGAR, “Quarterly Report to the U.S. Congress,” 4/2010, p. 122.
309. USAID OIG, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, p. 9.




       REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2010               159
                                                           ENDNOTES




310.   USAID OIG, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, p. 9.
311.   USAID OIG, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, pp. 10–11.
312.   USAID, response to SIGAR data call, 10/4/2010.
313.   USAID OIG, “Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West,” 7/29/2010, p. 6.
314.   USAID, response to SIGAR data call, 10/4/2010.
315.   SIGAR, “Quarterly Report to the U.S. Congress,” 4/2010, p. 122; USAID, response to SIGAR data call, 10/4/2010.
316.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 2.
317.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 16.
318.   DoS, response to SIGAR data call, 10/8/2010.
319.   Transparency International, “An Open Letter from Transparency International to the Participants of the London Conference on Afghanistan on
       28 January 2010,” 1/26/2010.
320.   Transparency International, “Anti-Corruption Research News,” 6/2010.
321.   See Appendix B of this report.
322.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 2.
323.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 3.
324.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 5.
325.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 5.
326.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, pp. 3–4.
327.   Treasury OTA, response to SIGAR data call, 9/29/2010; SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a
       Finalized Comprehensive U.S. Anti-Corruption Strategy,” 8/5/2010, pp. 3–4.
328.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 16.
329.   INL, “2010 International Narcotics Control Strategy Report (INCSR),” 3/1/2010, p. 4; DoS, response to SIGAR data call, 10/8/2010.
330.   DoS, response to SIGAR data call, 10/8/2010.
331.   DoS, response to SIGAR data call, 10/8/2010.
332.   DoS, response to SIGAR data call, 10/8/2010.
333.   DoS, response to SIGAR data call, 10/8/2010.
334.   DoS, response to SIGAR data call, 10/8/2010. Data call response provided in collaboration with the Federal Bureau of Investigation.
335.   DoS, response to SIGAR data call, 10/8/2010. Data call response provided in collaboration with the Federal Bureau of Investigation.
336.   DoS, response to SIGAR data call, 10/8/2010.
337.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 2.
338.   DoS, response to SIGAR data call, 10/8/2010.
339.   SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
       8/5/2010, p. 2.
340.   DoS, response to SIGAR data call, 10/8/2010; USAID, response to SIGAR vetting, 10/21/2010.
341.   INL, “2010 International Narcotics Control Strategy Report (INCSR),” 3/1/2010, p. 3; DoS, response to SIGAR data call, 10/8/2010.
342.   DoS, response to SIGAR data call, 10/8/2010.
343.   DoS, response to SIGAR data call, 10/8/2010.
344.   GIRoA, FinTRACA homepage, accessed online 10/6/2010.
345.   Treasury OTA, response to SIGAR data call, 9/29/2010.
346.   Treasury OTA, response to SIGAR data call, 9/29/2010.




                                                    160                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
Cover Captions (clockwise from left):
An Afghan examines the complex ballot for
the September 18 parliamentary elections.
The Afghan Independent Election Commis-
sion took full responsibility for elections
preparation, using funding provided by the
international community through the United
Nations Development Programme. Final
results will be announced in early Novem-
ber. (USAID photo)
A farmer feeds livestock at the fourth
International AgFair, held in Kabul on Octo-
ber 7, 2010. Afghanistan is home to one of
the fastest-growing agricultural markets in
Central Asia. The fair presented an opportu-
nity for Afghans to showcase their products
to potential exporters. (ISAF photo, SSgt
Joseph Swafford)
Afghan girls attend the Omid School in
Kabul in October. This quarter, more than
100 girls and teachers were poisoned with
an agricultural pesticide. Toxicologists
confirmed that the exposure was intentional
and could not have been caused by
casual or regular contact. Attacks on
Afghan schoolgirls have occurred regularly
since the fall of the Taliban. (U.S. Navy
photo, CPO Joshua R. Treadwell)
A cobbler assembles combat boots for
the ANA at the Afghan-owned Milli Trading
Company factory in Kabul in September.
Formerly, U.S. companies supplied boots to
the ANA. The Afghan First initiative encour-
ages the ANA, NATO, ISAF, and U.S. forces
to increase procurement from Afghan com-       The new Tojg Bridge is open for traffic after three years of construction. Funded by CERP, the
panies. This factory makes about 2,400         $1.7 million bridge stretches approximately 300 meters across the Farah River, providing a
boots per day. (U.S. Air Force photo, SSgt       shorter route between several districts and the capital of Farah. The bridge is expected to
Sarah Brown)                                    enhance economic activity and to reduce the ANA’s response time in the area. (ISAF photo)
                                                                                                         sigar
SIGAR
Special Inspector General                                                                                                       Special Inspector General for   OCT 30




                                 SIGAR | Quarterly Report to the United States Congress | OCT 30, 2010
for Afghanistan Reconstruction
                                                                                                                                Afghanistan Reconstruction       2010
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 4                                                                       Quarterly Report to the United States Congress
